<html>
<title> - OVERSIGHT HEARING ON THE COSTLY IMPACTS OF PREDATION AND CONFLICTING FEDERAL STATUTES ON NATIVE AND ENDANGERED FISH SPECIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 THE COSTLY IMPACTS OF PREDATION AND CONFLICTING FEDERAL STATUTES ON 
                  NATIVE AND ENDANGERED FISH SPECIES

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 10, 2016

                               __________

                           Serial No. 114-31

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               ____________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-723 PDF                    WASHINGTON : 2016                        
              
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>  
                   
                    
                    
                    
                    
                    COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       JOHN FLEMING, LA, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Robert J. Wittman, VA                Jim Costa, CA
Tom McClintock, CA                   Ruben Gallego, AZ
Cynthia M. Lummis, WY                Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Gregorio Kilili Camacho Sablan, 
Paul A. Gosar, AZ                        CNMI
Doug LaMalfa, CA                     Raul Ruiz, CA
Jeff Denham, CA                      Alan S. Lowenthal, CA
Garret Graves, LA                    Norma J. Torres, CA
Dan Newhouse, WA                     Debbie Dingell, MI
Thomas MacArthur, NJ                 Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                              ---------                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 10, 2016.....................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Demko, Doug, President, FISHBIO, Chico, California...........    35
        Prepared statement of....................................    37
        Questions submitted for the record.......................    45
    Grossman, Gary D., Professor of Animal Ecology, Warnell 
      School of Forestry and Natural Resources, University of 
      Georgia, Athens, Georgia...................................    31
        Prepared statement of....................................    33
    McCormack, Hon. Leotis, Secretary, Columbia River Inter-
      Tribal Fish Commission, Lapwai, Idaho......................     8
        Prepared statement of....................................    10
    Stelle, Will, Regional Administrator, West Coast Region, 
      National Marine Fisheries Service, Portland, Oregon........    18
        Prepared statement of....................................    19
        Questions submitted for the record.......................    24

Additional Materials Submitted for the Record:
    U.S. Fish and Wildlife Service, U.S. Department of the 
      Interior, prepared statement of............................    64
                                     


 
 OVERSIGHT HEARING ON THE COSTLY IMPACTS OF PREDATION AND CONFLICTING 
         FEDERAL STATUTES ON NATIVE AND ENDANGERED FISH SPECIES

                              ----------                              


                      Wednesday, February 10, 2016

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Lummis, Gosar, LaMalfa, 
Denham, Newhouse; Huffman, Costa, and Lowenthal.
    Dr. Fleming. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on an oversight hearing entitled, 
``The Costly Impacts of Predation and Conflicting Federal 
Statutes on Native and Endangered Fish Species.''
    We will begin with opening statements, and I yield to 
myself for just that.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. The focus of today's hearing is about 
simultaneously protecting the American taxpayer and the 
electricity ratepayer, enhancing self-sustaining tribal 
economies and coastal economies, and stabilizing food prices.
    There are numerous so-called `stressors' on native and 
endangered fisheries, but predation by sea lions, birds, and 
other fish has become a growing problem that outweighs all 
other stressors in some circumstances. Yet, reducing this 
stressor should be the lowest hanging fruit to pick, if the 
Federal Government had its act together. Shockingly, it 
doesn't.
    Billions of ratepayer and taxpayer dollars have been spent 
to recover endangered fish species on the West Coast and 
elsewhere. Some measures are working. For example, on average, 
over 95 percent of salmon migrating through the Pacific 
Northwest's Federal Columbia River system successfully pass 
through and over the dams. Electricity ratepayers have invested 
significantly in this endeavor, with over a third of their 
monthly bills accounting for migrating salmon costs each year.
    But, to add insult to injury, as we will hear later today, 
sea lions decimate up to 45 percent of the returning Chinook 
salmon run, and birds eat up to 20 percent of the entire out-
migration of juvenile salmon each year. Those sea lions and 
birds are protected by other Federal statues--namely, the 
Marine Mammal Protection Act and the Migratory Bird Treaty Act. 
So, once again, we have another example of how the right and 
the left arms of the Federal Government are acting opposite of 
each other.
    Further down in California, where the eyes of the Nation 
have focused on a crippling drought, Federal and state water 
supply restrictions have been imposed to help protect the 3-
inch Delta smelt and salmon. There are numerous factors that 
harm the fish, but predation has helped keep these fish on the 
Federal Endangered Species Act list, and the regulations that 
go with this listing.
    These regulatory measures have exacerbated a natural 
drought, and the end result has been skyrocketing unemployment 
up to 40 percent. In the meantime, third-party litigation 
against measures to control these predators continues. 
Louisianans are paying not only for this litigation, but for 
the higher food prices associated with California's fruits, 
nuts, and vegetables.
    The Federal Government can do better, starting with 
enacting bipartisan legislation introduced by our colleagues, 
Jamie Herrera Beutler and Kurt Schrader, to control more sea 
lions. More administrative things can be accomplished, too, 
beginning with what our tribal witness says is a ``metric for 
fish, bird, and marine mammal predation, so the comparisons and 
impacts can be properly assessed.''
    The status quo may be working for sea lions and litigators, 
but it is not working for the American taxpayer, the 
electricity ratepayer, fisheries, tribal communities who have 
worked hard to bring back salmon populations, and our food 
consumers nationwide. Today's hearing is another step toward 
much-needed change.
    [The prepared statement of Dr. Fleming follows:]
Prepared Statement of the Hon. John Fleming, Chairman, Subcommittee on 
                        Water, Power and Oceans
    The focus of today's hearing is about simultaneously protecting the 
American taxpayer and the electricity ratepayer, enhancing self-
sustaining tribal economies and coastal economies and stabilizing food 
prices.
    There are numerous so-called ``stressors'' on native and endangered 
fisheries, but predation by sea lions, birds, and other fish has become 
a growing problem that outweighs all other stressors in some 
circumstances. Yet, reducing this stressor could be the lowest hanging 
fruit to pick if the Federal Government had its act together. 
Shockingly, it doesn't.
    Billions of ratepayer and taxpayer dollars have been spent to 
recover endangered fish species on the West Coast and elsewhere. Some 
measures are working. For example, on average, over 95 percent of 
salmon migrating through the Pacific Northwest's Federal Columbia River 
system successfully pass through and over the dams. Electricity 
ratepayers have invested significantly in this endeavor, with over a 
third of their monthly bills accounting for migrating salmon costs each 
year.
    But, to add insult to injury and as we will hear later today, sea 
lions decimate up to 45 percent of the returning Chinook salmon run and 
birds eat up to 20 percent of the entire out-migration of juvenile 
salmon each year. Those sea lions and birds are protected by other 
Federal statutes, namely the Marine Mammal Protection Act and the 
Migratory Bird Treaty Act. So, once again we have another example of 
how the right and left arms of the Federal Government are acting 
opposite of each other.
    Further down in California, where the eyes of the Nation have 
focused on a crippling drought, Federal and state water supply 
restrictions have been imposed to help protect the 3-inch Delta Smelt 
and salmon. There are numerous factors that harm the fish, but 
predation has helped keep these fish on the Federal Endangered Species 
Act list and the regulations that go with this listing. These 
regulatory measures have exacerbated a natural drought and the end 
result has been skyrocketing unemployment of up to 40 percent. In the 
meantime, third party litigation against measures to control these 
predators continues. Louisianans are paying not only for this 
litigation but for the higher food prices associated with California's 
fruits, nuts, and vegetables.
    The Federal Government can do better--starting with enacting 
bipartisan legislation introduced by our colleagues Jamie Herrera 
Beutler and Kurt Schrader to control more sea lions. More 
administrative things can be accomplished too, beginning with what our 
tribal witness says is a ``metric for fish, bird and marine mammal 
predation so that comparisons and impacts can be properly assessed.''
    The status quo may be working for sea lions and litigators, but it 
is not working for the American taxpayer, the electricity ratepayer, 
fisheries, tribal communities who have worked hard to bring back salmon 
populations and our food consumers nationwide. Today's hearing is 
another step toward much-needed change.

                                 ______
                                 

    Dr. Fleming. The Chair would like to recognize the Ranking 
Member, Mr. Huffman.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman, and thanks to our 
visitors today. I have to say I really do enjoy the 
opportunities that we have to have substantive discussions 
about issues affecting our natural resources and our 
environment. These discussions really remind us just how much 
we depend on healthy, functioning, resilient ecosystems. We 
depend on them for food, for clean water, for jobs, revenue, 
recreation, and for protection from disaster. So, I am very 
pleased today to have a conversation about these issues, and to 
discuss how we will work toward the recovery of our native 
salmon and steelhead.
    Now, as the Chairman knows, many of our salmon and 
steelhead runs are not doing so well. I am sorry to say that in 
California we have what can only be described as a salmon 
crisis. According to some estimates, 78 percent of our 
California native salmon may be extinct or extirpated within 
the next century if the current trends continue.
    In 2008 and 2009, we had the first-ever total closure of 
the ocean salmon fishery along the West Coast because of the 
poor returns in California. A closure like that absolutely 
devastates the fishing industry. It results in significant job 
losses. And, ultimately, closures like that require millions of 
dollars in disaster aid from Congress. Sadly, what happened in 
2008 and 2009 may only be a preview of our future if we 
continue on with business as usual.
    While I appreciate the focus of today's hearing is on 
predation, it is important to recognize there are many other 
important stressors, much greater stressors, that have to also 
be discussed and addressed before our salmon and steelhead 
stocks will recover.
    In California, we have unsustainable water exports from the 
Sacramento-San Joaquin Delta, degraded habitat conditions, an 
environment where more than 90 percent of the historic spawning 
habitat for Central Valley salmon and steelhead is blocked by 
dams, and a lack of sufficient cold water to sustain our 
fisheries.
    Just last week Federal officials announced that we had a 97 
percent mortality rate for juvenile Sacramento winter-run 
salmon in 2015, and that is following similar dismal years each 
of the prior 2 years. We know this disastrous decline was 
caused by excessive water withdrawals and faulty temperature 
readings that allowed water temperatures in the Sacramento 
River to rise too high for salmon survival. The year before, 
juvenile salmon, as I mentioned, had a 95 percent mortality 
rate. And together, this data suggests that we absolutely have 
to address the scientifically demonstrated root cause of this 
problem. We need to do better.
    Now, on predation, I think our recovery efforts have to be 
guided by science. Currently, there is some scientific 
uncertainty about whether predator removal programs, like the 
ones supported by my Republican colleagues, actually help or 
hurt endangered fisheries. But I do agree that the issue is 
worth examining, and I look forward to hearing from our 
witnesses.
    However, we also have to deal with the other stressors that 
we know are preventing salmon recovery, even the politically 
difficult ones, like unsustainable water exports in California. 
Otherwise, we will never be able to protect the salmon jobs 
that are so important to my district or to Oregon, Washington, 
or Alaska. It is also very important to note that predator 
control problems supported by my Republican colleagues target 
fish species that are protected and managed very differently 
under state law.
    So I hope, going forward, my Republican colleagues will 
give some consideration to the fact that it is the state of 
California and its Fish and Game Commission that decides 
whether a fish like the striped bass is treated as a nuisance 
predator that should be fished out of a system, or whether it 
is prized for its value as a game fish. We are going to have to 
work together with the state and try to be on the same page.
    Similar to California, the Columbia River system is home to 
13 ESA-listed salmon and steelhead runs. And we know that the 
decline of these runs has been caused by the construction and 
operation of large dams. The Bonneville Power Administration 
and the Army Corps of Engineers have invested a lot of 
resources into helping imperiled fish navigate the stagnant 
pools and massive dams blocking what, in many cases, are 
severely degraded spawning grounds. But there is still a lot of 
work to do.
    Last year, this committee examined legislation to increase 
lethal take of California sea lions below Bonneville Dam. There 
is every reason to believe that simply focusing on that problem 
will not solve the bigger problem of salmon recovery. It will 
not solve the problem of the Bonneville buffet created as 
salmon line up to enter the dam's fish ladders. And it is 
important to remember the dam created the buffet; the sea lions 
are just exercising their all-you-can-eat privileges.
    Likewise, programs to kill cormorants and Caspian terns are 
very questionable. A U.S. Fish and Wildlife survey recently 
found that cormorant predation on juvenile salmon has no impact 
on the number of adults returning to the river, and therefore, 
no impact on salmon survival and recovery.
    Look, in an ecosystem, lots of living things eat lots of 
other living things. That is the way nature works. Perhaps we 
are overdue for a primer on that basic tenet of ecosystems.
    But I do look forward to our discussion this morning, Mr. 
Chairman. And again, I thank the witnesses for their 
participation.
    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Mr. Chairman, I have to say that I really enjoy the opportunity to 
have substantive discussions about issues affecting our resources and 
our environment. These discussions remind us just how much we depend on 
healthy, functioning, resilient ecosystems. We rely on them for food, 
clean water, jobs, revenue, recreation, and protection from disasters, 
so I'm pleased to talk today about these issues and to discuss how 
we'll work toward the recovery of our native salmon and steelhead.
    As the Chairman knows, many of our salmon and steelhead runs are 
not doing well. I'm sorry to say that in California we have what can 
only be described as a salmon crisis. According to some estimates, 78 
percent of California's native salmon will be extinct or extirpated 
within the next century if current trends continue.
    In 2008 and 2009, we had the first ever total closure of the ocean 
salmon fishery along the West Coast because of poor salmon returns from 
California. The closure devastated the Pacific Coast fishing industry, 
resulting in significant job losses. Ultimately, the fishing closure 
required millions of dollars in disaster aid from Congress. Sadly, what 
happened in 2008 and 2009 is only a preview of our future if we 
continue on with business as usual.
    While I appreciate that the focus of today's hearing is predation, 
we know that there are many other important stressors that we must 
address before our salmon and steelhead stocks will recover. In 
California we have unsustainable water exports from the Sacramento-San 
Joaquin Delta, degraded habitat conditions, an environment where more 
than 90 percent of the historical spawning habitat for Central Valley 
salmon and steelhead is blocked by dams, and a lack of sufficient cold 
water to sustain our fisheries.
    Just last week Federal officials announced that we had a 97 percent 
mortality rate for juvenile Sacramento winter-run salmon in 2015. We 
know that this disastrous decline was caused by excessive water 
withdrawals and faulty temperature readings that allowed water 
temperatures in the Sacramento to rise too high for salmon to survive. 
The year before, juvenile salmon suffered a 95 percent mortality rate. 
We must address the scientifically demonstrated root causes of this 
problem. We must do better.
    On predation, I believe our recovery efforts must be guided by the 
science. Currently, there's some scientific uncertainly about whether 
predator removal programs like the ones supported by my Republican 
colleagues actually help or hurt endangered fisheries, but I agree that 
the issue is worth examining and I look forward to hearing more from 
our witnesses. But we must also deal with the other stressors that we 
know are preventing salmon recovery, even the politically difficult 
ones like unsustainable water exports from the Sacramento-San Joaquin 
Delta. Otherwise we'll never be able to protect the salmon jobs that 
are so important to my district, or to Oregon, Washington, or Alaska. 
It's also important to note that the predator control programs 
supported by my Republican colleagues target fish species protected 
under State law. I hope going forward my Republican colleagues will 
respect the state of California's role in determining species 
protections.
    Similar to California, the Columbia River system is home to 13 ESA-
listed salmon and steelhead runs. We know that the decline of these 
runs has been caused by the construction and operation of the Federal 
Columbia River Power System, While the Bonneville Power Administration 
and the Army Corps of Engineers have invested significant resources in 
helping imperiled fish navigate the stagnant pools and massive dams 
blocking what are in many cases significantly degraded spawning 
grounds, there is still much work to be done.
    Last year, this committee examined legislation to increase lethal 
take of California sea lions below Bonneville dam. We know that sea 
lions are native to this area and have always eaten salmon. While 
removing a few of them may make some people feel better, and may in the 
case of identified problem animals have some measurable positive 
impact, it will not solve the problem of the ``Bonneville Buffet'' 
created as salmon line up to enter the dam's fish ladders.
    Likewise, programs to kill cormorants and Caspian terns--which have 
been eating salmon and steelhead in the lower Columbia since long 
before humans first set foot in North America--will not bring these 
fish back from the brink of extinction. Indeed, a U.S. Fish and 
Wildlife Service study found last year that cormorant predation on 
juvenile salmon has no impact on the number of adults returning to the 
river, and therefore no impact on salmon survival and recovery.
    In an ecosystem, lots of living things eat lots of other living 
things. That's simply the way nature works. In an ecosystem heavily 
altered by humans, new conditions often favor some predators over 
others. Salmon are keystone species, and many other species depend on 
salmon as part of their diets. They always have and they always will. 
This is not something we should lament, and neither is the fact that 
conservation laws like the Marine Mammal Protection Act and the 
Migratory Bird Treaty Act have been successful in restoring many of 
these salmon dependent species. What we should lament is that we have 
not done enough to deal with the root causes of salmon decline and have 
not taken the actions necessary to restore fish populations as quickly 
as we have restored populations of some seabirds and marine mammals.
    One action that would have a much more significant impact on salmon 
and steelhead recovery is the removal of dams that have outlived their 
useful life spans. I applaud President Obama, Secretary Jewell, 
Undersecretary Sullivan, the states of California and Oregon, and 
PacifiCorp for circumventing the roadblocks thrown up by this 
Republican Congress and beginning the long overdue process of dam 
removal on the Klamath River. I am hopeful that this is the beginning 
of a movement to accelerate salmon recovery by focusing on deadbeat 
dams in the West.

    Thank you, I yield back.

                                 ______
                                 

    Dr. Fleming. The gentleman yields.
    The Chair now recognizes Dr. Gosar for an opening 
statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Mr. Chairman, and thanks to the 
witnesses for coming today. The topic of this hearing is very 
important to Arizonans and others who depend on the Colorado 
River for their water and power supplies. Most everyone agrees 
with the need to recover truly endangered species. The 
questions are over the best ways to accomplish this objective.
    As many of us in the West know, the Endangered Species Act 
is a relatively inflexible Federal law that continues to be 
driven by litigation. The endangered species costs borne by the 
American taxpayer and water and electricity ratepayers can be 
staggering in some cases, but some do not want those costs to 
be made public or in an understandable form.
    That is why I have introduced H.R. 1869, the Environmental 
Compliance Cost Transparency Act. This bipartisan bill mandates 
the power marketing administrations, which sell power from our 
Federal reservoirs, to provide a line item of the environmental 
costs on their customers' power bills. This allows customers to 
see exactly what they are paying for, so that they are better 
informed to what may be working and what may not. Shining the 
light of sun on government is never a bad thing.
    Controlling predators is part of these costs. For example, 
efforts to control the evasive green sunfish, which devour 
endangered humpback chub near Lees Ferry, Arizona, are part of 
hundreds of millions of ratepayer and taxpayer dollars aimed to 
recovering four endangered fish in parts of the Colorado River 
Basin.
    As we will hear today, we actually have some Federal laws 
that make it even harder to recover truly endangered species. 
Perhaps more egregiously, we have an outdated provision in the 
Federal Central Valley Project Improvement Act that actually 
has a goal of doubling the invasive striped bass, a voracious 
predator of endangered salmon smolts.
    [Slide]
    Dr. Gosar. Now, if you will take a look up at the screen, 
there is a picture. In some cases, over 90 percent of the 
smolts are devoured by striped bass in parts of central 
California, making a mockery of fish recovery and taxpayer 
investments.
    Now we are going to look at a video in just a second. This 
video, while reminiscent of a 1980s video game, shows us how a 
smolt which has radio telemetry is being chased and devoured by 
a striped bass which also has a radio. This 2009 Bureau of 
Reclamation study at the Old and San Joaquin Rivers shows the 
salmon in red, chased by the striped bass in blue. Let's take a 
peek.
    [Video shown.]
    Dr. Gosar. Yes, you can't make up this contradiction in 
Federal law. But every time Republicans have tried to strip the 
striped bass from that list, we are met with statements that 
the 1992 law is sacrosanct and cannot be touched.
    Outdated laws do nothing except line fundraisers' and 
lawyers' pockets, and prolong a failed status quo. And blaming 
Federal water and power infrastructure, in the hopes of tearing 
it down, breaching it, or undermining it, is not only 
irresponsible, but unrealistic.
    We have two witnesses before us today: a tribal 
representative from the Pacific Northwest and a fish biologist 
from California, who experience these issues firsthand every 
day, and see the unnecessary conflicts between our Federal 
laws. I commend them for their leadership and dedication, and 
hope that this Administration will finally start to listen.
    As Chairman Fleming said in his opening statement, let's 
pick some low-hanging fruit.
    And with that, Mr. Chairman, I yield back. Thank you.
    [The prepared statement of Dr. Gosar follows:]
   Prepared Statement of the Hon. Paul A. Gosar, a Representative in 
                   Congress from the State of Arizona
    Thank you for holding this hearing. The topic of this hearing is 
very important to Arizonans and others who depend on the Colorado River 
for their water and power supplies.
    Most everyone agrees with the need to recover truly endangered 
species. The questions are over the best ways to accomplish this 
objective. As many of us in the West know, the Endangered Species Act 
is a relatively inflexible Federal law that continues to be driven by 
litigation.
    The endangered species costs borne by the American taxpayer and 
water and electricity ratepayers can be staggering in some cases, but 
some don't want these costs to be made public or in understandable 
form. That's why I've introduced H.R. 1869, the Environmental 
Compliance Cost Transparency Act. This bipartisan bill mandates the 
Power Marketing Administrations, which sell power from our Federal 
reservoirs, to provide a line item of environmental costs on their 
customers' power bills. This allows customers to see what exactly 
they're paying for so they are better informed of what may be working 
and what may not. Shining the sun on government is never a bad thing.
    Controlling predators are part of these costs. For example, efforts 
to control invasive green sunfish, which devour endangered humpback 
chub, near Lees Ferry, Arizona are part of the hundreds of millions of 
ratepayer and taxpayer dollars aimed to recovering four endangered fish 
in parts of the Colorado River Basin.
    As we will hear today, we actually have some Federal laws that make 
it even harder to recover truly endangered species. Perhaps most 
egregiously, we have an outdated provision in the Federal Central 
Valley Project Improvement Act that actually has a goal of doubling the 
invasive striped bass, a voracious predator of endangered salmon smolts 
(as the picture on the screen indicates). In some cases, over 90 
percent of the smolts are devoured by striped bass in parts of central 
California, making a mockery of fish recovery and ratepayer 
investments.
    This video, while reminiscent of a 1980s video game, shows us how a 
smolt that has radio telemetry is being chased and devoured by a 
striped bass which also has a radio (show video).
    You can't make up this contradiction in Federal law, but every time 
Republicans have tried to strip the striped bass from that list, we are 
met with the statement that the 1992 law is sacrosanct and cannot be 
touched. Outdated laws do nothing except line fundraisers and lawyers 
pockets and prolong a failed status quo.
    And blaming Federal water and power infrastructure in the hopes of 
tearing it down, breaching it, or undermining it are not only 
irresponsible but unrealistic.
    We have two witnesses before us today--a tribal representative from 
the Pacific Northwest and a fish biologist from California--who 
experience these issues firsthand every day and see the unnecessary 
conflicts between our Federal laws. I commend them for their leadership 
and dedication and hope that this Administration will finally start to 
listen. As Chairman Fleming said in his opening statement, let's pick 
some low-hanging fruit.
    I look forward to today's hearing. Thank you.

                                 ______
                                 

    Dr. Fleming. The gentleman yields. We are ready to hear 
from our witnesses today. Each witness' testimony will appear 
in full in the hearing record, so I ask that witnesses keep 
their oral statement to 5 minutes, as outlined in our 
invitation letter.
    You noticed we went maybe a little bit over our 5 minutes. 
We set a bad example for you.
    [Laughter.]
    Dr. Fleming. We prefer you stay within your 5 minutes.
    I also want to explain the timing lights. You will be under 
a green light for 4 minutes, a yellow light for 1 minute, and, 
when it turns red, we ask that you conclude your statement. 
Every word of your statement will be put into the written 
testimony.
    To introduce our witnesses, first we have the Honorable 
Leotis McCormack, Secretary of the Columbia River Inter-Tribal 
Fish Commission from Lapwai, Idaho. Am I saying that correctly? 
Lapwai? OK.
    We also have Mr. Will Stelle, Regional Administrator of the 
West Coast Region for the National Marine Fisheries Service, 
based in Portland, Oregon; Dr. Gary Grossman, Professor of 
Animal Ecology with the Warnell School of Forestry and Natural 
Resources at the University of Georgia in Athens, Georgia; and 
Mr. Doug Demko, President of FISHBIO in Chico, California.
    I now recognize Mr. McCormack for your testimony, sir.

  STATEMENT OF THE HON. LEOTIS McCORMACK, SECRETARY, COLUMBIA 
       RIVER INTER-TRIBAL FISH COMMISSION, LAPWAI, IDAHO

    Mr. McCormack. [Speaking native language.] Good morning. 
Again, my name is Leotis McCormack. I am a Councilman for the 
Nez Perce Tribe. I also sit as the Secretary for the Columbia 
River Inter-Tribal Fish Commission (CRITFC). Chairman Fleming 
and committee members, I want to extend my appreciation for 
this opportunity to testify before you this morning.
    As it stands, there are 13 salmon and steelhead populations 
in the Columbia Basin listed under the Endangered Species Act. 
Predation by marine mammals and birds of freshwater fish is one 
of the largest sources of mortality upon juvenile and adult 
salmon alike. There is a regional consensus that predation is 
and will be a priority issue to address.
    I will briefly describe the three categories of predation, 
followed by current actions being taken to manage them, then 
conclude with some recommendations.
    First, regarding marine mammals: 20 years ago, Yakima 
Nation fisherman and tribal leader, Virgil Lewis, was among the 
first citizens of the Northwest to recognize and call attention 
to the growing California sea lion problem. There was a huge 
presence in the lower Columbia River as fish counts, because of 
the dams, were dropping. The fish that did make it to the fish 
ladders were often mortally wounded by these sea lions.
    Today, it is widely understood that sea lions and other 
marine mammals are causing serious harm to endangered salmon. 
CRITFC estimates that over 50,000 ESA-listed spring Chinook 
salmon have been taken in the Columbia River by California sea 
lions since the year 2000. The current sea lion population is 
now greater than 350,000, a six-fold increase since the 
enactment of the Marine Mammal Protection Act (MMPA). They are 
growing at a rate of 9.2 percent every single year.
    Following a lengthy permitting process, the states of 
Oregon and Washington are implementing an effective, though 
limited, lethal removal program. This limited removal program, 
as it stands, has not and will not keep pace with their growth 
rate.
    We are particularly concerned with the effect this growing 
sea lion population will have on the lower return years which 
are being projected. Last session, H.R. 564, the Endangered 
Salmon and Fisheries Predation Prevention Act was introduced to 
create more efficiency in dealing with predator sea lions. 
CRITFC strongly supports that specific legislation.
    For predation by avian species: there are over a dozen 
species of birds in the Columbia Basin whose diet is primarily 
fish. Annual losses of juveniles are staggering. During 4 
recent years of recordkeeping from 2010 to 2013, losses ranged 
from 17-21 million smolts annually by a double-crested 
cormorant colony on East Sand Island, a man-made island near 
the mouth of the Columbia River. This equates to approximately 
20 percent of the entire out-migration of all juvenile 
salmonids each year. Caspian terns nesting on that same island 
consumed an additional 3-5 million smolts annually during that 
same time period.
    The Caspian tern control strategy has been to drive them 
from areas of high salmon predation to areas of lower impact. 
However, this process takes years. It is highly unpredictable, 
and during the transition period, juvenile salmonids continue 
to be eaten by the millions.
    The double-crested cormorant emphasis is on nest 
destruction and lethal removal of 50 percent of the existing 
population. We achieved last year's goal of destroying over 
5,000 nests and the lethal removal of the approximately 3,500 
adult birds. There are 3 years remaining in this effort.
    With regard to predation by freshwater fish species: the 
Columbia River was originally home to fewer than 40 fish 
species, including salmon. Today the number is close to 80. 
Half of these fish are not native, and many of them are 
partially or wholly fish-eating.
    For over 20 years, the native northern pikeminnow has been 
the target of an aggressive bounty campaign to reduce its 
numbers, generally successfully. However, many non-native fish 
are given protection as game fish, and managed for sport 
angling purposes. It is a recipe for disaster for endangered 
salmon.
    In my written testimony, I include several specific 
management recommendations, which I will summarize here. First, 
develop a common metric for fish, bird, and marine mammal 
predation. Second, assess and act quickly when predation trends 
develop. Third, prioritize salmon management in anadromous 
waters and remove barriers to harvest of non-native fish 
species, then emphasize population management, rather than on 
individual animals. Determine reasonable population ceilings 
for avian predators, then predatory non-native fishes, and 
last, reduce, when necessary, overall predator population sizes 
using all tools, including lethal removal.
    How can Congress improve natural resource? They can do that 
by placing tribes on equal footing as states for access to 
authorities, permits, and management tools and requiring 
respectful deference to tribal treaty rights and endangered 
species when in conflict with non-endangered protected species.
    Chairman Fleming and committee members, this hearing gives 
us hope that Congress will address these contradictions and 
otherwise well-intended natural resource laws. So again, I want 
to say [Speaks native language.], thank you from the bottom of 
my heart for this opportunity to testify before you today. 
Thank you.

    [The prepared statement of Mr. McCormack follows:]
 Prepared Statement of the Hon. Leotis McCormack, Nez Perce Tribe and 
       Commissioner, Columbia River Inter-Tribal Fish Commission

    Chairman Fleming, Ranking Member Huffman and distinguished members 
of the Water, Power and Oceans Subcommittee, on behalf of the Nez Perce 
Tribe and the Columbia River Inter-Tribal Fish Commission (CRITFC), 
thank you for inviting me to testify on the costs, impacts and 
management implications related to the various forms of predation upon 
native and endangered fish species. My testimony will provide an 
overview of the three main sources of predation: marine mammals; avian; 
and freshwater fish, against Columbia River salmon, sturgeon and 
lamprey. I will offer a brief history of the CRITFC and our legal 
authorities related to salmon management before discussing successes 
and challenges managing these forms of predation on Columbia Basin 
salmonids. My testimony will conclude recommendations for improving 
predation management.
          an overview of predation on columbia river salmonids
    Predation is a keystone agent that controls fish population 
dynamics. Although predation is a naturally occurring population 
control agent, management becomes necessary in a highly modified 
environment, such as the Columbia River Basin. Since the implementation 
of the Tribes' Spirit of the Salmon Plan, an alarming increase in 
predation of sturgeon juveniles, salmon and lamprey by birds, marine 
mammals and other fish has occurred (Rieman et al. 1991; Collis et al. 
2002; Evans et al. 2012; Stansell et al. 2010). In the basin, newly 
created habitats from dredge spoils increased predacious bird 
populations, along with changes to primary food sources bringing more 
hungry sea lions upriver, the creation of reservoirs and the 
introduction of predatory species have resulted in ballooning predator 
populations. The negative changes in avian, mammalian, and fish species 
population dynamics have tipped the predator/prey balance to the point 
that active management is required to rebalance predator populations 
and reduce salmon, lamprey and sturgeon losses.
    Avian predation refers to predation by piscivorous (i.e., fish 
eating) birds on salmonids. Key avian predator species in the Columbia 
Basin include Double-Crested Cormorants (Phalacrocorax auritus), 
Caspian Terns (Hydroprogne caspia), California Gulls (Larus 
californicus), Pelicans and Ring-Billed Gulls (Larus delawarensis). The 
abundance and distribution of double-crested cormorants and Caspian 
terns has increased dramatically in recent years, from a few hundred to 
tens of thousands in a less than 20 years (Roby et. al. 2012). In 2011, 
the combined loss was approximately 23 million salmon smolts (BRNW 
2012). Smolts may also be subject to predation by marine seabirds off 
the Pacific Coast. Estimates of these oceanic predators are upwards of 
a hundred thousand birds or more (NMFS personal communication).
    Marine Mammal predation is a growing problem in the lower Columbia 
River. California Sea Lion (Zalophus californianus) abundance and their 
impacts on listed salmonids (Oncorhynchus spp.) increased dramatically 
at Bonneville Dam since the turn of the century, stabilized for a 
couple of years and since 2013 have increased to the highest levels 
ever recorded. In 2008, the National Marine Fisheries Service granted 
the states of Oregon, Washington, and Idaho authority to lethally 
remove nuisance California sea lions under section 120 of the Marine 
Mammal Protection Act (MMPA). CRITFC estimates that over 50,000 ESA-
listed spring Chinook salmon have been taken in the Columbia River by 
California sea lions since the year 2000. Since 2009, Steller sea lion 
(Eumetopias jubatus) abundance in the Columbia River has also 
increased. In 2012, Steller sea lion predation at Bonneville Dam 
actually exceeded that of California sea lions. However by 2015, 
California sea lions were again the dominate species at Bonneville Dam 
and they teamed with Steller sea lions to take approximately 8,500 
salmon and steelhead. Bear in mind that this take was observed within 
\1/4\ mile of Bonneville Dam and represents only an index of predation 
since sea lions were distributed throughout the river from the Dam to 
the estuary (about 150 miles). In 2015, 2,340 sea lions were counted at 
the East Mooring Basin on March 20, in Astoria, OR near the mouth of 
the Columbia River. Abundance of sea lions using the East Mooring Basin 
in 2013 was about 700, this number approximately doubled in 2014, and 
doubled again in 2015. California sea lion abundance was estimated at 
296,750 animals in 2010 (Carretta et al. 2011) indicating that the 
population is robust and expanding. California sea lions are present 
year round in Bonneville Dam's reservoir.
    Fish predation (i.e., fish on fish predation) is well studied or 
barely studied, depending on the species of predator. Baseline research 
efforts in the John Day reservoir on the Columbia River in the 1980s 
identified a native fish, the Northern Pikeminnow (Ptychocheilus 
oregonensis), as a significant predator of salmonid smolts, along with 
non-native walleye, smallmouth bass and channel catfish (Vigg et al. 
1991). Estimates of smolt predation were in the millions, with most 
eaten by northern pikeminnows, which are not protected as a game fish 
by the states of Oregon and Washington. An intensive government 
sponsored public control program on northern pikeminnows was initiated 
in 1990 and continues to this day. The program has removed nearly 4 
million pikeminnow from the Columbia and Snake Rivers. Management 
action to remove non-native piscivorous fishes has not been taken, 
although sufficient information confirms their direct and indirect 
impacts to salmon (ISAB 2008). In 2013, Washington State removed the 
size and daily limits on catfish, walleye and smallmouth bass on 
selected areas of the Columbia and Snake River and their tributaries 
upstream of McNary Dam. In 2015, the state of Oregon enacted similar 
regulation for the mainstem Columbia from the Pacific Ocean upstream to 
the state boundary with Washington upstream of McNary Dam. However, 
major salmon bearing tributaries such as the Willamette, Hood River, 
John Day River, and the Umatilla still have restrictive regulations 
that protect largemouth and smallmouth bass, also known predators of 
juvenile salmon and lamprey. Similarly, portions of the Snake River in 
Oregon have bag and possession restrictions to protect largemouth and 
smallmouth bass
                commission history and legal authorities
    The Columbia River Inter-Tribal Fish Commission was formed in 1977 
by resolutions from the four Columbia River treaty tribes: Confederated 
Tribes of the Umatilla Indian Reservation, Confederated Tribes of the 
Warm Springs Reservation of Oregon, Confederated Tribes and Bands of 
the Yakama Nation, and Nez Perce Tribe. CRITFC's mission is to ensure a 
unified voice in the overall management of the fishery resource and to 
assist in protecting reserved treaty rights through the exercise of the 
inherent sovereign powers of the tribes. CRITFC provides coordination 
and technical assistance to the tribes in regional, national and 
international efforts to ensure that outstanding treaty fishing rights 
issues are resolved in a way that guarantees the continuation and 
restoration of our tribal fisheries into perpetuity.
    The combined ancestral homelands of our four tribes cover roughly 
one-third of the entire Columbia River Basin in Washington, Oregon, and 
Idaho. Our existence on the Columbia River stretches beyond 10,000 
years to time immemorial. Salmon has always been a unifying force and 
we rely on its abundance for physical and cultural sustenance. 
Collectively, we gathered at places like Celilo Falls to share in the 
harvest, forging alliances that exist today. Our fishing practices were 
disciplined and designed to ensure that the salmon resource was 
protected, and even worshipped, so it would always flourish.
    Salmon is so fundamental to our society that in 1855 when our four 
sovereign tribes \1\ and the United States collaborated and negotiated 
treaties, our tribal leaders explicitly reserved--and the United States 
agreed to assure--our right to fish in perpetuity within our ancestral 
homelands as well as to ``take fish at all usual and accustomed 
places.'' We kept our word by ceding roughly 40 million acres of our 
homelands to the United States, while the United States pledged to 
honor our ancestral rights. It was the expectation of our treaty 
negotiators then that we would always have access to abundant runs of 
salmon; it is our expectation now that the U.S. Government will honor 
that commitment and take the steps necessary to protect our treaty 
resources. The treaties of 1855 were all ratified by the Senate of the 
United States. The Supremacy Clause of the Constitution applies to all 
such treaties.
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The importance of fish, especially salmon, to our tribes cannot be 
overstated. In U.S. v. Winans, the U.S. Supreme Court stated that 
fishing was ``not much less necessary to the existence of the Indians 
than the atmosphere they breathed.'' The salmon are an integral part of 
our cultural, economic and spiritual well-being. They are a primary 
food source and our consumption of this First Food is nearly 10 times 
higher than the national average. Salmon is fundamental to a healthy 
tribal diet and plays a significant role in combating the risks of 
heart disease and diabetes in our communities.
    Our livelihood evolved over thousands of years and our physical and 
cultural survival was intimately tied to the salmon. Ceremony became 
essential to insure the continued survival of the salmon, our 
traditions, and thus ourselves. Without salmon and without ceremony, we 
would cease being Indian people. We are longhouse people and these 
ceremonies have gone on without interruption for thousands of years. 
For these reasons, in conjunction with modern fisheries management 
principles, we are alarmed over the increasing impact by sea lions and 
other predators on these vital treaty and public resources.
                   a brief history of salmon decline
    The Columbia Basin and its tributaries began seeing major changes 
in the 1800s as agricultural lands were developed and dams harnessed 
the natural flows to build a western economy with low cost electrical 
power, navigation, and irrigation. Commercial fishing lacked restraint 
decimating salmon runs without regard for future generations. Logging, 
mining and agriculture bit into the earth, fouling clean waters, and 
degrading riparian habitat crucial to salmon survival. Nature's 
bounties were exploited to build bigger cities with bigger economies, 
and the energy and infrastructure to support them was siphoned from the 
river. As more lands were flooded, more promises flowed. Tribal leaders 
were told the dams would actually make life easier on salmon as the 
roaring pace of the river was reduced. We were also told that if any 
impacts occurred they would be mitigated.
    The mitigation and recovery of our treaty fishing resources has 
been slow but methodical. Thirteen salmon and steelhead populations in 
the Columbia Basin are listed under the Endangered Species Act (ESA). 
Pacific lamprey and white sturgeon populations are also depressed and 
resources to rebuild them are slim, making us worry if they too will be 
listed under ESA.
                       regional recovery efforts
    We have been doing our best to bring the salmon back. Our tribal 
members have long shouldered a heavy conservation burden through 
voluntary harvest reductions on our fishery. Now, in cooperation with 
states, Federal agencies, and our neighbors in the Columbia Basin we 
are making huge financial and social investments in recovery efforts.
    In 2008, CRITFC and its member tribes successfully concluded 
lengthy negotiations resulting in three landmark agreements: (1) the 
Columbia Basin Fish Accords \2\ with Federal action agencies overseeing 
the Federal hydro system in the Columbia Basin; (2) a 10-Year Fisheries 
Management Plan with Federal, tribal and state parties under U.S. v. 
OR; and (3) a new Chinook Chapter of the Pacific Salmon Treaty.\3\ 
These agreements establish regional and international commitments on 
harvest and fish production efforts, commitments to critical 
investments in habitat restoration, and resolving contentious issues by 
seeking balance of the many demands within the Columbia River Basin.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_w09.pdf.
---------------------------------------------------------------------------
                impacts of predation on tribal families
    Salmon are central to the ceremonial, subsistence and commercial 
lives of our people. Salmon fishing has long been a traditional way of 
providing the necessary means to safeguard our families economically. 
Even the settlers who descended upon our ancestral homelands 
capitalized on the abundant salmon runs to secure an economic foothold 
in the region. In the middle of the 1900s, spring salmon runs dwindled 
and we had to forgo a tribal commercial harvest. However, when runs 
rebounded slightly from 2000 to the present we were able to open 
limited commercial tribal harvests.
    A commercial tribal fishery diversifies economic opportunities in 
what are traditionally hard hit rural economies. We have made 
considerable investments to rebuild our salmon economy and increase the 
commercial value of tribally caught salmon. Not long ago, the tribal 
commercial fishermen were receiving 30 to 40 percent less than market 
value. Today, we have overcome this disparity through innovative 
marketing strategies, individual training and public outreach. It has 
taken several years to build a brand identity for tribally caught 
salmon. The public is embracing the benefits of buying the products of 
our tribal fishery and demand is outpacing supply.
    Predation is most notable and alarming to tribal communities in the 
spring when spring Chinook, the mainstay of our salmon culture, is 
exploited by marine mammals in the lower Columbia and especially at 
migratory bottlenecks, such as passage points at dams. Prized for 
ceremonial, subsistence and commercial uses, these important uses have 
all suffered from predation's impact. Some fish buyers won't purchase 
damaged fish and the value can drop as much as 50 percent. The growing 
level of sea lion predation can devastate the hard earned the value of 
the tribal commercial fishery.
    Impacts by predation to juvenile salmon, while sometimes less 
visible, are no less harmful to tribal families by the alarming numbers 
of juvenile salmon killed.
              marine mammals--a growing management concern
    California Sea Lions, Steller sea lions and other marine mammals 
historically had a very limited presence in the Columbia River with a 
functional and mutually respectful relationship between them and tribal 
people. Tribal members harvested them for their skins and oils. Tribal 
members also killed marine mammals that were disruptive to fishing 
activities. Though well intentioned, the MMPA has made the river more 
hospitable to opportunistic sea lions and less hospitable to salmon, 
lamprey and sturgeon survival by limiting traditional and modern 
management methods. The sea lions have learned to profit from the 
abnormal situation by preying on salmon and other treaty protected 
resources particularly at vulnerable areas like Bonneville Dam. They 
are cunning, proven by their ability to outmaneuver the exclusion 
devices placed in the fish ladders and their ability to ride the 
shipping barges through the dam's locks. While we admit that the 
Creator intended a place for them, it doesn't lessen the problem they 
are causing by exploiting an unnatural environment.
    There was a time when a portion of a state fishing license fees 
were used to manage the sea lion population to reduce their predation. 
Historically, when sea lions made it up to those parts of the river 
where the dams now sit, they would be shot and they would be bled out 
in the river. Sea lions were shrewd enough to understand that this was 
an area they needed to avoid. Things have changed for the worse now 
because man has changed the nature of the river. Now, returning salmon 
must pass artificial dams and go up man-made cement fish ladders to get 
upstream. They are trapped by sea lions who understand the salmon must 
go right by them if they hang out close to the ladders. We ask our 
friends in the animal rights community to understand that we are 
dealing with basic nature when the ability of endangered salmon to 
defend themselves has been so compromised.
    Some people claim that placing blame on the sea lions is a ruse to 
divert attention away from the dams' impact on salmon survival. If they 
understood our dilemma, they would clearly recognize that attention is 
actually being drawn to Bonneville Dam where a growing number of sea 
lions have learned to exploit an artificial situation to 
disproportionately impact depressed salmon runs. Increasing numbers of 
sea lions have been documented returning year after year. In the last 5 
years, over a hundred animals have learned to prey on threatened and 
endangered spring Chinook as they converge on the entrances to the 
dam's fish ladder.
    Significant predation at the dam is rising, evidenced by the number 
of salmonids eaten by sea lions. But growing data sets paint a 
troubling picture of increasing depredation throughout the lower 
Columbia River. We have previously estimated that 18 percent to 25 
percent of the spring Chinook salmon run are lost to sea lions annually 
between Bonneville Dam and the mouth of the river, but based on recent 
NOAA research, it could be as high as 45 percent of the run. In 
addition, impacts by sea lions are disproportionally distributed on the 
early portion of the run. During March and April there are many days 
when the take by sea lions exceeds the fish count in the ladders. We 
are concerned that these early returning fish may be from stocks that 
are most at risk of extinction.
    Every year a few sea lions pass through the Bonneville Dam lock. 
These animals damage fishing gear and steal salmon from our fishers. 
Some California sea lions have spent over 4 years in the Bonneville 
pool. Studies show that the farther upstream the sea lions travel, the 
higher percentage of salmon and steelhead in their diet. Additional 
studies indicate that salmon comprise 10-30 percent of their diet. The 
latest available sampling data beginning in 2001, shows that each year 
slightly over 30 percent of the spring salmon passing though 
Bonneville's fish ladder have suffered some form of injury caused by 
marine mammals. Those salmon that escape with harsh wounds are less 
likely to survive their upstream journey and unlikely to successfully 
spawn. Tribal and non-tribal fishermen who harvest these injured fish 
cannot fully utilize them for their subsistence, sport and commercial 
value.
Facts on Marine Mammal Predation in the Columbia River:


    <bullet> An unprecedented explosion of pinnipeds in the lower 
            Columbia River has caused spikes in predation levels of 
            salmon despite years of hazing and cumbersome removal 
            authority;

    <bullet> California sea lions are completely recovered and 
            expanding, current population estimate is >325,000 with an 
            annual growth rate of 9.2 percent;

    <bullet> The large and growing surplus of male Sea lions, far in 
            excess of the reproductive needs of the population, is 
            expanding their range in reaction to increasing salmon and 
            smelt runs;

    <bullet> Sea lions killed over 8,474 salmon within \1/4\ mile of 
            Bonneville Dam (146 miles from the Ocean) in 2015, a 
            staggering 140 percent increase over the previous 12-year 
            average;

    <bullet> California Sea Lions have routinely passed through the 
            locks into the Bonneville Pool, 146 miles from the mouth of 
            the Columbia, some residing there for over 4 years;

    <bullet> The aggressive feeding behavior threatens the safety of 
            sport, commercial and tribal fishermen trying to land 
            catch;

    <bullet> NOAA Fisheries estimated an unaccounted for loss of 45 
            percent (99,000 fish) of the 2014 Spring Chinook Salmon run 
            between the estuary and Bonneville Dam, this loss is over 
            four times greater than in 2010 when the losses were 
            estimated at only 10 percent;

    <bullet> Tribal ceremonial, subsistence and commercial fisheries 
            experience unique and unmitigated damage from growing sea 
            lion predation; and

    <bullet> Anticipated downturns in future salmon runs due to the 
            present drought conditions would increase sea lion impacts 
            even more. Management tools are needed now to help address 
            this anticipated impact and attempts to address California 
            Sea Lion predation under the existing constraints of the 
            MMPA have been inadequate and hampered by protracted 
            litigation by special interests exploiting ambiguities in 
            the law.

                            avian predation
    Juvenile salmonids and juvenile lamprey in the Columbia River Basin 
are subject to extensive predation by fish eating (i.e. piscivorous) 
birds throughout their entire migration route. In the Basin, there are 
over a dozen species of birds whose diet is primarily fish, but the key 
predators are double-crested cormorants, Caspian terns, several gull 
species, and in some areas, white pelicans. Birds are predators on 
juvenile salmonids and juvenile lamprey during the entire course of the 
out-migration, but dam tailraces and the estuary are the areas of 
greatest impact. Annual losses in the estuary are staggering. During 
the last 4 years of record keeping (2010, 2011, 2012 and 2013), losses 
ranged from 17 to 21 million smolts annually by a double-crested 
cormorant colony on East Sand Island, near the mouth of the Columbia 
River. This equates to approximately 20 percent of the entire out-
migration of all juvenile salmonids each year. Many of these fish are 
wild and are listed as threatened or endangered under ESA.
    Additionally, Caspian terns nesting on the same island, also 
consumed an additional 3-5 million smolts annually during the same time 
period. Ironically, both of these colonies are the largest for their 
species in the entire world. Both species are common, with the Caspian 
tern found throughout the world, while the double-crested cormorants is 
a North American species with numbers in the hundreds of thousands. 
Smaller colonies of double-crested cormorants, gulls and Caspian terns 
nest upstream and eat well over an additional million smolts annually, 
but with a greater per capita impact. For example, a small colony (<300 
pairs) of Caspian terns that nested on Goose Island in Potholes 
Reservoir, annually consumed approximately 10-15 percent of the entire 
upper Columbia River juvenile steelhead out-migration.
    Management actions have initiated on Caspian terns and double-
crested cormorants. Populations of Caspian terns in the estuary and 
inland have been the focus of habitat alterations and reductions, but 
with limited success. The focus has been to ``push'' them from areas of 
high salmonid predation to areas of lower impacts. However, this 
process takes years, is highly unpredictable and during the transition 
period, juvenile salmonids continue to be eaten by the millions.
    A different strategy has been implemented on the East Sand Island 
double-crested cormorant population. Following an exhaustive 
environmental review, the preferred alternative is nest destruction and 
lethal removal of 50 percent of the existing population. Legal 
challenges followed the approval of the preferred alternative, but did 
not prevent the initial year of management efforts, which achieved that 
years' goal of destroying over 5,000 nests and the lethal removal of 
approximately 3,500 adult birds. There are 3 years remaining in this 
effort. Subsequent management actions will be necessary to maintain the 
population at this level, which unfortunately will still continue to 
eat millions of juvenile salmon each year, but likely less than the 
tens of millions that were eaten prior to management actions. 
Additional efforts will be necessary to provide a more balanced and 
safe environment for migrating juvenile salmonids and lamprey.
                  predation by freshwater fish species
    Historically, the Columbia River Basin fish fauna was composed of 
salmon, small minnow species, small sculpins, burbot, sturgeon, and 
several species of lamprey, less than 40 species total. Piscivorous 
fish were limited to white sturgeon, northern pikeminnow and burbot. 
Today, the number of fish species in the basin is close to 80 species, 
 half of these fish are not native and many of these species are 
partially or wholly piscivorous. Some early studies showed that the 
native northern pikeminnow was the primary fish predator of juvenile 
salmon. Consequently, an aggressive campaign to reduce the numbers of 
this native fish has been ongoing for over 20 years. However, many of 
the non-native fish including largemouth and smallmouth bass, walleye, 
channel catfish, yellow perch, and crappies are primarily fish 
predators, but are given protection as gamefish and managed to maximize 
their populations for sport angling purposes. Given their numbers and 
distribution throughout the Columbia and Snake Rivers and most major 
tributaries, this is cause for concern, given that initial research 
show the propensity of these species to eat juvenile salmon and 
lamprey. Like predation by pinnipeds and birds, predaceous fishes, 
particularly introduced species this needs greater focus and management 
and now is the time to initiate such efforts.
    hazing and other non-lethal actions--necessary but insufficient
    Necessary but insufficient measures that are required to protect 
one species can be very detrimental at protecting other equally 
important resources. The MMPA and the MBTA, were created to protect 
marine mammals and birds from unregulated persecution and in some 
cases, extinction. However, given the rebound in many populations of 
these predators, the use of hazing and other non-lethal measures is 
insufficient to protect other resources. It certain instances, hazing 
and other non-lethal measures can be effective if the predators being 
hazed have a similarly productive habitat (i.e. food, nesting or living 
space) available. However, in many cases habitat is already limited and 
protected populations of predators continue to expand, there are no 
alternative habitats available. In these cases much time, money, 
studies, and other resources can used as a way to avoid lethal removal, 
with no measurable success. In such instances, lethal removal is not 
preferred but maybe a necessity to alleviate predation impacts on 
salmon, lamprey, sturgeon and other important resources. There is a 
finite amount of habitat and other resources and if predatory 
populations are not maintained at a fixed level, then prey species will 
suffer. Therefore, it is appropriate to reconsider the extent of how 
long non-lethal measures can be exercised before lethal measures can be 
implemented to protect other resources.
    Since 2005, CRITFC, along with Washington and Oregon, have tried 
dispersing sea lions from the sensitive area immediately below 
Bonneville Dam through daytime hazing from boats. Our actions have been 
limited to a 5-mile zone just downstream from the dam and not the 
entire 150 river miles from the dam to the Pacific Ocean. Non-lethal 
hazing has a very short-term effect at best. After the crew is done for 
the day the sea lions move back into the prime feeding positions. 
Hazing is difficult and risky due to daylight-only limitations and 
frequent hazardous water conditions. Even under ideal conditions hazing 
alone is inadequate to remedy the predation problem.
    We do recognize that some animals respond to hazing better than 
others and that it will remain a component of any future robust 
management package. CRITFC and tribal crews wish to continue 
implementing hazing functions, as well as estimating sea lion abundance 
in the lower river. We are also collaborating with the states to 
develop techniques that may in future be useful for estimating sea lion 
predation rates in the lower Columbia River. Initially CRITFC diverted 
a portion of our Bureau of Indian Affairs funding to pay for our hazing 
efforts, however Bonneville Power Administration has funded our hazing 
efforts since 2007.
justification of support for congressional action to improve predation 
                               management
    We should not be forced to stand back as sea lions, birds, and non-
native fishes cause other species, such as salmon, steelhead sturgeon 
and lamprey, to decline or even become listed under ESA. Specific 
actions by Congress related to the MMPA and the Migratory Bird Act 
could assist co-managers, including our tribes, strike a better balance 
between species interactions, especially in altered ecosystems.

    Such actions could:

  1.  Place tribes on equal footing as states for access to 
            authorities, permits and management tools;

  2.  Emphasize population management rather than individual animals;

  3.  Provide clear and respectful deference to Endangered Species when 
            in conflict with non-endangered or Protected Species;

  4.  Provide clear and respectful deference to tribal treaty protected 
            species;

  5.  Provide emergency exemptions to the National Environmental Policy 
            Act; and

  6.  Require the Secretaries of Commerce and Interior to provide 
            reports on predation on ESA listed and treaty protected 
            species.

    We do not take exemptions to the National Environmental Protection 
Act lightly. However, short-term, emergency-based exemptions focused 
exclusively on managing the most aggressive and severe predation 
circumstances may be necessary and sound. Such exemption may be 
necessary to give the fishery managers the ability to respond swiftly 
to avoid extraordinary delay that puts the species, our investments, 
and our livelihood at risk.
    We are appreciative that H.R. 564, currently being considered in 
the House of Representatives, designates each of our four member tribes 
as eligible entities for MMPA permitting, and identifies the Columbia 
River Inter-Tribal Fish Commission as an eligible entity to delegate 
permit authority. This is good and appropriate as our tribes are very 
capable, professional fishery managers with the necessary skills to 
administer and implement the provisions of a permit.
    There are provisions for de-listing species under the ESA--
something we all aspire to achieve with salmon. The same consideration 
should be given to bird and marine mammal species who have achieved 
their optimum sustainable populations as provided under their 
protecting laws. MMPA is overdue for reauthorization and we urge 
Congress and the Administration to take this matter up and reconcile 
the disparity of one species being caught in the middle when two 
environmental protection laws clash.
    If we continue to use the same insufficient measures we are using 
today, it will be difficult to answer to the region, ratepayers, 
taxpayers and the region's fishermen, who have invested in salmon 
restoration across the Columbia Basin.
    recommendations for effective comprehensive predation management
    Active management can keep predators at levels more in balance with 
the environment and reduce losses of Columbia River salmon and other 
native fish populations.

    Management efforts can be aided by the following:

    <bullet> Develop a common metric for fish, bird and marine mammal 
            predation (i.e., adult equivalents) so that comparisons and 
            impacts can be properly assessed;

    <bullet> Investigate, monitor, evaluate and propose solutions to 
            habitat changes at Columbia River tributary confluences 
            where hydrologic modifications have resulted in increased 
            sediment deposition and potentially attracted predator 
            responses;

    <bullet> Investigate indirect food web effects of predation;

    <bullet> Apply active, adaptive management practices to predation 
            sources;

    <bullet> Persuade co-managers to prioritize salmon management in 
            anadromous waters and remove barriers to harvest of non-
            native fish species;

    <bullet> Recognize the benefits of native fish communities and 
            balanced ecosystems;

    <bullet> Develop greater cross-agency cooperation and investigation 
            opportunities;

    <bullet> Place greater emphasis on seasonal mainstem and tributary-
            based predation research and management of predatory non-
            native fishes and avian predators, particularly during the 
            spring out-migration period;

    <bullet> Include ``several gull species, mergansers, and pelicans'' 
            to the list of bird predators and include upstream and 
            tributary areas;

    <bullet> Support regional efforts by actions agencies to actively 
            manage populations of double crested cormorants and other 
            piscivorous birds with lethal control if habitat 
            modifications and dissuasion efforts are not successful in 
            the Columbia River estuary, as well as inland reaches of 
            the Basin to reduce losses of juvenile anadromous 
            salmonids; and

    <bullet> Work with co-managers to determine reasonable population 
            ceilings for piscivorous waterbirds and predatory non-
            native fishes and reduce overall population sizes, 
            including lethal removal for all fish-eating birds and non-
            native fishes that persist in boat restricted zones, 
            hatchery release points, low head irrigation diversion, 
            tributaries, overwintering habitat, and other areas where 
            temporal and species constraints bring juvenile salmon and 
            lamprey into proximity with predacious species.

    In conclusion, the United States made many promises beginning in 
1855 with our treaties and subsequently when the dams were constructed. 
The treaty rights are meant to preserve our physical, cultural and 
economic livelihood--the United States committed to protecting these 
rights. We were further promised that any harm done to our fisheries 
attributed to the dams would be taken care of--Bonneville Dam has 
created an artificial situation the sea lions have learned to exploit. 
We have run out of options and any new technology will not be available 
in the near future to deal with the current dilemma.
    We need a full suite of authorities and tools to deal with growing 
depredation from marine mammals, growing bird colonies and freshwater 
fish. We need timely solutions to protect our ceremonial, subsistence 
and commercial harvests for salmon, lamprey and sturgeon.

    Again, thank you for this opportunity to share our concerns and to 
express our support for this legislation.

                                 ______
                                 

    Dr. Fleming. OK, thank you, Mr. McCormack. Next up is Mr. 
Stelle.
    You are recognized for 5 minutes, sir.

 STATEMENT OF WILL STELLE, REGIONAL ADMINISTRATOR, WEST COAST 
  REGION, NATIONAL MARINE FISHERIES SERVICE, PORTLAND, OREGON

    Mr. Stelle. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. My name is William Stelle, and I am 
the Regional Administrator for NOAA Fisheries on the West 
Coast. It is nice to be back here. I have a written statement, 
which I would like to submit for the record, and I will try to 
be disciplined and summarize my oral remarks quickly. Let me 
offer several general observations, and then a little bit of a 
sketch of current efforts on predation.
    First, is predation a problem with the conservation and 
recovery of listed salmonids on the West Coast? The answer is 
yes, unequivocally. And we would welcome the opportunity to 
work with you and your staff in fashioning legislative 
strategies to strengthen our efforts to address the predation 
problems.
    Two, context matters a lot. So, if you think that predation 
is the silver bullet, think again. It is not. It is one factor 
of numerous factors, what we call limiting factors, for the 
rebuilding of these salmonid runs. But it is only one. So, just 
as we address it, we must also address the other factors, as 
well.
    The third major point is science matters. What do I mean by 
that? What I mean by that is, at the end of the day there are 
different opinions about whether or not and how to address 
predation problems, like other things in life. And as we engage 
the effort to control predation, we must do so based upon data, 
quantitative data if possible, so that we can demonstrate the 
character of the problem, we can quantify the problem, and we 
are also prepared to demonstrate whether or not and to what 
extent control measures are working or not working. So, science 
matters, investing in the science infrastructure to enable 
success is really important.
    Then, my final comment would be understand that 
partnerships in this effort are also essential. This is not 
just a National Marine Fisheries thing. The states are deeply 
involved, other Federal agencies are deeply involved, tribes 
are deeply involved, and the private sector is deeply involved. 
Building and fostering the partnerships for success in 
predation control programs is essential.
    Let me just sketch a little bit of the predation efforts 
underway right now, and we can delve into more details during 
questions.
    First of all, as Leo just outlined to you, in the Columbia 
Basin predation of lots of different sources is a major 
problem. Bird predation, fish predation, and marine mammal sea 
lion predation, all three are significant sources, and are 
outlined in our recovery plans as major limiting factors. And 
we, working with the Corps of Engineers, the Bureau of 
Reclamation, the tribes, and the states of Washington, Oregon, 
and Idaho, are instituting programs to address avian predation, 
fish predation, and sea lion predation.
    On sea lions in particular, we would welcome working with 
the committee on ways to strengthen, streamline, and broaden 
the management measures that we can bring to bear to manage 
these burgeoning sea lion populations. It is a real problem.
    Moving to the south, into the Central Valley--also of keen 
interest to members of this committee--again, predation is a 
major problem. Striped bass predation is a major problem. We 
would welcome efforts with the California Department of Fish 
and Wildlife, the Bureau of Reclamation, and the California 
Department of Water Resources, to develop the data on the scope 
and extent of the predation problem, to identify the hot spots 
of where predation is most likely occurring, and then to 
implement measures to reduce striped bass prey in those hot 
spots.
    So, we are open and welcome to efforts to pursue and 
strengthen predation control programs where they occur, on a 
scientific basis.
    With that, I will welcome your questions.
    [The prepared statement of Mr. Stelle follows:]
 Prepared Statement of Will Stelle, Regional Administrator, West Coast 
    Region, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce
                              introduction
    Good morning Chairman Fleming, Ranking Member Huffman, and members 
of the subcommittee. My name is Will Stelle, and I am the Regional 
Administrator for the West Coast Region of the National Marine 
Fisheries Service (NMFS) at the National Oceanic and Atmospheric 
Administration (NOAA), within the U.S. Department of Commerce. Thank 
you for inviting NMFS to testify before you today on predation of 
Pacific salmon on the West Coast.
    The West Coast Region of NMFS is responsible for the stewardship of 
our Nation's living marine resources and their habitats off the coasts 
and in the watersheds of Washington, Oregon, California, and Idaho. 
These responsibilities cover 317,690 square miles of the eastern 
Pacific Ocean's California Current Ecosystem, over 7,000 miles of tidal 
coastline, and 176,000 acres of freshwater and estuarine habitats.
    The management priority of the West Coast Region is two-fold: to 
maximize productivity and sustainability of fisheries and fishing 
communities through effective fisheries management and to recover and 
conserve protected species and their habitats. The responsibility of 
the Region, and the agency, to protect, conserve, and recover the 
Pacific's threatened and endangered anadromous and marine species is 
found in our authorities under the U.S. Endangered Species Act (ESA) 
and the Marine Mammal Protection Act (MMPA).
    Congress passed the ESA on December 28, 1973, recognizing that the 
natural heritage of the United States was of ``aesthetic, ecological, 
educational, recreational, and scientific value to our Nation and its 
people.'' It was understood that, without protection, many of our 
Nation's living resources would become extinct. NMFS has ESA 
jurisdiction over marine and anadromous species, including West Coast 
salmon and steelhead. Under the ESA, our responsibilities include 
reviewing species' status to determine if listing is warranted, 
developing protective regulations to conserve listed species, 
designating critical habitat to protect the ecosystems upon which the 
species depend, and developing and implementing recovery plans. These 
recovery plans serve as a roadmap to bringing threatened and endangered 
species to the point where ESA protections are no longer needed.

    Section 4(a)(1) of the ESA specifies that NMFS shall determine 
whether a species is threatened or endangered because of any of the 
following five factors \1\:
---------------------------------------------------------------------------
    \1\ The ESA further requires that listing determinations be based 
solely on the best scientific and commercial information available; 
economic impacts are not considered in making species listing 
determinations and are prohibited under the ESA.

  1.  Present or threatened destruction, modification, or curtailment 
---------------------------------------------------------------------------
            of its habitat or range;

  2.  Over-utilization of the species for commercial, recreational, 
            scientific, or educational purposes;

  3.  Disease or predation;

  4.  Inadequacy of existing regulatory mechanisms; and

  5.  Other natural or man-made factors affecting its continued 
            existence.

    The complex life cycle of Pacific salmon and steelhead 
(Oncorhynchus sp.) spans freshwater streams and rivers, coastal 
estuaries, and the great expanse of the California Current ocean 
ecosystem. This complex life cycle and broad geographic range exposes 
Pacific salmon and steelhead to a diversity of threats, including those 
listed above. Many Pacific salmon and steelhead stocks have declined 
substantially from their historic numbers and are now at a fraction of 
their historical abundance. These declines collectively led to NMFS' 
listing of 28 salmon and steelhead stocks in California, Idaho, Oregon, 
and Washington under the ESA beginning in 1989.
    We have recovery plans currently in place for 19 of the 28 listed 
salmon and steelhead stocks, and plans for the remaining 9 are proposed 
or under development. These recovery plans detail the factors leading 
to the decline and limiting the recovery of each salmon and steelhead 
stock, and they outline the site-specific actions that are necessary to 
address each of these threats.
    While the specific suite of factors leading to the decline of each 
salmon and steelhead stock is unique, the list generally includes 
overfishing, loss and degradation of freshwater and estuarine habitat, 
hydropower development and blocked passage, poor ocean conditions, and 
harmful hatchery practices. For some stocks, predation by resurgent 
pinniped populations, bird colonies, as well as by thriving populations 
of native and non-native fish species also poses a serious threat to 
the stock's persistence and eventual recovery.
    No single factor holds the key to recovering Pacific salmon and 
steelhead stocks. Each factor, each threat, must be addressed and 
reduced. As such, addressing sources of predation is a key component of 
our strategy to recovering threatened and endangered Pacific salmon and 
steelhead.
    In the past two decades, NMFS has made targeted investments to 
further understand the effect of predation on various Pacific salmon 
and steelhead stocks to better inform our recommendations to address 
this important and emergent threat. We are also executing the statutory 
and regulatory authorities granted to us under the ESA and the MMPA to 
take direct action to reduce specific sources of predation. Under 
section 7 of the ESA, we work with other Federal Action Agencies on 
projects to operationalize predation control efforts. In these cases, 
NMFS is able to provide expertise in the design of predator control 
programs, however, it is the responsibility of the Action Agencies to 
carry out the programs in adherence with their Biological Opinions 
(BiOps). NMFS has additionally coordinated with states and local 
authorities to implement a hazing program under section 109 of the MMPA 
to discourage depredation of salmon and steelhead by pinniped 
populations. We have also authorized the lethal removal of individual 
pinnipeds that have become habituated to predating on salmon at 
Bonneville Dam in the Columbia River using our authority under section 
120 of the MMPA.

    The following sections detail a few examples of predation impacts 
on Pacific salmon and steelhead on the West Coast and NMFS's efforts 
underway to investigate or mitigate these impacts.
   salmon predation in the columbia river estuary (washington/oregon)
A. Avian Predation Control

    NMFS' 2008 BiOp on the Federal Columbia River Power System (FCRPS 
BiOp) called for the investigation of avian predation in the Columbia 
Basin by the FCRPS Action Agencies; primarily, the Army Corps of 
Engineers (Corps). This investigation validated the finding in a 
Caspian tern plan prepared in 2005 by the U.S. Fish and Wildlife 
Service, NMFS and the Corps, which showed that Caspian terns were 
responsible for consuming large numbers of juvenile steelhead and 
Chinook salmon in the entirety of the Columbia basin. The investigation 
called for by the 2008 BiOp found that, on average, Caspian terns were 
consuming more than 5 million salmon and steelhead smolts per year. As 
a result, the Corps has focused efforts on Caspian terns in its Inland 
Avian Predator Management plan. Active implementation of the plan began 
in 2014 with both active and passive dissuasion of terns from nesting 
at two interior Columbia basin sites that once held up to 850 pairs. 
Despite the plan's success in its initial year, in 2015, approximately 
500 pairs of terns relocated themselves to a third new nesting site due 
to extremely low Columbia River flows during the 2015 nesting season. 
NMFS, along with the Action Agencies, expects that higher river flows 
(and perhaps some active management of reservoir levels) in 2016 will 
again help reduce the nesting area available at interior Columbia basin 
nesting sites.
    The goal of Action Agencies under the 2008 FCRPS BiOp in the lower 
Columbia is to manage the tern population by limiting the colony on 
East Sand Island to 3,125-4,375 nesting pairs in order to increase 
juvenile Chinook salmon survival by 2 percent and steelhead survival by 
3 percent. To accomplish this goal, the Corps has constructed alternate 
nesting sites in a total of six lake basins in eastern and southern 
Oregon and in San Francisco Bay to reduce the colony area on East Sand 
Island to 1.0 acre in size. This reduction led to a relocation of birds 
to alternate nesting sites outside the Columbia River Basin, yielding a 
13 percent reduction in the number of turn breeding pairs on East Sand 
Island between 2014 and 2015; however, a large number of non-nesting 
terns remain in the estuary. NMFS expects that many of these remaining 
birds will move to the constructed nesting sites outside the basin 
during 2016 and beyond. A multi-agency Caspian Tern Adaptive Management 
Team (led by the FCRPS Action Agencies with participation from multiple 
Federal, state and tribal agencies, including NMFS) is in place to 
assess the program as it moves forward.
    The FCRPS Action Agencies (primarily, the Corps) are also managing 
double-crested cormorants in the Columbia River estuary under the 2008 
FCRPS BiOp to achieve increases in survival of yearling Chinook salmon 
and steelhead of 1.1 percent and 3.5 percent, respectively. The 
mechanism to achieve these survival increases has been to reduce the 
number of cormorants nesting in the estuary from an annual population 
of 13,500 pairs to an average of 5,380-5,939 nesting pairs. With a 
depredation permit from the U.S. Fish and Wildlife Service, the Corps 
began actively reducing cormorant colony size by lethally removing 
adult birds and oiling eggs in active nests in 2015 after completing 
their Cormorant Management Environmental Impact Statement (EIS) and 
Record of Decision. A total of 2,324 adults were culled and 5,089 nests 
were oiled in 2015 in strict adherence to the EIS' Management Plan. A 
multi-agency Double-Crested Cormorant Adaptive Management Team (led by 
the FCRPS Action Agencies with participation from multiple Federal, 
state and tribal agencies, including NMFS) is in place to assess this 
program as it moves forward.
    In addition to control for these two specific avian predator 
populations, all mainstem Columbia River dams have monitoring and 
deterrence plans for avian predators that include some level of active 
and passive dissuasion activities. Passive dissuasion is accomplished 
through the deployment of avian wires in the shape of a canopy over 
parts of the tailrace just below each dam. Active dissuasion includes 
staff from the U.S. Department of Agriculture's Animal and Plant Health 
Inspection Service who patrol the dams and fire long-range pyrotechnics 
at avian predators in areas where they congregate. Five of the eight 
mainstem FCRPS project dams also employ limited lethal removal of 
specific problem birds as needed to reinforce their active dissuasion 
methods. Project-by-project monitoring and deterrence plans are 
contained in the Corps' annual Fish Passage Plan for the FCRPS (http://
www.nwd-wc.usace.army.mil/tmt/documents/fpp/index.html).
B. Piscine Predator Control

    Some predatory fish species, such as the northern pikeminnow, are 
native to the Pacific Northwest. The Oregon Department of Fish and 
Wildlife estimated that in the early 1990s, this species consumed an 
estimated 1.4 million juvenile salmonids in the John Day Reservoir 
alone. In addition, large populations of non-native predatory fish 
species such as smallmouth bass, northern walleye, and channel catfish 
were planted in streams and lakes in the Pacific Northwest during the 
last two centuries to enhance recreational fishing opportunities. A 
U.S. Geological Survey biological study found that smallmouth bass 
consumed about 2 percent of the juvenile spring Chinook and 7 percent 
of the juvenile fall Chinook passing the Dalles Dam in 2002, and the 
Washington Department of Fish and Wildlife (WDFW) has reported 
observations of large populations of channel catfish below the dams in 
the Snake River and in the Yakima River.
    Population control efforts executed by the states of Oregon and 
Washington with respect to these predators to date have focused on 
enhancement programs to increase recreational value of non-native 
predatory fish and increase license sales. In addition, WDFW removed 
size and daily limits for bass and walleye and daily limits for channel 
catfish in the mainstem Columbia above McNary Dam beginning in 2013-
2014.
    To address predatory fish control associated with projects 
consulted on by NMFS under the ESA, Douglas County Public Utility 
District (PUD) and Chelan County PUD have included an annual pikeminnow 
removal program in their Habitat Conservation Plans for the Wells, 
Rocky Reach, and Rock Island Hydroelectric Projects. Hook-and-line 
techniques are employed for all three programs during the juvenile out-
migration season (April through July) and target fish in project 
reservoirs larger than 9 inches. Annual catch varies, but averages 
10,000 to 15,000 pikeminnow from the Wells; 25,000 to 35,000 from the 
Rocky Reach; and 25,000 to 35,000 from the Rock Island Reservoir.
C. Pinniped Predator Control

    Since the passage of the MMPA amendments in 1994, NMFS has been 
devoting significant resources and partnering with affected parties to 
better understand the problem of pinniped predation on at-risk stocks 
on the West Coast, and to develop appropriate responses to relieve 
impacts to coastal communities. A key component of NMFS' program is our 
fiscal support of and collaboration on the research and monitoring of 
West Coast pinniped populations and their impacts on specific 
threatened and endangered salmon stocks in the Columbia-Snake River 
Basin, and Puget Sound. A number of port authorities in California, 
Oregon, and Washington have requested NMFS' assistance in addressing 
their local pinniped predation issues. These ports include the 
communities of: Monterrey in California; Gold Beach, Newport, and 
Astoria in Oregon; and Ilwaco and Westport in Washington. NMFS staff 
work closely with such communities to inform them of the statutory 
authority to deter marine mammals under section 101(a)(4) of the MMPA 
to ensure public safety, protect their gear, catch, and private 
property. These techniques include removing and discouraging haul-out 
locations on docks and jetties, implementing hazing programs to 
discourage pinnipeds from predating on fish and interacting with 
fisheries, and reducing attractants such as through disposal programs 
for fish carcasses. NMFS assistance includes convening workshops to 
understand the challenges facing local anglers and communities, and to 
educate local jurisdictions of the likely impacts if they do not 
exercise the authorities available to them in addressing this problem.
    NMFS is very concerned about the impact robust populations of 
pinnipeds in the Columbia River and elsewhere in the Pacific Northwest 
are having on ESA-listed salmon and steelhead stocks. For example, from 
2002-2015, California sea lions consumed an estimated total of 45,294 
salmonids within \1/4\ mile of Bonneville Dam. To give perspective on 
this, total salmonid passage at Bonneville Dam from 2002-2015 was 
estimated at 2,539,926 fish from January 1 through May 31: the period 
during which pinnipeds are normally present in the vicinity of 
Bonneville Dam.
    With passage of the MMPA amendments of 1994, Congress recognized 
the limits of non-lethal deterrence of pinnipeds as a means to protect 
at-risk, threatened, and endangered salmonids along the West Coast. 
These amendments included MMPA Section 120, which allows states to 
apply for authority to lethally remove certain, individually 
identifiable pinnipeds to protect salmonids.
    In accordance with the procedures in Section 120 of the MMPA, the 
National Environmental Policy Act (NEPA), and the ESA, NMFS authorized 
in 2008 and 2012 the states of Oregon, Washington, and Idaho to remove 
or kill individual California sea lions that they determined to be 
having a significant negative impact on five populations of ESA-listed 
salmon and steelhead in the Columbia River. Combined, the three states' 
authorizations allow up to 92 animals to be removed per year. Since 
receiving removal authority in 2008, the states have permanently 
removed (to captivity or euthanized) 102 California sea lions.
    Preliminary data suggest that our MMPA Section 120 program has been 
successful overall in reducing the predation rate on salmonids in the 
immediate vicinity of Bonneville Dam. For example, the Oregon 
Department of Fish and Wildlife estimates that the Section 120 program 
has prevented the loss of 15,000-20,000 salmonids at Bonneville Dam 
since its inception. However, despite the benefits of the program, the 
number of California sea lions (and predation rates on salmonids) have 
steadily increased in the past 3 years. Research conducted by NOAA 
Fisheries' Northwest Fisheries Science Center estimating survival of 
adult spring/summer Chinook salmon from the Columbia River estuary to 
Bonneville Dam from 2010 through 2015 suggests that the weighted mean 
annual survival (adjusted for harvest, detection efficiency at 
Bonneville Dam, and gear-associated mortality) was 90 percent, 87 
percent, 88 percent, 73 percent, 59 percent, and 72 percent, 
respectively. With known and assumed sources of mortality accounted 
for,\2\ this research suggests that the remaining unaccounted for fish 
are lost to pinniped predation.
---------------------------------------------------------------------------
    \2\ Natural mortality is generally estimated to be between 2 and 4 
percent.
---------------------------------------------------------------------------
    Pinniped predation has also expanded to the Willamette River, where 
a minimum of 27 and 32 individual California sea lions in 2014 and 
2015, respectively, consumed an estimated 5,141 salmonids below 
Willamette Falls. It is estimated that this represents approximately 10 
to 13 percent and 8 to 10 percent of the potential escapement above 
Willamette Falls of ESA-listed winter-run steelhead and spring-run 
Chinook in 2014 and 2015, respectively.
    Effective implementation of Section 120 of the MMPA has been 
challenging at times, and it could benefit from minor targeted 
improvements. NMFS has previously provided testimony to this committee 
articulating our perspective on suggested improvements. This discussion 
is most recently detailed in testimony provided by Mr. Barry Thom, 
Deputy Regional Administrator of the West Coast Region of NMFS on July 
15, 2015.
           salmon predation in the central valley, california
    A study published in 2014 by NMFS' Southwest Fisheries Science 
Center (SWFSC) found that annual overall survival of out-migrating 
late-fall-run Chinook salmon smolts in the Sacramento River was between 
3-16 percent, which is low when compared to survival of salmon in other 
West Coast rivers including the Snake (27.5 percent survival) and 
Yakima (28 percent survival), two rivers that have much longer 
migration corridors. These low survival percentages likely result from 
a combination of threats, including low flows, degraded habitat and 
high densities of both non-native (i.e., striped bass, smallmouth bass, 
and largemouth bass) and native (e.g., pikeminnow) predatory fish 
species.
    Management actions for improving juvenile salmon survival through 
the Sacramento River and Delta are described in detail in our Central 
Valley Chinook Salmon and Steelhead Recovery Plan (Recovery Plan). 
Specific restoration actions in the Recovery Plan are implemented 
through agency and stakeholder partnerships and through individual 
competitive grant opportunities. In addition, our 2009 Biological 
Opinion for the Long-term Operations of the Central Valley Project and 
State Water Project (OCAP BiOp) specifies that certain actions are the 
responsibility of the Action Agencies to execute. In the case of the 
OCAP BiOp, Action Agencies refer to the U.S. Bureau of Reclamation 
(Reclamation) in coordination with the California Department of Water 
Resources (DWR). A few of the key strategies are outlined below.
A. Restoring Juvenile Salmonid Rearing Habitat

    The vast majority of historic floodplain and wetland habitat in the 
Central Valley no longer exists or is no longer accessible for juvenile 
salmonids. Restoring that habitat and access to it is expected to 
decrease the risk of predation of juvenile salmonids by other fish 
species because: (1) they will have access to more food, allowing them 
to grow faster and thereby improve their ability to avoid predation; 
and (2) the restored wetlands and floodplains will increase habitat 
complexity and predator refuge areas. Restoring juvenile rearing 
habitat is a key action in Recovery Plan. In addition, our OCAP BiOP 
specifies that the Action Agencies will restore 17,000-20,000 acres of 
floodplain rearing habitat for juvenile winter-run and spring-run 
Chinook and for Central Valley steelhead in the lower Sacramento River 
Basin.
B. Management of CVP/SWP Operations Conditions During Winter and Early 
        Spring

    NMFS and its Federal and state agency partners (Reclamation, DWR, 
U.S. Fish and Wildlife Service and California Department of Fish and 
Wildlife) are working with Delta water users including the Northern 
California Water Association to pursue four related activities to 
understand, manage, and reduce the exposure of juvenile winter-run 
Chinook salmon to negative flows and increased predation in the central 
and south Delta:

  1.  Continued partnership and support of the Collaborative Adaptive 
            Management Team (CAMT) and the Salmon Scoping Team;

  2.  Installation of barriers at Georgiana Slough and other key 
            junctions;

  3.  Improved enhanced particle tracking modeling; and

  4.  Real-time salmon monitoring and water export management in the 
            Delta.

    Implementing these activities is expected to improve juvenile 
winter-run Chinook salmon survival by expanding our knowledge of and 
ability to manage Delta conditions and impacts to ESA species; 
minimizing the distribution of juveniles from the Sacramento River into 
the interior Delta; and minimizing juvenile salmonid exposure to 
reverse flows and predation if they do enter the interior Delta. Of 
these items, installation of barriers at Georgiana Slough is a 
requirement of the Action Agencies in our 2009 OCAP BiOp.
C. Modifying Predation ``Hot Spots''

    The presence of man-made structures in the Sacramento River and 
Delta likely contributes to increased predation levels of salmonids by 
other fish species in specific areas where predators congregate in 
large numbers--termed ``hot spots.'' Red Bluff Diversion Dam in the 
Sacramento River was one such hot spot until the dam gates were 
permanently removed by the Action Agencies in 2012 per our 2009 OCAP 
BiOp. Removing the dam gates greatly improved the flow conditions at 
the structure in the favor of juvenile salmonids, making them less 
vulnerable to predation at that site. Consequently, predator densities 
at the dam decreased after the gates were removed.
D. Isolating Striped Bass within Clifton Court Forebay

    Survival of juvenile salmonids through Clifton Court Forebay, on 
the State Water Project in Contra Costa County, California, is 
extremely low due to an abundance of striped bass. To fulfill an action 
required by the 2009 OCAP BiOp to improve juvenile salmonid survival, 
DWR will this year be initiating a capture and relocation program for 
striped bass in Clifton Court Forebay. The striped bass will be 
released in an isolated section of the forebay, eliminating their 
access to juvenile salmonids in the forebay's open waters. This effort 
is intended to improve salmonid survival while also enhancing striped 
bass fishing opportunities in the isolated area.
                               conclusion
    Pacific salmon are of profound importance to healthy ecosystems, 
cultures, and economies, making their recovery a priority for the 
Region and the agency as a whole. NMFS has made great progress in 
recent years toward completion of high-quality salmon and steelhead 
recovery plans that provide a roadmap to conservation of these listed 
icons of the Pacific West Coast.
    Recovering Pacific salmon and steelhead populations will take 
decades to achieve, but should ultimately provide long-term economic 
stability, allow the United States to honor its commitment to tribal 
reserved fishing rights, and afford maximum regulatory flexibility. 
NMFS remains committed to investing in Pacific salmon and steelhead 
recovery in a way that addresses all threats to the species, including 
predation, in order to ensure our progress toward recovery remains on 
track.
    Thank you again for the opportunity to provide testimony today on 
this important topic. I appreciate the subcommittee's time and 
attention to these important issues and I look forward to working with 
you further. I would be happy to answer any questions you may have.

                                 ______
                                 

Questions Submitted for the Record by Rep. Jim Costa to Mr. Will Stelle
    Question 1. NMFS has in the past requested that the California Fish 
and Game Commission abolish its striped bass fishing regulations in 
order to reduce striped bass predation on native fish, including 
Chinook salmon (both by appearing in front of the Commission and 
sending written requests). Do you continue believe that this would be 
advisable? Are you prepared to renew your request or support such a 
request made by others?

    Answer. As reflected in the Final Central Valley Chinook Salmon and 
Steelhead Recovery Plan (2014), NMFS believes that an effective 
strategy for improving juvenile salmonid survival includes restoring 
rearing habitat at a large scale, providing protective flows during 
juvenile out-migration, minimizing the exposure of juvenile salmonids 
to areas of high predation (e.g., non-physical barriers to deter 
juvenile salmonids produced in the Sacramento River from being pulled 
south into the central and south Delta), modifying predation ``hot 
spots'' so conditions at those sites are more in the favor of juvenile 
salmonids, and conducting research to expand our knowledge of and 
ability to manage predation impacts on juvenile salmonids. With respect 
to research, the recovery plan calls for studies to quantify predation 
and evaluate whether predator control actions (e.g., fishery management 
or directed removal programs) can be effective at minimizing predation 
on juvenile salmonids.

    Our efforts in 2010 to modify striped bass fishing regulations were 
developed with our partners at the California Department of Fish and 
Wildlife (CDFW), as striped bass is a state fishery managed by the 
California Fish and Game Commission. We continue to work with our 
partners at CDFW to identify actions to enhance salmonid recovery, 
including (as stated above) efforts to reduce predation by non-native 
predatory fish species. We stand ready to support the state of 
California with any future considerations to address non-native 
predation, potentially including modifications to state fishing 
regulations. Any future efforts considered would be based on our best 
available scientific information and likely include an adaptive 
management component in order to address scientific uncertainties.

    Question 2. The threats assessments for spring-run Chinook salmon, 
winter-run Chinook salmon, and steelhead that accompany your 2014 
California Central Valley Salmon and Steelhead Recovery Plan rank 
predation in the highest stressor category for each species. What 
specific steps has NMFS taken to reduce predation effects in the 
species?

    Answer. To address the important threat of predation on juvenile 
salmonids in the Central Valley, we are: (1) executing the statutory 
and regulatory authorities granted to us under the Endangered Species 
Act (ESA) to require and influence direct action to reduce predation; 
(2) collaborating with numerous agency and non-agency partners to 
identify and implement predation minimization projects; and (3) 
conducting research through our Southwest Fisheries Science Center 
(SWFSC) to further understand juvenile salmonid movement and survival 
to better inform recommendations to reduce predation.

    Under section 7 of the ESA, our 2009 Biological Opinion for the 
Long-term Operations of the Central Valley Project and State Water 
Project (OCAP BiOp) required that the U.S. Bureau of Reclamation 
(Reclamation) in coordination with the California Department of Water 
Resources (DWR) take actions that would improve the survival and growth 
of juvenile salmonids. Multiple actions required under the OCAP BiOp 
are expected to minimize the effect of predation on juvenile salmonids.

    Additionally, NMFS prioritized and completed a programmatic section 
7 consultation in order to help expedite Sacramento River salmonid 
rearing habitat restoration projects being implemented through the 
Central Valley Project Improvement Act Fish Program. These projects 
(some of which have been completed and others that are in the planning 
stages) are intended to increase the amount and diversity of salmonid 
rearing habitat in the Central Valley, which is expected to result in 
faster juvenile salmonid growth rates and reduced vulnerability to 
predation.

    In addition, NMFS is currently partnering with the Golden Gate 
Salmon Association and CDFW to work with the city of Redding to reduce 
light impacts at the Sundial Bridge over the Sacramento River in order 
to minimize predation on juvenile salmonids. NMFS also regularly 
provides engineering support to help design or modify structures in a 
way that minimizes predation opportunities for striped bass and other 
predators.

    Question 3. Do you believe that spring-run and winter-run Chinook 
salmon can be recovered without addressing predation by non-native 
black bass and striped bass? If not, what steps is NMFS prepared to 
take to address the issue?

    Answer. Although predation is one of several key threats that will 
need to be addressed before spring-run and winter-run Chinook salmon 
can be recovered, as stated in our testimony, no single factor holds 
the key to recovering Pacific salmon and steelhead stocks. Each factor, 
each threat, must be addressed and reduced.

    Addressing sources of predation is a key component of our strategy 
to recovering threatened and endangered Pacific salmon and steelhead, 
but it is not the only effort we are taking to restore these 
populations. NMFS has made great progress in recent years toward 
completion of high-quality salmon and steelhead recovery plans that 
provide a roadmap to conservation of these listed icons of the West 
Coast. Our Final Central Valley Chinook Salmon and Steelhead Recovery 
Plan contains a suite of actions aimed at reducing juvenile mortality 
and lays out specific objectives for recovering the species. In 
addition, NMFS recently announced our Species in the Spotlight program, 
which highlights winter-run Chinook as one of eight most at-risk 
endangered species nationwide. As part of the Species in the Spotlight 
effort, NMFS has released a Sacramento River winter-run Chinook 
Priority Action Plan, which contains a suite of actions NMFS and our 
partners can take in the next 5 years to promote species recovery, 
including improved temperature management of Shasta Reservoir, 
restoration of key spawning and rearing habitat, reintroduction to 
historic habitat and actions to improve through Delta survival of 
juveniles.

    With respect specifically to non-native predation impacts, NMFS is 
taking multiple steps in order to execute a predation minimization 
strategy that includes restoring rearing habitat at a large scale, 
providing protective flows during juvenile out-migration, minimizing 
the exposure of juvenile salmonids to areas of high predation (e.g., 
non-physical barriers to deter juvenile salmonids produced in the 
Sacramento River from being pulled south into the central and south 
Delta), modifying predation ``hot spots'' so conditions at those sites 
are more in the favor of juvenile salmonids, and conducting research to 
expand our knowledge of and ability to manage predation impacts on 
juvenile salmonids.

    Question 4. Results of juvenile salmon survival studies in the 
south Delta and lower San Joaquin River have shown consistent high 
levels of mortality (>95 percent) for juveniles migrating through the 
Delta over the past decade. There is speculation that predation by 
largemouth bass, striped bass, and catfish is a significant factor 
contributing to the high mortality rates.

    4a) What is NMFS doing to better characterize the importance of 
predation mortality in the Delta on juvenile salmonid survival?

    Answer. NMFS has been working for several years with DWR and CDFW 
to study dynamics of predation on Sacramento-San Joaquin Delta 
salmonids and to evaluate predation by non-native fish and birds on 
juvenile steelhead in rivers and lagoons on California's central coast. 
This work has included striped bass studies and potential removal 
methods for use in the Pajaro River and the Carmel River lagoon. Our 
recent focus on predation in the Delta and elsewhere in the Central 
Valley was triggered by observations of unexpectedly high and localized 
areas of mortality, coming from tagging studies conducted annually 
since 2008. In 2016, with funding from CDFW, NMFS SWFSC scientists will 
investigate the distribution, abundance and habitat associations of 
significant predators of juvenile salmon and identify areas of high 
predation mortality. Results of this study will give insight into 
potential management actions that could reduce predator impacts on 
juvenile salmon.

    4b) What is NMFS doing to determine where predation mortality is 
greatest?

    Answer. In collaboration with the University of California-Davis, 
the U.S. Fish and Wildlife Service (USFWS), and CDFW, NMFS has been 
tagging juvenile salmon with acoustic transmitters and monitoring their 
movement and survival from rivers through the Delta and into the ocean 
since January 2007. This monitoring has identified a variety of areas 
where predation is especially high, and the data are being used to 
develop a model of migration and survival that will allow us to examine 
how water project operations (including physical and non-physical 
barriers) influence survival rates by altering salmonid migration paths 
and fish residence times in the Delta.

    4c) How do environmental conditions such as San Joaquin River flow 
and SWP/CVP exports affect the vulnerability of juvenile salmonids to 
predation?

    Answer. While it is clear that high flows are associated with high 
survival of salmonids, and low flows are associated with low survival, 
incremental flow adjustments may not have corresponding incremental 
effects on salmonid survival because flow is probably not directly 
influencing predation on salmonids in a linear, straightforward way. 
Depending on the time scale of interest, flow can affect the behavior, 
activity, and distribution of predators, salmon, and alternative prey 
throughout their habitats.

    Predation is an important proximate cause of low salmon survival, 
but the predator-prey interactions happen in an environment that is 
strongly influenced by current and historical management actions, such 
as channelization, bank armoring, highly altered hydrographic 
conditions, numerous introduced species, including piscivorous fish, 
various other fish prey species, and vegetation, etc. Thus, the context 
matters.

    Below are some key citations to support the general scientific 
understanding about the relationship between flow and predation. More 
detail and citations can be provided, if desired.

                      FLOW AND PREDATION CITATIONS

    <bullet> High salmonid survival is associated with high flows, as 
            shown in coded-wire-tag and acoustic tag survival studies.

          --  Newman, K.B. and Brandes, P.L. (2010). Hierarchical 
        modeling of juvenile Chinook salmon survival as a function of 
        Sacramento-San Joaquin Delta water exports. North American 
        Journal of Fisheries Management, 30(1), 157-169.

          --  Newman, K.B. (2003). Modelling paired release-recovery 
        data in the presence of survival and capture heterogeneity with 
        application to marked juvenile salmon. Statistical Modelling, 
        3(3), 157-177.

          --  Michel, C.J., Ammann, A.J., Lindley, S.T., et al. (2015). 
        Chinook salmon out-migration survival in wet and dry years in 
        California's Sacramento River. Canadian Journal of Fisheries 
        and Aquatic Sciences, 72(11), 1749-1759.

    <bullet> Salmon returns are often higher after periods of high 
            flows during juvenile migrations. (This is clearly observed 
            in escapement data, but it has also been shown 
            statistically.)

          --  Speed, T. (1993). Modelling and managing a salmon 
        population. Pages 267-292 in V. Turkman and K.F. Barnett, 
        editors. Statistics for the environment. J. Wiley and Sons, New 
        York.
    <bullet> High (natural) flows often are associated with high 
            turbidity, which reduces the vulnerability of prey to 
            visual predators.

          --  Gregory, R.S. and Levings, C.D. (1998). Turbidity reduces 
        predation on migrating juvenile Pacific salmon. Transactions of 
        the American Fisheries Society, 127(2), 275-285.

    <bullet> Juvenile salmon migrate faster when flows are high, which 
            may reduce their exposure time to predators.

          --  Smith, S.G., Muir, W.D., Hockersmith, E.E., et al. 
        (2003). Influence of river conditions on survival and travel 
        time of Snake River subyearling fall Chinook salmon. North 
        American Journal of Fisheries Management, 23(3), 939-961.

          --  Connor, W.P., Burge, H.L., Yearsley, J.R., et al. (2003). 
        Influence of flow and temperature on survival of wild 
        subyearling fall Chinook salmon in the Snake River. North 
        American Journal of Fisheries Management, 23(2), 362-375.

          --  Connor, W.P., Steinhorst, R.K. and Burge, H.L. (2003). 
        Migrational behavior and seaward movement of wild subyearling 
        fall Chinook salmon in the Snake River. North American Journal 
        of Fisheries Management, 23(2), 414-430.

          --  Michel, C.J., Ammann, A.J., Chapman, E.D., et al. (2013). 
        The effects of environmental factors on the migratory movement 
        patterns of Sacramento River yearling late-fall run Chinook 
        salmon (Oncorhynchus tshawytscha). Environmental Biology of 
        Fishes, 96(2-3), 257-271.

          --  Anderson, J.J., Gurarie, E., and Zabel, R.W. (2005). Mean 
        free-path length theory of predator-prey interactions: 
        application to juvenile salmon migration. Ecological Modelling, 
        186(2), 196-211.

    <bullet> High flows (if high enough) inundate floodplains where 
            salmonid growth and survival conditions are better.

          --  Sommer, T.R., Nobriga, M.L., Harrell, W.C., et al. 
        (2001). Floodplain rearing of juvenile Chinook salmon: evidence 
        of enhanced growth and survival. Canadian Journal of Fisheries 
        and Aquatic Sciences, 58(2), 325-333.

    4d) Can the San Joaquin River fall-run Chinook salmon population 
remain self-sustaining in light of the high levels of juvenile 
mortality?

    Answer. San Joaquin River fall Chinook (SJRFC) is not listed under 
the ESA, but is managed by NMFS, in conjunction with the Pacific 
Fishery Management Council (PFMC) and state of California, under the 
authority of the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA). The PFMC's Pacific Coast Salmon Fishery Management Plan 
(FMP) and associated documents provide more information on the status 
of the stock and how ocean fisheries that affect that stock are 
managed. SJRFC is one of three stocks in the Central Valley fall 
Chinook complex. Because there is less information for SJRFC, 
Sacramento River fall Chinook is used as the indicator stock for the 
larger stock complex. Additional information related to how the stocks 
are managed is provided in Question 4e (below).

    4e) Although fall-run Chinook salmon have not been listed for 
protection under the Federal Endangered Species Act, what is the 
responsibility and authority of NMFS to address management issues such 
as predator control under the provisions of Essential Fish Habitat or 
other authority given the commercial importance of fall-run Chinook 
salmon?

    Answer. As discussed in question 4d (above), NMFS manages SRFC via 
its authority under the MSA. NMFS monitors the status of the stock and 
manages ocean fisheries that affect the stock to insure that it is 
neither overfished or subject to overfishing. Although predation on the 
stock is not assessed by NMFS directly, it is one of the many sources 
of mortality that is accounted for implicitly as NMFS monitors spawning 
escapement and compares it to the conservation objective for the 
stock's management (contained in the Pacific Coast Salmon FMP). The 
record of escapements for SRFC and SJRFC are available in the PFMC's 
stock assessment documents (Tables B1 and B2 in http://
www.pcouncil.org/wp-content/uploads/2016/02/
Review_of_2015_Salmon_Fisheries_FullDocument.pdf).

    The MSA and the Pacific Coast Salmon FMP provide additional 
protection for SRFC by considering the effects of actions to Essential 
Fish Habitat (EFH). The MSA established a requirement for Federal 
agencies to consult with the NMFS on actions that may adversely affect 
EFH, and for NMFS to provide EFH Conservation Recommendations to 
Federal agencies to avoid, minimize, mitigate, or otherwise offset 
adverse effects to EFH. [Under the regulations implementing the EFH 
provisions of the MSA, EFH is defined as ``those waters and substrate 
necessary to fish for spawning, breeding, feeding, or growth to 
maturity,'' and necessary is defined as the ``habitat required to 
support a sustainable fishery and the managed species' contribution to 
a healthy ecosystem.'' An adverse effect is defined as ``any impact 
that reduces the quality and/or quantity of EFH.'']

    Although compliance with NMFS' EFH Conservation Recommendations is 
not mandatory, the Federal action agency must provide a written 
response within 30 days that either describes the measures the agency 
proposes to avoid, minimize, or offset the impact of the activity, or 
explains the reasons for not following the recommendations. In 
addition, Regional Fishery Management Councils and NMFS are required to 
review the EFH provisions of FMPs and revise or amend them as warranted 
based on the best available information at least every 5 years. The 
most recent EFH revisions for the Pacific Coast Salmon FMP were made in 
2014.

    4f) What management actions is NMFS planning to implement to help 
reduce predation mortality at specific predation hot spots and on a 
broader regional scale?

    Answer. As stated in Question 3 (above), NMFS is using its 
authorities and partnerships to pursue a predation minimization 
strategy that includes restoring rearing habitat at a large scale, 
providing protective flows during juvenile out-migration, minimizing 
the exposure of juvenile salmonids to areas of high predation (e.g., 
non-physical barriers to deter juvenile salmonids produced in the 
Sacramento River from being pulled south into the central and south 
Delta), modifying predation ``hot spots'' so conditions at those sites 
are more in the favor of juvenile salmonids, and conducting research to 
expand our knowledge of and ability to manage predation impacts on 
juvenile salmonids.

    NMFS' role under section 7 of the ESA is to work with Federal 
action agencies on projects to operationalize predator control efforts. 
NMFS provides the action agencies with technical assistance and 
expertise on the design of such programs. Under the 2009 OCAP BiOp, the 
action agencies (Reclamation, in partnership with DWR) removed the 
gates at Red Bluff Diversion Dam in 2012 to reduce predator 
congregation in the area. Removing the dam gates greatly improved the 
flow conditions at the structure in the favor of juvenile salmonids, 
making them less vulnerable to predation at that site. Consequently, 
predator densities at the dam decreased after the gates were removed.

    This year, DWR will be initiating a capture and relocation program 
for striped bass in Clifton Court Forebay to fulfill another action 
required by the NMFS 2009 OCAP BiOp to improve juvenile salmonid 
survival. As you know, survival of juvenile salmonids through Clifton 
Court Forebay, on the State Water Project in Contra Costa County, 
California, is extremely low due to an abundance of striped bass. As 
part of DWR's effort this year, the striped bass will be released in an 
isolated section of the forebay, eliminating their access to juvenile 
salmonids in the forebay's open waters. This effort is intended to 
improve salmonid survival while also enhancing striped bass fishing 
opportunities in the isolated area.

    Question 5. Several years ago the California Department of Fish and 
Wildlife recommended that the California Fish and Game Commission adopt 
changes to striped bass recreational harvest limits in the Delta and 
rivers that would promote greater harvest of adult striped bass thereby 
reducing the abundance of one of the major predatory fish impacting 
juvenile salmon and steelhead survival. NMFS supported the proposed 
management changes.

    5a) What other management actions is NMFS considering to reduce 
predation mortality?

    Answer. As stated in Question 1 (above), NMFS' efforts in 2010 to 
modify striped bass fishing regulations were developed with our 
partners at the CDFW, as striped bass is a state fishery managed by the 
California Fish and Game Commission. We continue to work with our 
partners at CDFW to identify actions to enhance salmonid recovery 
including efforts to reduce predation by non-native predatory fish 
species. We stand ready to support the state of California with any 
future considerations to address non-native predation, potentially 
including modifications to state fishing regulations. Any future 
efforts considered would be based on our best available scientific 
information and likely include an adaptive management component in 
order to address scientific uncertainties.

    NMFS is otherwise using its authorities and partnerships to pursue 
a predation minimization strategy that includes restoring rearing 
habitat at a large scale, providing protective flows during juvenile 
out-migration, minimizing the exposure of juvenile salmonids to areas 
of high predation (e.g., non-physical barriers to deter juvenile 
salmonids produced in the Sacramento River from being pulled south into 
the central and south Delta), modifying predation ``hot spots'' so 
conditions at those sites are more in the favor of juvenile salmonids, 
and conducting research to expand our knowledge of and ability to 
manage predation impacts on juvenile salmonids.

    5b) In the Pacific Northwest, bounties have been placed on 
predatory fish such as pikeminnow. Has that program on the Columbia 
River proven to be successful in reducing predation mortality?

    Answer. The northern pikeminnow bounty program, funded by 
Bonneville Power Administration, has a goal of maintaining an 
exploitation rate of 10 to 20 percent on fish 9 inches or longer.\1\ A 
recent evaluation \2\ indicates that, as a result of this program, 
pikeminnow predation on juvenile salmon has declined by about 40 
percent, saving 3 to 5 million juvenile salmon annually that would 
otherwise have been eaten by this native predator.
---------------------------------------------------------------------------
    \1\ Northern pikeminnow are a relatively long-lived species, often 
taking 4 to 6 years to reach a length of 9 inches. Smaller fish (<9 
inches) feed primarily on aquatic insects while larger fish (>9 inches) 
feed primarily on fish, including juvenile salmon, and crayfish.
    \2\ BPA, COE, and USBR. 2014. 2014 Annual Progress Report, Section 
2, pg 71.

    5c) Is NMFS considering a similar action for the Sacramento and San 
---------------------------------------------------------------------------
Joaquin Rivers and Delta?

    Answer. NMFS is not currently considering recommending bounties on 
predatory fish in the Sacramento and San Joaquin Rivers and Delta. We 
stand ready to support the state of California, CDFW and the California 
Fish and Game Commission with any future considerations to address 
predation, potentially including modifications to state fishing 
regulations.

    5d) Is NMFS considering recommending implementation of management 
actions such as a mark-select fishery similar to that in Washington and 
elsewhere as a method to improve survival of wild Central Valley 
Chinook salmon?

    Answer. NMFS is in the process of evaluating the risks and benefits 
of a mark-selective salmon fishery off the CA coast. A report will be 
prepared once results from this study are available.

    5e) What other alternative management actions is NMFS investigating 
or proposing to implement that would contribute to reducing juvenile 
mortality and contributing to meeting recovery plan objectives?

    Answer. As stated in Question 3 (above), NMFS has made great 
progress in recent years toward completion of high-quality salmon and 
steelhead recovery plans that provide a roadmap to conservation of 
these listed icons of the Pacific West Coast. Our Final Central Valley 
Chinook Salmon and Steelhead Recovery Plan contains a suite of actions 
aimed at reducing juvenile mortality and lays out specific objectives 
for recovering the species. In addition, NMFS recently announced our 
Species in the Spotlight program, which highlights winter-run Chinook 
as one of eight most at-risk endangered species nationwide. As part of 
the Species in the Spotlight effort, NMFS has released a Sacramento 
River winter-run Chinook Priority Action Plan, which contains a suite 
of actions NMFS and our partners can take in the next 5 years to 
promote species recovery, including improved temperature management of 
Shasta Reservoir, restoration of key spawning and rearing habitat, 
reintroduction to historic habitat and actions to improve through Delta 
survival of juveniles.

    Question 6. Results of monitoring juvenile winter-run Chinook 
salmon production and survival in the Sacramento River upstream of Red 
Bluff have shown evidence of high egg-fry mortality (approximately 95 
percent mortality) in 2014 and 2015.

    6a) What changes in management actions does NMFS anticipate will be 
implemented in 2016 to improve juvenile winter-run Chinook salmon 
abundance?

    Answer. Sacramento River winter-run Chinook continue to be greatly 
affected by California's extended drought, as evidenced by high egg-fry 
mortality in 2014 and 2015. Winter-run Chinook is one of eight species 
that NOAA is highlighting in our ``Species in the Spotlight'' 
Initiative, focusing our attention and resources to managing this 
species carefully and hopefully reverse its trajectory toward 
extinction. This species is important not only because it is the last 
population of winter run in the Sacramento River, but also because its 
population affects a host of activities in the Bay Delta, including 
ocean, commercial and recreational fishing; Delta operations and 
pumping regimes; and probably most significantly in the last 2 years, 
the timing and extent of rice growing in the Sacramento Valley.

    Winter run are highly vulnerable to water temperatures in their 
current spawning range below Shasta Reservoir. We will need to be very 
conservative with Shasta Reservoir operations from now through early 
fall 2016 in order to augment and stretch out the cold water pool, 
given that two out of three winter-run cohorts are likely to have 
suffered year class failures. The California State Water Resources 
Control Board had a hearing on issue of the 2016 Shasta Temperature 
Management Plan on March 18. In addition, on March 25, Reclamation 
submitted to NMFS their temperature management plan for ESA concurrence 
prior to issuing their initial Water Year 2016 allocations. Looking to 
the long term, it is critical that we continue to pursue efforts to 
reintroduce these salmon to their historic spawning range in the upper 
Sacramento River watershed, and also Battle Creek, if we hope to 
achieve recovery.

    6b) Will juvenile winter-run salmon production in the Livingston-
Stone hatchery be increased in 2016?

    Answer. Juvenile winter-run Chinook salmon production in Livingston 
Stone National Fish Hatchery was tripled in 2014 and doubled in 2015 in 
anticipation of a smaller quantity and quality of water in Shasta 
Reservoir that would not provide sufficient habitat for wild winter-run 
salmon throughout their incubation period (through October). It is too 
early at this point in the water year to determine how the hydrology 
and Shasta Reservoir (storage and cold water pool) will shape up to 
evaluate whether there is a need to increase winter-run Chinook 
production at Livingston Stone National Fish Hatchery in 2016.

    6c) Will the recreational salmon and trout fisheries be closed or 
modified to protect winter-run adults prior to spawning in the upper 
Sacramento River?

    Answer. Yes. The California Fish and Game Commission adopted CDFW's 
proposed closure to all fishing, effective April 1 through July 31, 
2016, from 650 feet below Keswick Dam to the Highway 44 Bridge.

    6d) Does NMFS anticipate that the low juvenile production in 2014 
and 2015 will result in greater constraints on water project operations 
or ocean commercial fisheries? What management changes are expected?

    Answer. All of the surviving juvenile Sacramento River winter-run 
Chinook salmon from broodyear 2014 are currently in the Pacific Ocean. 
March is typically the month when the majority of juvenile winter-run 
Chinook stop rearing in the Delta and out-migrate into the Pacific 
Ocean. NMFS' 2009 OCAP BiOp already includes requirements to protect 
juvenile winter-run Chinook in the Delta for the remainder of broodyear 
2015's freshwater residence time. Therefore, NMFS does not anticipate 
that the low juvenile production in 2014 and 2015 will result in 
greater constraints on water project operations.

    Ocean salmon fisheries are managed in direct response to the status 
of ESA-listed salmonids. If the status of listed salmonids diminishes, 
it is reasonable to expect that ocean salmon fisheries would be further 
constrained and that those constraints would last longer into the 
future than would have otherwise occurred. Ocean salmon fishery 
management measures are discussed at the March and April meetings of 
the Pacific Fishery Management Council each year.

    Question 7. In 2012, the Golden Gate Salmon Association produced a 
California salmon rebuilding plan. Your agency and the other fish 
agencies provided technical assistance in developing that plan. The 
plan included 39 hot spot predation locations where physical changes 
would reduce predation. It is my understanding that none of these 
projects have been implemented. What are the reasons these projects 
have not been implemented? Does NMFS support these projects and feel 
that they would reduce predation effects and improve species recovery 
efforts?

    Answer. NMFS is supportive of projects that address physical 
conditions at specific locations in order to reduce predation on 
juvenile salmonids. This approach to reducing predation is consistent 
with our Final Recovery Plan for Central Valley Chinook salmon and 
steelhead, and it is standard practice for NMFS engineers to help 
modify or design in-water structures to minimize predation 
opportunities.

    NMFS has been providing technical assistance to Golden Gate Salmon 
Association (GGSA) on their current salmon projects since 2012. GGSA's 
salmon rebuilding plan identifies 39 total projects that address a 
variety of stressors, and a small subset of these projects focus on 
addressing predation hot spots. Within that subset, efforts to address 
predation at two of the hot spots (Sundial Bridge and Clifton Court 
Forebay) have been or are currently being implemented. In addition, 
NMFS is currently providing technical assistance for a project to 
address a third hot spot (Freeport pipeline).

    Question 8. Clifton Court Forebay, at the site of the State Water 
Project pumping plant, is a known source of serious predation. A recent 
study indicated that 81 percent of the juvenile salmon pulled into 
Clifton Court perish from predation. In 2009, NMFS released a number of 
biological opinions that required changes to protect the ESA listed 
winter- and spring-run salmon. One of these was RPA IV.4.2(2) requiring 
a reduction of the predation at Clifton Court Forebay to 40 percent of 
what it was. That RPA required full compliance by March 31, 2014. It is 
our understanding that NMFS has approved continued delays for this 
action. Please explain why these delays were approved and what has been 
the impact of those delays on the near total loss of the listed winter-
run salmon.

    Answer. To achieve RPA IV.4.2(2) in the NMFS 2009 OCAP BiOp, DWR 
initially proposed creation of a fishing pier to provide additional 
fishing opportunity and increase fishing pressure on predators of 
juvenile salmonids in Clifton Court Forebay. Further analyses of this 
proposal indicated that it would likely not meet the predation 
reduction requirements included in this RPA action. As a result of this 
analysis, NMFS continued to provide technical assistance to DWR 
identify new actions that could achieve the 40 percent predation 
reduction target at Clifton Court Forebay included in RPA IV.4.2(2).

    This year, DWR will be initiating a capture and relocation program 
for predators in Clifton Court Forebay to fulfill RPA Action IV.4.2(2). 
As part of this effort, the striped bass will be released in an 
isolated section netted off from the rest of the forebay, eliminating 
their access to juvenile salmonids in the rest of the forebay. This 
effort is intended to improve salmonid survival while also enhancing 
striped bass fishing opportunities in the isolated area.

    Question 9. In 2009, NMFS issued a biological opinion and RPA 
IV.4.3 that required a 50 percent reduction in the predation that takes 
place at the Department of Water Resources discharge points where 
juvenile salmon from the pump salvage system are discharged into a 
pipe. Predation at those locations is known to be high. The RPA also 
required an evaluation of a ``net pen'' system as a potential better 
technology for discharging the juveniles. It is my understanding that 
this evaluation has not taken place and that instead, DWR has installed 
another $6 million pipe location. Can you please explain why this RPA 
was not carried out as directed? The RPA also required monitoring of 
results. Can you please provide a monitoring report on the success or 
failure of the $6 million installation to achieve the 50 percent 
reduction?

    Answer. In May 2010, DWR released a Final Release Site Predation 
Study Report to describe predation upon release salmonids following 
their salvage at the Federal and state facilities of the Central Valley 
and State Water Projects (respectively). In August 2010, DWR followed 
with a release of an Evaluation of Mortality and Injury in a Fish 
Release Pipe report. Following plans outlined in these reports, a 
complete refurbishment of the Curtis Landing release site was completed 
in 2014, and the site became operational in early 2015. Predation 
monitoring has been ongoing at the Curtis Landing and Horseshoe Bend 
sites since the Curtis Landing site returned to operation.

    In addition, DWR is currently developing a comprehensive plan to 
monitor predation at the new and existing discharge sites. Two new fish 
release sites on Sherman Island are currently under final design and 
permitting. These sites are scheduled for completion in 2017. 
Reclamation has taken the lead on analyzing opportunities for 
transporting and releasing fish by barge to these new release 
locations. We anticipate receiving a proposal from them for review in 
the coming year.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Stelle. Excellent testimony and 
perfect timing, sir. You are a model for all of us.
    Mr. Grossman, you are now recognized for 5 minutes.

  STATEMENT OF GARY D. GROSSMAN, PROFESSOR OF ANIMAL ECOLOGY, 
WARNELL SCHOOL OF FORESTRY AND NATURAL RESOURCES, UNIVERSITY OF 
                    GEORGIA, ATHENS, GEORGIA

    Dr. Grossman. My name is Gary Grossman. Since 1981, I have 
been a professor of animal ecology at the University of 
Georgia. I would like to thank the Chair and Ranking Member for 
the honor of this appearance, and reserve the right to revise 
my written testimony.
    My primary research areas include population and community 
dynamics and habitat selection in fishes, and I have published 
over 115 scientific papers cited over 5,000 times. For the last 
20 years, I have advised fisheries agencies in California, and 
in 2013 led a public hearing on the effects of fish predation 
on endangered salmonids that produced a technical report. I 
have recently completed a general review of the effects of 
predators on Sacramento and San Joaquin Delta fishes to be 
published in the State of the Delta Science.
    I will focus on California's Central Valley endangered 
salmon, but my comments also apply to other species and 
habitats.
    Unfortunately, the endangered salmon in the Central Valley 
reside in a highly altered habitat. Thus, it is difficult to 
establish a hierarchy of factors affecting salmon mortality. 
Consequently, assigning a value to the potential increases in 
salmon abundance that would be produced by predator control is 
problematical, when compared to increases potentially produced 
by remediation of other negative influences, such as degraded 
habitat, altered flow regime, and contaminants.
    Pacific salmon are born in rivers and streams, migrate to 
the ocean to mature, and then return to home streams to 
reproduce and die. To survive, they run a predatory gauntlet 
ranging from aquatic insects to predatory fishes, mammals, and 
birds. Most predation on salmon occurs when young fish migrate 
downstream to their oceanic adult habitat. When considering 
salmon mortality, one must distinguish between proximate and 
ultimate causes of death, because management efforts, expensive 
as they are, only will be successful if they address ultimate 
causes.
    Predation is frequently a proximate cause of mortality, 
because virtually any factor that weakens or disorients a 
salmon will increase the probability of predation. For example, 
copper concentrations commonly found in Delta waters produce 
abnormal behaviors in coho salmon that render them much more 
susceptible to predators. In this case, predation may be the 
proximate cause of mortality, but a contaminant actually is the 
ultimate cause.
    An additional complication potentially negating the effects 
of predator control measures is compensation by other 
predators. The removal of one invasive predator could easily 
result in an increase in abundance of a second invasive 
predator, with no net increase whatsoever in salmon abundance. 
The law of unintended consequences is alive and well on Mother 
Earth.
    My review of extant data indicates that six species of 
fishes and two bird species feed on endangered salmon in 
Central California, but 24 other predatory species have the 
potential to consume endangered salmon. Nonetheless, I cannot 
reach a definitive conclusion regarding the effects of 
predation mortality on Central Valley endangered salmon, 
because the database is neither extensive nor thorough. 
Mathematical models suggest that predators may influence salmon 
mortality, but these results have not been confirmed 
empirically.
    Finally, with the exception of lamprey control--and lamprey 
is not a predator of issue here on the West Coast--there really 
is no strong evidence that historic predator control efforts 
have resulted in substantial increases in salmon populations, 
despite considerable reductions in predator abundance.
    California's endangered Central Valley salmon live and 
migrate through altered habitats that support a multitude of 
invasive predators. Control of predatory fishes has the 
advantage of being logistically feasible by elimination of 
catch and gear restrictions, or even bounties, as we have seen 
with northern pikeminnow. Predator control also, to be frank, 
is more politically tractable than some aspects of habitat 
remediation, such as reducing water exports from the Delta.
    From a scientific perspective, there is nothing wrong with 
trying invasive predator control as an experimental management 
strategy. After all, nature is full of surprises. Nonetheless, 
I would not predict it will yield clear positive results, and 
it does divert funds from other, potentially more productive, 
management approaches. Based on the evidence at hand, I believe 
efforts to increase endangered salmon should focus on habitat 
and flow restoration, contaminant remediation, and alteration 
of artificial structures that disorient and trap fish.
    And thank you for this opportunity.
    [The prepared statement of Dr. Grossman follows:]
  Prepared Statement of Professor Gary D. Grossman, Warnell School of 
 Forestry and Natural Resources, University of Georgia, Athens, Georgia
    My name is Gary Grossman and since 1981 I have been a professor of 
animal ecology at the University of Georgia. I received my BSc degree 
from the University of California at Berkeley in 1975 and my PhD from 
the University of California at Davis in 1979. I would like to thank 
the Chair and Ranking Member of the Subcommittee on Water, Power and 
Oceans, for the honor of this appearance and reserve the right to 
revise my written testimony if further information will aid the 
subcommittee.
    My primary fields of research are population and community dynamics 
and habitat selection in fishes and I have published over 115 
scientific papers which have been cited over 5,000 times. In 2014 I won 
the American Fisheries Society's Sullivan Award for excellence in 
fisheries conservation and in 2015 I was elected to the first class of 
Fellows of that Society.
    My expertise in the issue of predation on endangered salmon is 
based on 20 years of fisheries advisory work in various forms for the 
state and Federal agencies that manage the Sacramento-San Joaquin 
Delta. In 2013 I led the public hearing on the effects of fish 
predation on Steelhead Trout and endangered Chinook Salmon populations 
in the Delta and senior authored the report produced by the technical 
panel from the hearing. At present I have completed a general review of 
the effects of predation on Delta fishes that will be published in the 
upcoming volume on ``State of the Delta Science.''
    My testimony is based on my experience with endangered Central 
Valley Chinook Salmon, but the principles I discuss are general and 
likely apply to many species and habitats. Unfortunately, the 
endangered salmon in California's Central Valley both live and traverse 
highly altered habitats, which make it difficult to create a hierarchy 
of factors limiting their abundance. In addition, many of the factors 
that are known to negatively affect endangered salmon, such as habitat 
alterations and water diversions for agriculture, domestic and 
industrial consumption, and toxicant burdens, are difficult to alter. 
Consequently, at present it is problematical to assign a value to the 
potential increases in endangered salmon abundance that will be 
produced by a reduction in invasive predators versus the potential 
increases produced by remediation of the many other factors that 
negatively affect endangered salmon populations (e.g. degraded habitat 
and flow regimes, contaminants, and artificial structures that 
disorient salmon and alter migration routes).
    For those of you who are not from Pacific states, it should be 
helpful to briefly review the life history patterns of Pacific salmon. 
All salmon are born in rivers and streams, and spend between several 
months and 2 years in freshwater. The young, called smolts, then 
migrate downstream through estuaries and out into the open ocean where 
they quickly grow to adult size. Pacific salmon spend 1-4 years in the 
ocean before migrating home to their birth streams, reproducing and 
dying. This complex life history forces Pacific salmon to run a 
predatory gauntlet beginning with aquatic insects that consume eggs to 
predatory fishes, birds, mammals, and perhaps a few reptiles and 
amphibians that consume young salmon and smolts. Indeed, most of the 
mortality experienced by salmon occurs in the freshwater stage or on 
the migration to the ocean. Adults also face predation from a few large 
oceanic fishes such as sharks and mammals like seals and bears. 
Nonetheless, for hundreds of millions of years Pacific salmon co-
existed with native peoples and predators; it is only when humans 
altered the environment substantially and introduce non-native 
predators that problems started to occur.
    When considering the effects of predators on endangered salmon it 
also is necessary to examine the impact of proximate and ultimate 
factors on mortality. Proximate causes are factors that contribute to 
mortality but are not the main causal factor. They represent factors 
that even if substantially reduced, may have little effect on 
mortality. By contrast, an ultimate factor is the primary causal agent 
influencing a process like mortality. Manipulation of an ultimate 
factor for predation should produce a significant positive effect on 
abundance. In general, predation may be either a proximate or ultimate 
cause of mortality, but for endangered salmon in California's Central 
Valley it is likely the former rather than the latter. This obtains 
because, virtually any environmental factor that weakens or disorients 
a young salmon will increase the probability that it will be eaten by a 
predator. Unfortunately, endangered salmon in California's Central 
Valley face a constellation of factors that likely weaken or confuse 
migrating smolts including: habitat alterations, altered flows and 
water removals, and contaminants. It is these factors that could easily 
be the ultimate cause of predation mortality.
    To examine just one of these factors, the presence of contaminants 
in the Sacramento-San Joaquin Delta; researchers have detected the 
presence of the following harmful agents: estrogen disruptors, 
psychoactive drugs, ammonia, Triclosan, and metallic compounds such as 
selenium, mercury, copper, and aluminum. Before endangered salmon 
smolts can reach the Pacific Ocean, they must traverse the Delta, where 
these contaminants are present in concentrations capable of causing 
abnormal behavior in fishes (Sloman and Wilcox 2006, Connon et al. 
2011, Brooks et al 2012, Conner et al. 2016). In fact, Sandahl et al 
(2007) demonstrate that copper concentrations commonly found in Delta 
waters produce abnormal anti-predatory behaviors in coho salmon. Their 
video (http://pubs.acs.org/doi/suppl/10.1021/es062287r) shows control 
salmon ceasing movement and dropping to the bottom of the tank when 
exposed to a fright stimulus, whereas fish exposed to copper continue 
moving around the tank in an agitated and highly visible manner. This 
behavior almost certainly renders young salmon more susceptible to 
predation and illustrates the principle of proximate and ultimate 
causes. In this case, predation would be the proximate cause of 
mortality but contaminants would be the ultimate cause. The greater the 
number of factors that stress young salmon, the greater the number of 
potential proximate causes of mortality and the greater the difficulty 
of undertaking management actions that will unambiguously result in 
decreased mortality and increased abundance of endangered salmon.
    An additional issue that must be addressed when evaluating the 
impact of predators on endangered salmon is compensation by other 
predators. Most predators on salmon are generalized feeders that 
consume a diverse array of prey. Consequently, a management strategy 
that reduces the abundance of an invasive predator, say striped bass in 
the Sacramento-San Joaquin Delta, might not result in an increase in 
endangered salmon abundance, because another predator might increase in 
abundance and consume an identical amount of salmon. Even worse, 
eliminating a predator also has the effect of eliminating a potential 
prey (young of the predator) for other predators and in the worst case 
scenario might lead to these predators increasing their predation rate 
on endangered salmon. The law of unintended consequences is alive and 
well on Mother Earth.
    I have surveyed the scientific literature and ongoing studies on 
predators of fishes in the Delta (Grossman 2016) and recorded eight 
species that fed upon endangered salmon: striped bass, largemouth bass 
and smallmouth bass, black crappie, white catfish, channel catfish, 
Caspian and California Least Terns. Nonetheless, 24 other predatory 
species have the potential to feed on endangered salmon. Despite the 
wide range of potential predators it is problematical to reach a 
conclusion regarding the effects of predation mortality on California's 
Central Valley endangered salmon because the database is neither 
extensive nor thorough (most data depict the presence or absence of 
salmon from a few samples). For example, data are completely lacking 
for some potentially major predators such as river otters. Predation on 
endangered Chinook Salmon does occur, but its impact on populations of 
this species cannot be ascertained given the data at hand. Several 
mathematical models (Lindley and Mohr 2003, Loboschefsky et al. 2012, 
Nobriga et al. 2013) do suggest that predation may have significant 
impacts on endangered salmon, but these studies, although yielding 
insights regarding the potential impacts of predators on this species, 
have not been verified empirically.
    Finally, the history of predator control to increase salmon 
abundance has not been markedly successful. The Northern Pikeminnow 
Sport-Reward Program began in 1991 in the Columbia River and pays 
anglers to harvest predatory size fish (Porter 2010). The program 
removed over 2.2 million fish during 1998-2009 and is believed to have 
reduced predation on juvenile salmonids, but positive effects on 
salmonid populations have been difficult to detect (Carey et al. 2012).
    California's endangered Central Valley salmon live and migrate 
through altered habitats that support a multitude of invasive predators 
capable of consuming endangered salmon. Control of predatory fishes has 
the advantage of being logistically feasible (managers can just remove 
restrictions on catch and gear, or even set a bounty on the fish as per 
pikeminnow control in the Columbia River). Predator control also is 
likely more politically tractable than some aspects of habitat 
remediation such as reducing water exports from the Delta. From a 
scientific perspective, there is nothing wrong with trying invasive 
predator control as an experimental management strategy. After all, 
nature is full of surprises. Nonetheless, I would not predict it will 
yield clear positive results and it does divert funds from other, 
potentially more productive management approaches. Based on the 
evidence at hand, I believe efforts to increase endangered salmon 
should focus on habitat and flow restoration, contaminant remediation 
and alteration of artificial structures that disorient and trap fish.
    Thank you for the opportunity to address the House Subcommittee on 
Water, Power and Oceans, and I will be glad to answer any questions you 
may have.

[References for this statement are included in the record and retained 
in the Committee's official files]

                                 ______
                                 

    Dr. Fleming. Very good, Mr. Grossman. You came even a 
little bit closer to the limit.
    [Laughter.]
    Dr. Grossman. I would normally take a couple of weeks to 
cover this subject in class, so I apologize for reading, but it 
is a lot of material to cover.
    Dr. Fleming. No. Hats off to you to pack all of that in 5 
minutes. Thank you.
    And finally, we have Mr. Doug Demko. Sir, you are 
recognized for 5 minutes.

 STATEMENT OF DOUG DEMKO, PRESIDENT, FISHBIO, CHICO, CALIFORNIA

    Mr. Demko. Good morning, and thank you for the opportunity 
to be here. I am going to review a few of the key points from 
my written testimony and then, obviously, look forward to 
questions later on today.
    I have been in fisheries since the 1980s. This was around 
the time when ESA was just resulting in large-scale efforts to 
conserve or to save salmon. I now have a company that 
specializes in research, monitoring, and conservation of fish, 
with a few offices in California and one in Asia. So, I like to 
think that I have a lot of good, on-the-ground, practical 
research experience.
    Over the years, I have worked with Native tribes, all of 
the state agencies from the West Coast, many Federal agencies, 
and now, for the last 5 or 6 years, foreign and even Communist 
governments. So, I think I understand competing interests, 
which I think a lot of this is about, regulatory processes and, 
certainly, I am used to red tape.
    As was mentioned, salmon start their lives in riffles in 
the upper river reaches. Over the decades of my career, we have 
spent tens of millions of dollars restoring these riffles so 
that more fish can spawn so we could provide or produce more 
baby salmon.
    We soon realized that these baby salmon had a perilous 
journey downstream to the ocean, due to water diversion. So, we 
spent two decades spending hundreds of millions of dollars 
screening diversions. My first job in fisheries was the Glenn-
Colusa Irrigation District, which was a fish screen that cost 
$50 million to build. Of course, that was the largest one, I 
believe, in northern California.
    Additionally, we have spent tens--and I am not an 
economist, but I would even say maybe hundreds--of millions of 
dollars on various studies and monitoring. We have life history 
monitoring, behavior studies, habitat use, predation, influence 
of flow on survival. So, where are we now? I would say we have 
a couple of decades gone, and we have certainly spent billions 
of dollars. And I think the spending continues, and I don't 
think it is going to stop or slow down in the near future.
    Additionally, we have a contentious and costly fight for 
water, and I think we are always going to have that in the 
state of California, as well. Yet native salmon continue to 
decline, and hatchery fish continue to increase, as was noted. 
It is estimated that 90 to 95 percent of the fish, the salmon 
in California, are currently hatchery fish.
    I think an objective person, and certainly an economist, 
would say that this has probably been a pretty dismal failure, 
considering how much money we have spent and the state of the 
system we have today.
    The one thing that I think most Central Valley biologists 
would agree on today, at least the field biologists that I deal 
with on a regular basis, is that predation is a huge, huge, 
problem, and the more we look, the more we see, the more we 
learn about this.
    NMFS, in their 2009 recovery plan for salmonids, said that 
reducing abundance of striped bass and other non-native 
predators must be achieved to, and I quote, ``prevent 
extinction or prevent the species from declining 
irreversibly.'' Now this was NMFS's 2009 recovery plan for 
salmonids. So I don't know how I would argue against predation 
being a problem.
    The California Department of Fish and Wildlife later 
admitted this. They had to be sued in 2008 or 2009. In 2011, 
they settled out of court, and admitted that this was a 
problem. We still spend billions on research, monitoring, 
restoration, but this is really all so we could feed the 
predators downstream. These are expensive salmon that we are 
producing upstream and feeding to downstream fish.
    Perplexingly, under the Central Valley Project Improvement 
Act (CVPIA) there is a legal requirement to double the striper 
population, similar to the anadromous salmon population. 
Perhaps the only invasive species in the world that has legal 
protection, and certainly the only one in the world that has a 
legal requirement to double its population. I did not look 
extensively, but I don't know of another situation like that. 
So, it is not often that we have a free, fast, and effective 
solution to any problem, especially an environmental problem. 
But I do believe predator control is one such solution, and I 
think we need to implement what the state of California agreed 
to in their settlement lawsuit in 2011, but have yet to do.
    Simple, straightforward changes to California's 
sportfishing regulations are needed. We either need to 
liberalize or completely remove harvest limits on striped bass 
and other non-native fish. This will increase harvests of these 
fish, decrease predator abundance, and ultimately increase 
survival of out-migrating salmon, steelhead, and other 
protected fish.

    Thank you. I look forward to elaborating on my comments 
further.

    [The prepared statement of Mr. Demko follows:]
Prepared Statement of Doug Demko, President, FISHBIO, Chico, California

The Overview: A Policy of Predation

    California resource agencies sink tens of millions of dollars every 
year into a failing effort to protect native and endangered fish 
species, while also bolstering introduced top-level predators that are 
decimating the very fish they are required to maintain. Without 
question, California's capital and time investments rival other 
successful fish recovery programs exemplified in the Pacific Northwest 
and Columbia River, but long-standing conflicting statutes and policies 
create fatal flaws that hinder native fish recovery. Decades of 
research, declining populations, and confused policies show that 
management of California fisheries is painfully ineffective. Resource 
agencies have acknowledged, but not addressed the problems.

    Instead of addressing the issue of predation, policy mandates to 
maintain non-native gamefish (i.e. predators) and placate the problem 
by producing more hatchery salmon have resulted in further 
deterioration of wild stocks and an alarming reliance on hatcheries. 
The Central Valley Project Improvement Act (CVPIA) of 1992 actually 
requires protecting and improving both introduced predatory striped 
bass and salmonids--an illogical contradiction of science and policy. 
Fisheries managers have used hatcheries as a band-aid to partially 
cover a gaping wound. It is acknowledged that supplementing wild salmon 
populations with hatchery fish is currently necessary to ensure future 
native fish populations, but hatchery fish are a poor substitute to 
wild fish. These policies result in both flawed economics and science. 
For example, increased flow appears to be the popular red herring for 
recovering native fish populations, but scientific studies continue to 
indicate that water releases from rim dams are no silver bullet: more 
water doesn't equal more fish (or it's impact on survival is small 
enough as to be difficult to establish). There is strong evidence that 
high flows in wet years are beneficial to fish, but recent studies have 
not been able to establish a relationship between smolt survival and 
river flow, within the managed flow range. Both the problem and the 
solution are evident, but the question is whether appropriate action 
will be enacted.
The Problem: Ignoring Unnatural and Excessive Predation of Native 
        Fishes

    The overwhelming majority of predation on juvenile Chinook salmon 
is the result of non-native predators that were intentionally stocked 
by California Department of Fish & Wildlife. Most of the non-native 
fish species (69 percent) in California, including major predators, 
were intentionally stocked by CDFW for recreation and consumption 
beginning in the 1870s.

    Numerous studies conducted by both agency and private researchers 
documented that predation poses a serious threat to juvenile salmon in 
California. A variety of non-native gamefish species, such as striped 
bass, largemouth bass, smallmouth bass, white catfish, black crappie, 
and spotted bass, prey on juvenile salmon in the San Francisco Bay-
Delta and its watershed. (Shapovalov 1936; Stevens 1966; Thomas 1967; 
Pickard et al. 1982; Merz 2003; Gingras 1997; Tucker et al. 1998; 
Nobriga and Feyrer 2007). However, only recently has the existing body 
of science on predation been recognized among fisheries managers as a 
major source of juvenile salmon mortality.

        By virtue of their abundance, habits, and size, predation by 
        striped bass has been implicated as a substantial contributor 
        to the poor survival of young salmon used in experiments to 
        estimate reach- and site-specific survival rates through the 
        Delta and in the Sacramento River (Bowen et al. 2009; Gingras 
        1997; MacFarlane et al. 2008; Michel 2010; Newman and Brandes 
        2010; Perry and Skalski 2008; Perry and Skalski 2009; Tucker et 
        al. 1998; Vogel 2010; Vogel 2011). By plausible extension, 
        listed salmon (and steelhead) also suffer poor survival rates 
        due to predation, including predation by striped bass. (CDFW 
        2011)

    It has now become clear that predation may significantly limit the 
success of salmon recovery efforts (NMFS 2009b; Dauble et al., 2010). 
The NMFS Draft Recovery Plan (2009b) for Chinook salmon and Central 
Valley steelhead considered ``predation on juveniles'' one of the most 
important specific stressors. Further, reducing abundance of striped 
bass and other non-native predators must be achieved to ``prevent 
extinction or to prevent the species from declining irreversibly'' 
(NMFS 2009).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

   As CDFW noted on the first page of their lawsuit settlement 
report in 2011 recommending revisions to sportfishing regulations:

        While predation by striped bass is only one of numerous 
        stressors on the listed species, by previously stocking striped 
        bass and by enacting the striped bass sportfishing regulations 
        currently in effect, the Department of Fish and Game 
        (Department) and the Fish and Game Commission (Commission) may 
        have inadvertently contributed to this stressor by helping 
        establish and maintain the current population of predatory 
        striped bass. More importantly, this particular stressor not 
        only has roots in the actions of the Department and the 
        Commission, but standard fisheries management practices 
        indicate it may be alleviated, at least in part, by further 
        action on the part of the Department and Commission. (CDFW 
        2011)

    Further, also on page one:

        Although studies of striped bass predation show each of the 
        listed species to constitute a relatively small part of the 
        striped bass diet, and although the actual level of striped 
        bass predation on these species is unknown and likely 
        unknowable, the enormous volume of fish (up to 110 million 
        pounds annually) consumed by striped bass and the widespread 
        distribution of striped bass within the geographic range of the 
        listed species indicate the impact of striped bass predation on 
        the listed species could be substantial; and . . .

        The recreational fishery for striped bass is very popular, and 
        many anglers will harvest substantially more striped bass if 
        they are allowed to keep smaller fish. (CDFW 2011)

    Despite the documented predation of such species on native fishes, 
high densities of introduced top predators are not being controlled, 
but in some instances enhanced. For example, changes in Federal 
statutes in the CVPIA required a doubling of natural production of 
Central Valley populations of anadromous fish within 10 years. Non-
native striped bass were included, thus creating competing goals of 
doubling both salmon and their introduced predators that were enacted 
in 1992. Hatchery outplanting of striped bass ended in 1992 (Kohlhorst 
1999). While it is clearly stated that predation is a significant 
impact on salmonids, it is also evident that policy to date has 
resisted any effort to challenge the `very popular' striped bass 
fishery.
The History: Research Identifying a Growing Problem

    The issue of predation did not occur overnight and the research to 
show its effects has progressed over decades. For instance, in the San 
Joaquin Basin between 1986 and 2006, paired releases of large groups of 
marked young salmonids (smolts) were made near the upper extent of 
spawning and near the mouth of several tributaries of the San Joaquin 
River: the Stanislaus, Tuolumne, and Merced rivers. Survival of fish in 
these tributaries was estimated based on the numbers of tagged smolts 
from the upper group relative to the lower group that were later 
recovered in the San Joaquin River at Mossdale. These mark-recapture 
studies provided the first direct estimates of very poor tributary 
survival in some years.
    Rotary screw trapping to monitor juvenile salmonid out-migration 
from the Stanislaus River began in 1995, and comparisons of estimated 
abundance at an upstream site relative to a downstream site near the 
confluence with the San Joaquin River indicate survival is poor in many 
years. This data is valuable because it provides estimates of survival 
for naturally produced juvenile salmon of all life stages migrating 
volitionally throughout the varying conditions observed during each 
migration season.
    In 1998 and 1999, a pilot study using radio telemetry in the 
Stanislaus River was the first in the San Joaquin basin to directly 
confirm predation by electroshocking a large striped bass and 
retrieving a radio tag (from a tagged, digested salmon smolt) from its 
stomach. This early research was important for establishing that: 
predation was occurring; suspected predation was occurring more 
frequently in substantially altered habitats, such as mine pits and 
deep scour holes; and non-native predators were present and relatively 
abundant in the Stanislaus River, even under the wetter hydrology 
observed in the years studied.
    The Stanislaus River counting weir, which has been in operation 
since 2003, was the first of its type used in the Central Valley. Weir 
monitoring has documented migration characteristics of adult striped 
bass, and has demonstrated that striped bass live in the river year-
round and are abundant, especially in dry years (when salmonids are 
most stressed).
    In 2012, after more than 15 years of juvenile out-migrant survival 
studies and monitoring indicating that predation is a major problem in 
the Stanislaus River, the USFWS estimated smolt survival in the river 
using radio telemetry. The survival estimate of 7 percent in 2012 was 
much lower than the 40-60 percent previously estimated by mark-
recapture studies conducted by CDFW.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Differences in catches between upstream and downstream rotary 
screw traps in the Tuolumne River between 2007 and 2012 also indicate 
high losses, ranging from 76 percent to 98 percent. In 2012, a study of 
rotary screw trap monitoring on the Tuolumne River documented 96 
percent mortality of juvenile Chinook out-migrants between these two 
trapping stations. As part of the FERC relicensing of the Don Pedro 
Project, a predation study conducted later the same year found that, 
based on observed predation rates and the estimated predator abundance 
between the traps, it is plausible that most of the losses of juvenile 
Chinook salmon between the two traps could be attributed to predation 
by non-native predatory species. A second year of more comprehensive 
investigation of predation in the Tuolumne River was planned for 2014 
following on the heels of this ground-breaking work completed in 2012; 
however, permits have not been issued by CDFW.
    In addition to the evidence in the Stanislaus and Tuolumne rivers, 
the Vernalis Adaptive Management Plan (VAMP) investigated the 
relationship between salmon smolt survival through the San Joaquin 
Delta and flow, exports, and operation of the Head of Old River Barrier 
between 2000 and 2011. A peer review (Dauble et al. 2010) of this work 
and the results of similar, earlier studies, concluded that ``high and 
likely highly variable impacts of predation, appear to affect survival 
rates more than the river flow.'' Since 2003, smolt survival through 
the San Joaquin Delta has consistently been less than 12 percent, while 
flows at Vernalis ranged between 2,000 cfs and 27,000 cfs.
    During spring 2014, a predation study in the lower San Joaquin 
River near Mossdale was conducted by NOAA Fisheries. Predators were 
found to outnumber Chinook salmon by a ratio of roughly 200 predators 
for every 1 Chinook salmon. Similar to recent studies conducted by NOAA 
Fisheries on the Sacramento River, live Chinook salmon were tethered to 
quantify the frequency of predation events. On some nights, 100 percent 
of the tethered Chinook salmon were preyed upon within one hour, 
indicating much heavier predation rates in the San Joaquin River than 
observed during the studies conducted on the Sacramento River. Out of 
2,064 deployments of Predation Event Recorders, there were 672 
predation events (15-60 percent per reach). Of the positive 
identifications of predators (121 had video footage), striped bass were 
responsible for 99 percent of the predation (Hayes et al., 2015).
    Similar to previous work in the tributaries, this study confirmed 
that low survival rates could be explained by predation by introduced 
fish species such as striped bass and largemouth bass. This more recent 
work supports the large amount of evidence that suggested that 
predation was the primary source of mortality of migrating juvenile 
salmonids. The best estimates averaged about 30 percent (range 3-99 
percent) from previous studies (Gingras 1997; Hanson 2009; Merz 2003; 
NMFS 2009).
The Response: What Response?

    A large body of evidence has been accumulated since the 1990s that 
all points to the conclusion that predation by non-native predators is 
having large impacts on sustainability and recovery of native fish 
species (see previous section). While predation impacts are not the 
sole reason for declines in native species in California, they remain 
an important and largely unresolved topic in managing fisheries. 
Fisheries management in California to this day continues to attempt to 
manage all fish species in the Central Valley on approximately equal 
footing--that is, attempting to manage introduced sportfish (i.e., 
promote striped bass fishing opportunities) while at the same time 
managing for sensitive and native species (e.g., Chinook salmon, 
steelhead, and Delta smelt), most of which are federally protected. 
This highlights the conflicting fisheries management goals of 
government agencies, which in turn, create and promote conflicts 
between various stakeholders in the state. In the past decade, the 
response by the CDFW to the predation issue has largely been the result 
of litigation and the subsequent settlement agreement (Table 1). Two 
CDFW workshops were held to address predation, but little action 
resulted from them, even though decades of research and examples of 
successful predator control programs were available for review and 
consideration. The CDFW settlement agreement only resulted in a 
relatively small funding opportunity ($1 million) to study predation in 
the Bay-Delta; no changes in sportfishing regulations, and, to date, no 
meaningful actions of any kind have been taken to accept or address the 
problem.

 Table 1. California Department of Fish and Wildlife Predation Response
                           (1990s to Current)
------------------------------------------------------------------------
            Year                                Action
------------------------------------------------------------------------
1992                         Formal stocking of striped bass ended due
                              to concerns on impacts to winter-run
                              Chinook salmon.
------------------------------------------------------------------------
May 2006                     Report from predation workshop to summarize
                              current state of knowledge on predation
                              associated with southern Delta pumping
                              facilities.
------------------------------------------------------------------------
2008                         2008 striped bass lawsuit filed.
------------------------------------------------------------------------
April 2011                   Settlement required CDFW to:
                               (1) Develop proposal to modify striped
                              bass sportfishing regulations
                               (2) Set aside $1 million for predation
                              research
------------------------------------------------------------------------
November 2011                Proposal to modify regulations released.
------------------------------------------------------------------------
February 2012                Fish and Game Commission rejects pursuing
                              proposal to modify regulations.
------------------------------------------------------------------------
July 2013                    CDFW holds second predation workshop in an
                              8-year period to summarize current state
                              of knowledge on issue.
------------------------------------------------------------------------
September 2013               Expert panel issues report from predation
                              workshop finds that primary research needs
                              to include estimation of predation risk
                              and exploitation risk requiring accurate
                              estimates of both predator and prey
                              abundance encompassing spatial and
                              temporal variation.
------------------------------------------------------------------------
September 2014               Request for Proposals notice released $1
                              million to fund predation research.
                              Proposals were due November 2014 with
                              funding to be awarded in spring/summer of
                              2015.
------------------------------------------------------------------------
February 10, 2016 (Today)    Despite continued pressure on CDFW through
                              various mechanisms (through research and
                              monitoring studies and through the
                              litigation and settlement process), no
                              action has been taken to address predation
                              or predation impacts in any meaningful
                              manner. Perhaps more importantly, striped
                              bass sportfishing regulations have
                              remained unchanged.
------------------------------------------------------------------------


    Simple and straightforward changes to California sportfishing 
regulations should be implemented to remove harvest limits and size 
limits on striped bass and other non-native predators. Sportfishing 
regulation changes could decrease the overall numbers of striped bass 
and other predators that consume the most salmon per capita. The change 
would only be one additional tool, among many already required by law 
(e.g., habitat restoration, water management, etc.), to aid in the 
long-term conservation and persistence of native fish species. A change 
in policy on this issue is not unprecedented. In Fall of 2015, 
fisheries managers in both Oregon and Washington removed many harvest, 
season, and size limits for warm water species (e.g., largemouth and 
smallmouth bass, walleye, catfish, bluegill, crappie, other sunfish, 
and northern pikeminnow, among others). The changes in regulations are 
most drastic on the Columbia River system in order to further support 
salmonid population recovery. The purpose of the regulation change was 
to lower the rate at which non-native predators prey on salmon and 
steelhead smolts, and to simplify complex fishing regulations. More 
importantly, fisheries managers in both states sent a clear message 
they are committed to the continued persistence of native fish species. 
A similar policy change in California, coupled with focused removal and 
suppression efforts, could lead to improved survival conditions for 
native species as has been demonstrated on the Columbia River (see 
section ``The Solution'').
The Economics: Salmon Have the Greatest Impact

    The economic contribution of salmon in California is significant. 
Viewing salmon through the prism of economics allows one to see not 
only the cultural and iconic value of the fish, but also the tangible 
and significant economic contribution to California. This is an 
important consideration in the ongoing discussion about the effects of 
predation and the many millions of dollars spent each year on 
monitoring, regulations, research, hatchery supplementation and 
conservation projects for salmon.
    Overall, California's marine recreational and commercial fisheries 
for all fish species have more economic impact than any other West 
Coast state, including Alaska (NMFS 2013). The greatest economic impact 
to California comes from commercial salmon fishing; however, 
recreational in-river harvest provides the greatest value per fish. The 
striped bass fishery also provides an economic benefit to the state, 
but at the cost of high predation to valuable salmonids. The cost for 
salmon recovery due to striped bass may offset any perceived value. 
Salmon represent the primary fisheries target species and economic 
driver. California's commercial salmon fishery is small compared to 
other West Coast states, but likely persists as a result of the premium 
price of local commercially harvested salmon.
    The 2013 recreational salmon fishery in California produced an 
overall economic impact of approximately $104.4 million for the state, 
while the commercial salmon industry produced approximately $244.4 
million (NMFS 2013; PFMC 2014; Ransom 2001). In 2010 (most recent 
available estimate), the California striped bass fishery had an 
estimated economic impact of $28.7 million (CDFW 2011). The striped 
bass fishery in California is popular, based on harvest and angler 
hours. However, the economic impact from striped bass angling is 
considerably lower than the recreational salmon fishery: a striped bass 
harvested in-river by a recreational angler provides an estimated 
economic impact of approximately $494, while an in-river harvested 
salmon offers an impact of approximately $1,176 (Ransom 2001; CDFW 
2001). Increasing striped bass harvest in California could lower 
predation pressure on juvenile salmonids, increase juvenile survival 
rates, and significantly reduce costly ongoing salmonid population 
recovery effort. As the economic value of in-river salmon sport harvest 
is considerably higher than that of striped bass, there would be a net 
economic benefit.
    These estimates of economic impact are conservative compared to 
other estimates that are available. The American Sportfishing 
Association (2010) reported that the 2009 closure of the salmon fishery 
in California cost the state $1.4 billion in economic activity and over 
23,000 jobs. The same study estimated that a full recovery of 
California's Chinook salmon runs could provide $5.7 billion in economic 
activity and 94,000 jobs for the state.
The Hatcheries: Adding Fish is Not a Long-Term Solution

    Considering the staggering economic impact of the salmon fishery, 
it is logical to assume that hatcheries are an easy solution to the 
problem of predation. California's anadromous fish hatcheries produce 
upwards of 50 million fish per year. In the Central Valley alone, the 
cost of this production totals nearly $9 million dollars annually (HSRG 
2012). However, many would argue that hatcheries are simply treating 
the symptoms, and not the causes, of salmon decline. It may seem 
illogical that hatcheries could actually undermine the very species 
they are meant to proliferate, yet many studies have raised concerns 
about hatchery practices, backed up by empirical evidence.
    Multiple fish hatcheries were constructed in California's Central 
Valley to mitigate for lost spawning habitat created by dams (Shasta, 
Folsom, Oroville, Camanche, and New Exchequer) built for both the 
Central Valley and State Water Projects. Over time, fall run Chinook 
salmon propagated at the five Central Valley hatcheries have comprised 
increasing proportions of the fishery, and best available estimates 
indicate that approximately 90 percent of the current commercial catch 
is composed of hatchery fish (Barnett-Johnson et al. 2007; Kormos et 
al. 2012; Palmer-Zwahlen and Kormos 2013; Palmer-Zwahlen and Kormos 
2015). Clearly, without artificial supplementation, there would not be 
a commercial salmon fishery currently in the state.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Hatchery fish are inferior to their wild counterparts for 
numerous reasons. Overwhelming evidence indicates that hatchery fish 
have much lower survival rates once released in nature (e.g., Waples 
1991; Unwin 1997; Kostow 2004). Unlike wild fish, hatchery fish are 
selected for traits that allow them to perform well in a captive 
environment, but are maladaptive in the natural environment. Hatchery 
fish are raised in predator-free concrete raceways and fed from above 
by automatic feeders and, consequently, are less able to avoid 
predators and feed sufficiently once outside of the hatchery. Because 
of their reduced genetic diversity, hatchery fish are more susceptible 
to diseases and are less able to adapt to new environmental conditions, 
such as freshwater flow extremes and warmer ocean temperatures. Indeed, 
research has demonstrated that hatchery salmonids have relatively small 
brains and slow sprint swimming speeds, and both factors likely 
contribute to their relatively low survival rates observed in nature.
    Salmon are famous for their ability to home back to their 
birthplaces to reproduce after traveling hundreds to thousands of miles 
in the freshwater and marine environments. The precise mechanism(s) for 
salmonid homing are not completely known, but are believed to result 
from juveniles imprinting on odors during downstream migrations, with 
subsequent recognition of olfactory cues by adults during pre-spawning 
upriver migrations (Quinn 2005). Homing promotes adaptations to unique 
local environmental conditions and increases the likelihood that adult 
salmon will find mates and adequate spawning conditions. Because of 
homing, each population has developed local genetic adaptations over 
time that best fit the unique conditions of their environment.
    Over time, juvenile hatchery salmon have been trucked farther 
downstream and released in larger numbers (Huber and Carlson 2015). 
Fish are released en masse in the Sacramento-San Joaquin Delta and San 
Francisco Estuary in order to boost survival rates by satiating 
predators, such as striped bass, and limiting exposure to harmful water 
quality by encouraging rapid emigration to the sea. Reduced mortality 
of juvenile fish has resulted in higher contributions of adult fish to 
the commercial and recreational fisheries overall. However, the lack of 
olfactory imprinting in hatchery fish has promoted exceptionally high 
rates of adult straying (approximately 70-80 percent compared to 
natural rates of <1-10 percent) from natal rivers (Sholes and Hallock 
1979; JHRC 2001; Hendry and Stearns 2004; Kormos et al. 2012; Palmer-
Zwahlen and Kormos 2013; Palmer-Zwahlen and Kormos 2015). According to 
experts, this lack of population structure is a ``cause for serious 
concern'' (Williams 2006). Alarmingly high straying rates are 
incompatible with the objective of promoting diverse and locally 
adapted Central Valley salmon populations.
    The Central Valley fall-run Chinook stock complex is genetically 
homogenized (Williamson and May 2005). The lack of any discernable 
population structure over such a vast geographic area is unique and 
due, in part, to off-site hatchery release practices (Garza et al. 
2008) which have promoted straying. The alarmingly high rates of adult 
straying is a concern to both conservationists and hatchery managers. 
Conservationists are concerned that hatchery strays will interbreed 
with wild fish and reduce the genetic diversity of wild populations. 
Reduced genetic diversity will make the remaining wild stocks more 
vulnerable to future environmental change because evolution can proceed 
only when there is sufficient genetic variation to select from. 
Hatchery managers are concerned that egg quotas will not be met if too 
many fish stray away from hatcheries. This occurred during the 2008-
2009 salmon fishery collapse for both the Mokelumne and Merced River 
hatcheries.
    The increasing reliance on hatcheries to support fisheries is 
trading short-term gains for long-term losses. The result is market 
failure, such as that observed during the fishery collapse in 
California from 2008-2009, when the commercial and recreational salmon 
fisheries were completely closed and Federal and state hatcheries were 
not able to meet production goals. Substituting hatchery fish for wild 
fish is a risky long-term strategy for both economic and conservation 
reasons; heavy reliance on hatchery fish is expensive and requires a 
constant source of funds to sustain the fishery. Wild salmon 
populations are self-sustaining and require no such investments from 
humans as long as the habitat capacity of natural areas is sufficiently 
productive.
    Central Valley salmon hatcheries have two main purposes: to sustain 
commercial fisheries and to reduce pressures on naturally spawning 
(wild) salmon. With the benefit of 70 years of hindsight, they have 
arguably failed to achieve both goals. Hatchery reform must include 
revisions of practices and policies so they are more consistent with 
restoration objectives. It is the policy of the California Fish and 
Game Commission that ``salmon shall be managed to protect, restore, and 
maintain the populations and genetic integrity of all identifiable 
stocks . . . artificial production shall not be considered appropriate 
mitigation for loss of wild fish or their habitat'' (California 
Department of Fish and Game Commission, amended 5/9/2008; http://
www.fgc.ca.gov/policy/p2fish.aspx). According to USFWS (2009), ``the 
21st century will demand a shift from managing individual resources to 
sustaining species, populations, and ecosystems.'' Accordingly, the 
California Hatchery Scientific Review Group (CAHSRG 2012) recommends a 
cessation of the trucking program because straying must be minimized in 
order for local adaptations to re-emerge. On-site releases must be 
favored, but in order to achieve success, alien causes of high in-river 
mortality rates, such as predation by non-native striped bass, need to 
be remedied.
The Solution: Direct Support for Predator Management

    Predation run amuck is not a new issue and there are examples of 
successful solutions. One long-running example comes from the Pacific 
Northwest, a region highly regarded for its advanced fisheries 
solutions.
    Northern pikeminnow are indigenous to the Columbia River, but they 
were not prevalent before the construction of the hydroelectric Federal 
Columbia River Power System. Reservoirs created by the hydropower 
system provided excellent slack water habitat for pikeminnow, and as a 
result their population in the lower Columbia and Snake Rivers 
flourished. Northern pikeminnow are voracious predators and salmon 
smolts comprise a large portion of their diet (Sauter et al 2004). 
These native predators now consume millions of salmon and steelhead 
each year in the lower Columbia and Snake River systems.
    The Northern Pikeminnow Management Program (NPMP) was established 
in 1990 in an effort to reduce predation by northern pikeminnow on 
juvenile salmon and steelhead as they emigrate from the lower Columbia 
and Snake Rivers to the ocean. The goal of the program is not to 
eliminate northern pikeminnow, but to reduce their average size and 
decrease the number of larger, older fish that are known to be highly 
predacious. Since 1990, the Bonneville Power Administration (BPA) has 
sponsored the Northern Pikeminnow Sport Reward Fishery Program in the 
lower Columbia River and a portion of the Snake River (from the mouth 
to Hells Canyon), offering cash to registered anglers for each northern 
pikeminnow they catch measuring 9 inches or longer. Site-specific gill 
netting and dam angling were also part of the NPMP, but were less 
efficient than the sport reward program and were discontinued in 2002 
and 2006, respectively.
    Since 1990, the BPA has paid anglers to remove more than 3.9 
million northern pikeminnow from the Columbia and Snake Rivers (annual 
average of 175,000), reducing predation on juvenile salmon by an 
estimated 40 percent. The successful predator removal program equated 
to saving 4-6 million salmon smolts that would have otherwise been 
eaten. Not only did the program save salmon, it was extremely cost-
effective. Of the program's $2.9 million budget, it is estimated that 
$1.4 million was returned to local economies from angling activity. 
Further, researchers estimated that the increased salmon resulted in 
$2.7-$9.9 million dollar benefit for economies from California to 
Alaska.
The Outcome: You Can't Get There From Here

    While the public or outward perception of CDFW may appear as though 
the agency is actively addressing the predation issues through publicly 
visual workshops, the agency has privately thwarted efforts by private 
interests (i.e., water rights holders) to study the predation problem 
on their affected rivers and streams, and to collaboratively work with 
all stakeholders toward a solution. One such study was proposed in 
2013, when FISHBIO, on behalf of water users, proposed to test whether 
reducing the number of non-native predators increases survival of 
juvenile Chinook salmon migrating through the lower Stanislaus River. 
To address this hypothesis, the overall goals of the Stanislaus River 
Predator Suppression Project were to (1) substantially reduce the 
abundance of non-native predators in the lower river by both preventing 
immigration of non-native predators into the river and removing 
existing non-native predators; and (2) to evaluate survival patterns of 
juvenile Chinook salmon during the same period. Other proposed 
predation studies in California, which were supported by Federal 
agencies and also fully funded by water rights holders, have been 
delayed, blocked, or otherwise not allowed due to `permitting issues,' 
often with little scientific or technical justification.
    While there is no guarantee that active predator management (i.e., 
predator suppression or removal projects) in California's Central 
Valley will substantially improve conditions for native species, it is 
guaranteed that continuing with the status quo will hinder or 
completely prevent species recovery and sustainability of native 
species. The effects of predation are undoubtedly an important driver 
in population dynamics of native fish populations in the Central 
Valley, and the hesitation to enact meaningful regulations and actively 
study the issue is troublesome. In addition, the lack of focus on such 
an important topic does not represent a comprehensive management 
strategy to manage a unique suite of native fish species in California. 
Innovative solutions to species recovery using a variety of tools 
(e.g., habitat restoration, targeted or passive predator management) 
should be implemented without delay to promote the survival and 
sustainability of California's iconic native species.
The Presenter: Background and Experience

    My name is Doug Demko. It is my pleasure to share this information 
and my experience with you. I am the President of FISHBIO 
(www.fishbio.com), a fisheries consulting firm with over 40 U.S. and 
international employees that specializes in fisheries research, 
monitoring, and conservation. I have been researching freshwater and 
anadromous fish in California for 25 years, including studying the 
potential impacts of dam and hydropower operations on fish populations. 
I have led research and monitoring efforts on the Stanislaus River 
since 1991, and currently work on the Calaveras, Stanislaus, Tuolumne, 
Merced, and San Joaquin rivers for a number of stakeholders. I have had 
the privilege of providing expert testimony on the impacts of flow on 
juvenile Chinook salmon and steelhead migration and survival in the San 
Joaquin River Basin to the State Water Resources Control Board on 
several occasions. I also prepared a brief on California Delta Chinook 
salmon predation losses for U.S. Senator Dianne Feinstein prior to a 
Congressional Meeting with House Speaker Pelosi and Senator Boxer on 
Central Valley fish and water issues, and twice provided expert 
testimony on the extent and causes of losses of juvenile Chinook salmon 
and steelhead in California's Central Valley tributaries and Delta to 
California State Legislature Congressional subcommittees. In addition 
to my work in the United States, I also direct FISHBIO's international 
research, including our office and staff in Lao People's Democratic 
Republic, where we work extensively in the Mekong Basin. Our research 
includes evaluating fishery and food security issues relating to 
hydropower development. FISHBIO has received grants from the U.S. State 
Department, U.S. Geological Survey (USGS), World Wide Fund for Nature 
(WWF), International Union for the Conservation of Nature (IUCN), 
Critical Ecosystem Partnership Fund, Wildlife Conservation Society 
(WCS), The Asia Foundation, and others. I am privileged to work for and 
partner with many leaders in global conservation efforts.

    [This document and references cited can be viewed at 
www.fishbio.com/predation_testimony.]

                                 ______
                                 

 Questions Submitted for the Record by Rep. Jared Huffman to Mr. Doug 
                                 Demko
    Question 1. Is there any evidence you can share demonstrating a 
relationship specifically between predator abundance and salmon returns 
in California's Sacramento-San Joaquin River Delta?

    Answer. Thank you for the question and the opportunity to respond. 
As far as I am aware, there is no demonstrated relationship 
specifically between predator abundance and salmon returns to the 
Sacramento and San Joaquin Rivers, simply due to lack of predator 
abundance monitoring by the California Department of Fish and Wildlife 
(CDFW). Regrettably, effective fisheries abundance monitoring is not a 
priority for CDFW, especially for non-native species on a large 
geographic scale (i.e. lower tributary reaches and Delta), and this 
prevents us from evaluating a possible relationship between predator 
abundance and salmon returns.
    As we discussed at the hearing on February 10, 2016, data from 
recent monitoring and focused research all strongly suggest that 
predation is a significant factor in reducing survival of juvenile 
salmon during their seaward migration, and subsequently reducing 
recruitment to the ocean and to spawning age. Recent predation studies 
have been conducted on the Tuolumne, Mokelumne, and San Joaquin Rivers 
(FISHBIO 2012; Sabal 2014; Demetras et al. 2016). FISHBIO (2012) used 
consumption rates and predator abundance data to estimate the potential 
loss of juvenile Chinook from predation in the lower Tuolumne River, 
which exceeded 90 percent loss. Monitoring data from rotary screw traps 
have indicated that losses of juvenile Chinook salmon have ranged 
between 75 percent and 95 percent from 2007 to 2012 corroborating the 
estimate from the study (FISHBIO, 2012). Sabal (2014) demonstrated that 
survival of juvenile Chinook salmon at a known predatory hot spot was 
improved on average 25-29 percent after predator removals. On the San 
Joaquin River, Demetras et al. (2016) estimated that cumulative index 
survival of tethered Chinook salmon through a 1-kilometer reach was as 
low as 0.72 (out of 1). In the freshwater environment, many factors can 
affect survival of juvenile salmon including flows, water temperatures, 
predation, and disease, among others. Many of these factors are 
intensely managed in the Central Valley currently, but rarely have they 
resulted in recovered populations of Chinook salmon. The exception is 
predation, which to date, has not been addressed in a meaningful manner 
in the Central Valley. Therefore, reducing the predation pressure on 
juvenile salmonids should be considered an additional management 
option, among many already currently used, to aid in the recovery and 
sustainability of Chinook salmon populations.
    Since the hearing on February 10, the Washington Department of Fish 
and Wildlife removed fishing restrictions for bass, walleye and channel 
catfish from the mouth of the Columbia River 545 miles upstream to 
Chief Joseph Dam. The deregulation is consistent with fishing 
modifications in effect since 2013 on the upper Columbia River, and 
with those approved last year for boundary waters shared by Washington 
and Oregon further downstream. The main goal of deregulating the 
fisheries for bass, walleye and channel catfish is to increase the 
harvest of these species, thus reducing predation on juvenile salmon 
and steelhead that are listed for protection under the Federal 
Endangered Species Act.

                                 ______
                                 

    Dr. Fleming. Thank you, Mr. Demko. I believe we are now 
ready for questions. Therefore, I yield myself 5 minutes for 
questions.
    First to you, Mr. McCormack. Your testimony makes a number 
of recommendations, including--and this is a quote, word for 
word--``providing clear and respectful deference to endangered 
species when in conflict with non-endangered or protected 
species.'' Clearly, we have Federal laws that are acting in 
contradiction to each other in some cases. How should Federal 
agencies balance these competing demands, particularly when 
they are constantly being threatened by lawsuits?
    Mr. McCormack. Thank you for the question. I think it is 
appropriate when we work together--with the inter-agencies 
working together, staffs working together, looking at the 
matrix that has developed. And, of course, I am not a 
scientist. So, we will leave it to them for the specifics. But 
working with those numbers, and working with the effects, and 
having them sign off between agencies so that they all have 
input on how this legislation or how things would affect one 
another, I think would be a good recommendation.
    Dr. Fleming. OK, thank you.
    Mr. Demko, you mentioned the fish doubling goal for both 
striped bass and salmon in the Federal Central Valley Project 
Improvement Act as direct contradictions where doubling the 
population of the non-native striped bass is undermining the 
same goal for salmon. Do such goals make sense?
    Mr. Demko. Well, from my opening statement, obviously, I 
don't believe so. I don't see, especially considering the 
decades that we have put into salmon recovery, all of the 
efforts, all of the money that gets spent to protect and make 
more salmon, only to have the baby salmon migrate downstream 
and be eaten by non-native predatory fish.
    I recognize that it is a popular sport fishery, but it is 
just that. It is a sport fishery. And a lot of money, time, and 
effort--decades have gone into restoring native salmon 
populations. I think that it is now obvious that striped bass 
and other non-native predators are a hindrance to those 
efforts.
    Dr. Fleming. So what would make sense to improve that 
balance?
    Mr. Demko. Let's look for a free, fast, and effective 
solution. As I mentioned, there are not too many times in 
nature--and I have never encountered one in my career, where we 
are trying to solve a problem and there is a solution in front 
of us, at least a partial solution. I am not saying it is a 
complete or full solution, but when there is an opportunity in 
front of us to make a substantial improvement, or substantially 
improve the number of baby salmon that are surviving to the 
ocean by just simply changing the law to allow striped bass and 
other predators to be harvested.
    Dr. Fleming. Would it be wise to strike the fish doubling 
goal for the striped bass?
    Mr. Demko. Yes, I think it makes total sense as a first 
step to change the CVPIA doubling goal.
    Dr. Fleming. OK. This question is for Mr. McCormack and Mr. 
Demko.
    Mr. Grossman's testimony questions whether the Bonneville 
Power Administration's program on controlling the northern 
pikeminnow has been successful. His questioning of that program 
implies that future predator control programs may not be 
successful. Yet your testimonies use pikeminnow control as an 
example of success. Has this program had positive effects on 
salmon populations?
    Mr. McCormack. I would say, yes, it has saved thousands of 
smolts. So, yes, it has been effective.
    Dr. Fleming. Mr. Demko?
    Mr. Demko. OK, two comments on that. Number one, a paper 
published and presented to the Pacific States Marine Fisheries 
Commission in 2004 found it to be cost effective. And this 
program we are talking about is a sport fishery, so they pay 
people, there is a reward program to harvest pikeminnow. They 
found it to be cost effective. They said it reduced predation 
as much as 35 percent. Thirty-five percent by removing one 
fish, and that was a native fish, and I think less, much less, 
of a problem than we have in California.
    The $2.9 million budget contributed $1.4 million to local 
economies. When you looked at the number of salmon that 
actually grew up and returned, it was between a $2.7-$9.9 
million return to economies all up and down the West Coast.
    On top of that, they found that other predators did not 
move in and compensate. So, we were not leaving a niche open 
that allowed other predators to step in. And if I can read here 
from a press release from the Army Corps of Engineers, the 
Bureau of Reclamation, and BPA, the Bonneville Power 
Administration. This was on September 28, 2012. ``Sport anglers 
removed approximately 155,000 pikeminnow from the Columbia last 
year. The sport reward program has reduced pikeminnow predation 
on juvenile salmon by roughly 40 percent since 1990. The Action 
Agencies continue to focus on controlling predation by native 
and non-native species.''
    So, to me, it is clear that this program in the Pacific 
Northwest has been economical, efficient, and effective.
    Dr. Fleming. It sounds like a win-win-win. People get to 
fish, they get paid in some cases to fish, and you end up 
getting more salmon.
    Mr. Demko. Yes.
    Dr. Fleming. That is lovely. My only other question is are 
these fish edible, the predator fish?
    Mr. Demko. Yes, they are.
    Dr. Fleming. OK, that is four wins. So, with that, I yield 
to Mr. Huffman.
    Mr. Huffman. I was not aware that pikeminnow were worth 
eating, but perhaps I live and learn.
    Dr. Grossman, I appreciated your testimony about the 
important distinction between ultimate causes of salmon 
mortality and proximate causes. Perhaps you could elaborate a 
little bit on that.
    I also appreciated that you alluded to the fact that much 
bigger stressors are the ultimate causes of the demise of 
salmon in a place like California, and that we have to include 
those in our consideration. We are not really allowed to have 
that conversation in this forum, to talk about seriously 
degraded habitat and the need for flows. We are continually 
having to reprove that fish need water while we talk about 
these other things.
    But the whole conversation reminds me that about a century 
ago, wildlife officials in Alaska, who had no problem with 
canneries blocking off the entire mouths of rivers, and taking 
almost 100 percent of the returning salmon for the industry, 
thought that the solution to declining salmon populations was 
to offer a bounty on bald eagles. And there are certainly 
shadows of that conversation in the one that we are having here 
today.
    So, I wanted to ask you about your analysis of previous 
predator control approaches, and frankly, whether there have 
been many genuine success stories involving predator control.
    Dr. Grossman. Thank you. All right. A complex question, 
right? As you have alluded to in your statement, especially in 
the Sacramento-San Joaquin Delta Region, we have basically 
every environmental problem that you could find that affect 
fish. We have contaminants, we have habitat alterations and 
habitat destruction, we have water exports. And everybody in 
this room needs water, and fish need water, right?
    So, I guess I would like to address a couple of questions 
that were just brought up. The first is the aspect of 
evaluating whether or not previous predator control strategies 
have been successful. In some cases, it is an apples-and-orange 
kind of question. When evaluations are made on whether predator 
control is successful or cost effective, the standard that it 
is judged by is how much it costs to remove a given number of 
predators. And if the managers agree that the cost per predator 
removed is worth it, and the state can pay it, then that is 
deemed successful and cost effective.
    In my testimony, I spent a fair amount of time talking 
about ultimate and proximate causes. I hope I made the point 
that predation frequently is not the ultimate cause of 
mortality. So, Mr. Huffman, you made the comment earlier about 
the fish ladders and the fish diversion structures in the 
Columbia River creating a buffet kind of situation. And, of 
course, in the Delta we have that same sort of situation. In 
that case it is habitat that has created a situation where 
predators are able to congregate, the prey are congregated, and 
predation has a big impact.
    But if you do not remove the habitat problem, and you 
remove all the striped bass, large-mouth bass might be right in 
there next. And, despite all the comments about the success of 
pikeminnow removal, everything I read in the testimony 
presented to me, and the synopsis by the committee, was 
Columbia River, we removed a lot of pikeminnow. Uh-oh, sea 
lions. Now stellar sea lions. Now Caspian terns.
    This is what I meant in my testimony when I talked about 
complementary responses. Let's say we remove the striped bass. 
As I mentioned, there are 24 other potential predatory species 
in the Delta, and probably an equal number in the Columbia, as 
my colleague mentioned. So, after having taught resource 
management for 30-plus years, let me just end my answer by 
saying sometimes the low-hanging fruit is sour.
    Mr. Huffman. Especially when the entire tree is rotten, 
maybe you should have the bigger conversation. Thank you for 
your testimony.
    Dr. Fleming. The gentleman yields back. Dr. Gosar is 
recognized.
    Dr. Gosar. You know, I am just licking my chops over here.
    Mr. Grossman, my good friend from California made the 
comment about canneries at the mouth of a river. Aren't they 
predators?
    Mr. Huffman. That is why we stopped them from doing that.
    Dr. Gosar. That is what I am saying, is----
    Dr. Grossman. Yes, we don't do that any more.
    Dr. Gosar. So, my whole application is there is validation 
on the ultimate predators and all predators combined.
    Dr. Grossman. In special circumstances, absolutely.
    Dr. Gosar. Oh, special circumstances, baloney.
    Mr. Demko, I am going to go to you. There is no doubt that 
many of our river systems throughout the country have been 
changed by water and power infrastructure. Our engineering 
forefathers deliberately envisioned the need to store and 
deliver water and harness the power of moving water, among 
other things. Some believe that altering or removing these 
facilities is ``more productive than predator control.'' Do you 
agree?
    Mr. Demko. No, and let me back up a little bit to say that 
I am not just anti-striped bass. I am anti-large-mouth bass, I 
am anti-small-mouth bass. I am anti-non-native fish, because it 
is shameful that in this day and age that right now the fish 
biomass is 98 percent non-native. Ninety-eight percent of our 
fish in the Delta are non-native. Sixty-nine percent of the 
non-native fish in California were intentionally introduced by 
the California Department of Fish and Wildlife.
    This is our problem, just like the structures that we have 
in the Delta are a man-made problem. The problem we have is we 
altered the habitat and then we put in species that actually 
are better adapted to that altered habitat than our native 
salmon.
    But to think that we were just afraid to try and solve the 
problem. I actually have people tell me that we cannot remove 
striped bass because we don't know what will happen, and it is 
like, really? You think it is going to get worse? I mean 98 
percent of the biomass is non-native species. What do you think 
is going to happen? The system is going to collapse?
    I mean I am really for giving this a try, at least spending 
a decade to remove a lot of the non-native fish. And again, 
this is free. Few opportunities come our way to have a real 
meaningful impact that are free, fast, and effective.
    Dr. Gosar. I want to follow up. In your written statement 
you said that more water does not equal more fish. Some have 
suggested that flows are the best way to help recover fish. Of 
course, these flows can be diverted from farms and ranches at 
times. Based on your statement, what are your thoughts?
    Mr. Demko. The flow issue is a challenging one, because it 
is hard, as a biologist, to sit and argue against flow, or 
against the fact that fish need flow, because, obviously, fish 
live in water. There is some ground-breaking science for you.
    [Laughter.]
    Mr. Demko. And, I think that the flow equals fish mentality 
comes from--what we see in the Central Valley, as other 
places--and this is a poignant point for me, because I see it 
in the Mekong.
    Why is the Mekong such a huge producer of biomass, of fish? 
It is because in the high flow years you get a lot of shallow-
water habitat. And this is what we see in California, as well. 
In the wet years, the high-flow years, fish are kind of a boom 
and bust animal. Historically, what you would see--well, even 
today, in high-flow years temperatures are cool, things are 
flooded, conditions are good for fish, predators are laid down, 
so we get good fish production.
    Historically, in high-flow years and even medium-flow 
years, you would still get a lot of shallow-water habitat 
created, because of the system that we have to protect our 
cities and our farmland. We have levees throughout the lower 
rivers and the Delta. What happens when flow goes up in that 
environment? It is like raising the elevation of water in a 
bathtub. You are not really making habitat for fish any more. 
All you are doing is raising the elevation a couple of inches.
    And what we see down in the Delta, with high flows within 
the managed flow range, we can reduce or release a couple of 
thousand cfs here and there to help fish, it does not change 
the habitat, it does not reduce temperatures, it does not 
change turbidity. All the things that we see in those high-flow 
years, we do not get that from the managed-flow years.
    Dr. Gosar. Well, I am going to make a note. This is 
something I have a background and a knowledge in, in aquatic 
environments. What I have seen is that science is, instead of 
peer-reviewed and outcome-driven objectives, science is what 
bureaucrats will reward for preconceived outcomes by the 
Federal funding of specific objectives.
    I will give you a perfect example that is non-aquatic: our 
forest health. This is what is problematic about this. And I 
appreciate, Mr. Demko, your thoughts and outlines. Thank you.
    Dr. Fleming. The gentleman yields. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, for the 
hearing. I have a lot of questions, some I will have to submit 
for the record.
    But, let's get real here. The world has changed in 100 
years in California and on the West Coast. We have the 
population of folks that have changed and altered the 
environment. That is the reality. So, when we talk about 
restoration of fisheries, and we talk about the introduction of 
non-native species, what world are we trying to re-create?
    Are we going to try to go back 100 years? Because I don't 
think that is feasible. The Sacramento-San Joaquin Delta System 
does not look anything like it did 100 years ago, to the point 
that you made, Mr. Demko, in terms of habitat, when you do have 
high flows like we have experienced.
    But, let's be clear. A choice has been made to take water 
away from communities that are in dire need, where we have had 
a zero water allocation, the people I represent, some 4 million 
people in the San Joaquin Valley, to provide uncertain benefits 
to species that have been harmed, clearly, for a host of 
reasons.
    And today, we are highlighting the impacts of being eaten 
by non-native species that humans have introduced, going back 
to 1879, when we brought in striped bass to the Delta. I think 
it is, frankly, morally wrong, and it should be drawing 
national attention, similar to the water crisis in Flint, 
Michigan.
    Einstein once famously said, ``If you can't explain it 
simply, you don't understand it well enough.'' And the impacts 
of predation on the recovery of listed species is, I think, a 
living example of that quote. The fact is that we have a 
situation here in which, whether it is 20 percent or whether it 
is 50 percent, we are doing nothing about it.
    To your point, Mr. Grossman, habitat, clearly, 
contaminants, discharges, export of water, and predators are 
all factors in the decline of these native species. But it is 
like flying an airplane. We are only using one control to deal 
with this, and that is the power--i.e. the exports of water. We 
are ignoring habitat, for the most part, we are ignoring 
contaminants, we are ignoring predators, and we are ignoring 
the discharges into the system. How can you have any success in 
dealing with this, when we are unwilling to acknowledge the 
other factors?
    Mr. Stelle, you have indicated that this is a challenge and 
it is a problem. Why have we, in every major watershed that the 
Bureau of Reclamation deals with, U.S. Fish and Wildlife 
Service, that there is a predator program except in the Central 
Valley?
    Mr. Stelle. Thank you, Congressman Costa. I think the 
answer to your question is in the Columbia. The target species, 
the target predators that we are working on, as you have heard, 
the avian species and the fish species are not managed actively 
by the state and Fish and Wildlife for purposes of commercial 
or recreational activities----
    Mr. Costa. I would like you to get back to me on the 
answer. I only have a minute, and we won't get there.
    Mr. Stelle. Yes, OK.
    Mr. Costa. I have offered an amendment that was introduced 
in Congressman Valadao's bill of last year, the same language 
included in the discussion draft in Senator Feinstein's bill, 
that would direct your agency to prepare a plan for the Central 
Valley to begin initiating a pilot program for predation. Would 
you support that?
    Mr. Stelle. Yes, sir.
    Mr. Costa. OK. And, you believe it is necessary, as a part 
of one of the management tools, to deal with this issue. Is 
that correct?
    Mr. Stelle. Yes, sir.
    Mr. Costa. What specific steps has NMFS taken to reduce the 
predation effects in this species?
    Mr. Stelle. We are implementing a pilot program, we, the 
Department of Fish and Wildlife, to target predation hot 
spots----
    Mr. Costa. Which we saw up here on the video.
    Mr. Stelle. Yes.
    Mr. Costa. Do you believe that spring and winter-run 
Chinook salmon can be recovered and de-listed without 
addressing predation of non-native black bass and striped bass?
    Mr. Stelle. I believe we should address all major limiting 
factors, including predation.
    Mr. Costa. Of course. Common sense would tell you that. 
But, politically, it is unacceptable. Politically, the thing 
that we do hear is that we blame a certain region of the state, 
and we say you can dry up and blow away because, politically, 
it is not popular to take a certain sports fishing industry and 
say there is a problem here and we ought to address it. I am 
just frustrated more than I can tell you of trying to come 
together with common-sense solutions that deal with all the 
stress factors.
    Clearly, export of water is one of them. No one denies 
that. But when we have waters of the rivers running in these El 
Nino storms at 50,000 cubic feet per second, and we reduce 
exports to minus 2,500, something is not correct. It does not 
make any sense. We are saying one part of the region of the 
state can do without water--we don't say that to fish--while 
the rest of the state can have water. It is not fair, it is 
unacceptable.
    My time has run out, Mr. Chairman, but I will submit the 
other questions for the record. Thank you.
    Dr. Fleming. The gentleman yields back. Mrs. Lummis, you 
are recognized.
    Mrs. Lummis. Thank you, Mr. Chairman, and thank you, 
witnesses, for being here.
    Mr. McCormack, did I hear you say that since the Marine 
Mammal Protection Act passed, that sea lions have increased 
six-fold? I see Mr. Stelle shaking his head in agreement. You 
agree with that.
    Before the Marine Mammals Act, who or what was predating on 
sea lions? What was keeping their population down?
    Mr. McCormack. The sea lion population? Is that your 
question?
    Mrs. Lummis. Yes. Because, presumably, the law has 
protected them from something, causing their numbers to go up.
    Mr. McCormack. Sure.
    Mrs. Lummis. OK. So before the Act, was it humans that were 
keeping their numbers down?
    Mr. McCormack. The California sea lion is not native to 
that region.
    Mrs. Lummis. So, how did they get there?
    Mr. McCormack. I think it is just the migratory pattern of 
the sea lion. And, I think it was mentioned before, when they 
find an easy area to catch fish, they migrate to that area. 
And, of course, they benefit from the buffet, I think, is how 
it was explained earlier.
    Mrs. Lummis. So, following up, Mr. McCormack, there is a 
section 120 of NEPA, correct?
    Mr. McCormack. Yes.
    Mrs. Lummis. And that would allow for some taking of sea 
lions to help reduce their numbers so the salmonids have an 
opportunity to mature. Correct?
    Mr. McCormack. Correct.
    Mrs. Lummis. Now, you were awarded an exemption under 
section 120, is that correct?
    Mr. McCormack. No, ma'am. We were not awarded any exemption 
under 120. I think it was actually the treaty aspect of it. The 
treaty right was removed from tribes for lethal removal of sea 
lions as a treaty right to help protect those fish. However, we 
do believe that as tribes, that we should have that same equal 
opportunity. And that was with the legislation that was 
introduced by Ms. Herrera Beutler, that would give the tribes 
that ability to be considered as states, or to be part of that 
permitting process.
    Mrs. Lummis. Oh, OK, thanks. That is helpful to me. What 
has caused delays? Why would it be helpful to have a NEPA 
exemption? What has caused the delays?
    Mr. McCormack. I think, we have talked about this being 
such a man-manipulated system, we are seeing a crisis, and we 
are seeing a huge impact on salmon.
    And, with the NEPA process it has been very public. The 
public has had a tremendous amount of input, has had tremendous 
amounts of dialog in this process thus far. So, we feel that 
the science, the data, the information exists already, and we 
feel that we have presented the best science already, that 
allows us to be able to allow for that NEPA exemption for this 
part of the process.
    Mrs. Lummis. Mr. Stelle, how do you feel about the science 
that Mr. McCormack just discussed. Are you confident in the 
science he just described?
    Mr. Stelle. Yes, particularly as it relates to sea lion 
predation. We have good quantitative data on rates of predation 
by sea lions.
    On section 120 of the Marine Mammal Protection Act and the 
authority to lethally remove, we have some specific ideas about 
how that authority can be strengthened. It is cumbersome, and 
it is targeted at individuals. It creates a big evidentiary 
burden to be able to set up the ability to remove an 
individual. So, we think that re-shifting it away from problem 
individuals to populations is a better scoped program.
    On the issue of NEPA, ma'am, as a general proposition, our 
folks who have been implementing this program believe that the 
NEPA process, rounded, has actually been a help. And it has 
been a help because it has been the venue within which we can 
have an engaged public discussion about how to address sea 
lions. They have unequivocally said that that engaged public 
discussion strengthened the ability to implement the program.
    Mrs. Lummis. Mr. McCormack, one more question. Has 
litigation played a role in any of the delays here?
    Mr. McCormack. Absolutely. Nature does not wait for court, 
you know. It has a tendency to continue to move forward, 
regardless of what we feel we need to do. So, litigation has 
had impacts on the delay. Of course, the fish are going to 
continue to be impacted while we are in court. So, absolutely, 
litigation does have an impact.
    Mrs. Lummis. My time has expired. Again, thank you all. I 
yield back.
    Dr. Fleming. The gentlelady yields back. Mr. Lowenthal, you 
are recognized.
    Dr. Lowenthal. Thank you, Mr. Chair, and I thank the 
witnesses. For me, in southern California, this is a great 
learning experience.
    Let me just ask. I know you have already said this, but 
just to kind of understand where we go from here. I will start 
with Dr. Grossman. In your testimony, you clearly explain some 
of the ecological factors that are affecting salmon population, 
both kind of top-down things, such as predation we talked 
about, and fishing pressures, but also other factors, such as 
water contamination, water temperatures, stream architecture, 
and flow.
    So, the question I have is what the science really says. If 
we implemented policies--let's say we took one aspect of that, 
which we are here today talking about, predation, and we 
greatly reduced sea lion, striped bass, cormorant populations, 
we just decreased those. Do we have any way of predicting or 
understanding, knowing certainly what the impact would be on 
the salmon population? And, if we are going to really have a 
more aggressive predation issue, what are we really missing at 
that point? Or really, does the science say that it potentially 
could be anything, with limited resources, where do we go from 
here?
    Dr. Grossman. Thank you, Congressman. I would like to start 
by echoing one of Mr. Stelle's original comments, which is that 
management has to be based on science.
    Dr. Lowenthal. Yes.
    Dr. Grossman. And the gold standard for science is peer 
review. We have heard a lot of comments about this report, and 
that report, and so on and so forth. I don't know of very many 
peer-reviewed scientific articles that deal with predator 
control around the world that show that in natural systems 
predators really limit a species. It is only in these cases 
where habitat has been so messed up that the predators can 
congregate.
    In the Delta, for example, we have dams, all sorts of 
things that affect flow, that actually send salmon smolts into 
what we would call a death zone, to use kind of a sound byte. 
They send them into a part of the Delta where they cannot find 
their way down to the ocean. And, of course, that is where 
these exotic predators are, they are just waiting for these 
fish.
    Let me clarify one other point, since it has been implied 
repeatedly that I am opposed to predator control. I am not 
opposed to predator control if it is set up in a controlled, 
scientific manner so that, in the end, we can actually evaluate 
its effectiveness.
    Dr. Lowenthal. Evaluate the impact.
    Dr. Grossman. However, if you asked me based on what I know 
about the Sacramento-San Joaquin Valley, if you ask me 10 years 
from now will the millions of dollars that we will spend on 
predator control, if that will have a really significant impact 
on salmon abundance, I would say no.
    Also, what has been mentioned here are the declines in 
salmon, the bad years of 2008, 2009. NMFS agrees that those 
declines in the salmon population were caused by oceanic 
conditions, not by anything that happened in fresh water 
systems.
    So, to reiterate, I would love to see a predator control 
study that was well controlled so that, at the end of the day, 
we could, as citizens, say this money that we spent was 
justified or it was not justified. But if you ask me my opinion 
about where I would rather see the limited amount of funds we 
have spent, I would rather see them on habitat improvements and 
alterations to structures that divert fish.
    And there was a comment about Bonneville Dam. In the South 
Sacramento Valley, where the water export facilities are, there 
is an area called Clifton Court Forebay. When I had the hearing 
in 2013 on fish predation in the Delta and I was up there, 
somebody from the audience yelled out, ``It's Clifton Food 
Court.'' And that is an apt description of the situation that 
some of these structural alterations produce.
    Now, I am not saying--with all due respect to Mr. Costa--I 
am not saying we should stop all water exports or anything like 
that. I am just saying we need to identify what the root causes 
are of these problems. That is the only way to ensure that our 
management funds are being spent in a cost-effective manner----
    Dr. Lowenthal. Thank you. I am almost out of time.
    Dr. Grossman. Sorry.
    Dr. Lowenthal. I know Mr. Demko wants to comment on this.
    Mr. Demko. Yes.
    Dr. Lowenthal. I hope that you will have enough time to 
respond. But briefly.
    Mr. Demko. Well, this is interesting, and I don't know if I 
can do it briefly. What if I told you that mortality is not 
just a Delta problem. What if I told you the mortality of out-
migrating juvenile Chinook was 100 percent in some of our 
tributaries? Would that get me 5 minutes on the clock so I can 
elaborate?
    Dr. Lowenthal. Well, maybe if we have another round. No, 
Mr. Fleming is not going to give you----
    Mr. Demko. I was hoping to entice you with that one. But we 
did a FERC study in 2012 which required a lot of different 
parties, all the agencies, a lot of different individuals got 
together to plan this study.
    This was in the Tuolumne River. We had upstream and 
downstream estimates of juvenile Chinook abundance. And what we 
found is 96 percent loss, 96 percent loss at the same time we 
were evaluating predator populations, pumping stomachs. And all 
of that lost, I believe, can be explained by predation. And 
this is in the Tuolumne River, where we do not have levees, we 
do not have--there are some, but it is a much more natural 
environment than we have in the Delta. So, this is not just a 
Delta problem, this is a tributary problem.
    In the Stanislaus River in 2015, 100 percent of the fish 
that came back were hatchery fish. We do not have a hatchery on 
the Stanislaus River. So, the only way you get all hatchery 
fish coming back is if none of your natural fish survived 
during out-migration a few years prior.
    Dr. Lowenthal. I thank you. There is a signal I hear in the 
background. Hopefully it is not----
    Dr. Fleming. Good try again for the 4 minutes.
    [Laughter.]
    Dr. Fleming. I have lost total control here----
    Mr. Demko. I have more.
    Dr. Fleming [continuing]. So I have to regain it somehow.
    Dr. Lowenthal. Thank you, Mr. Chair. I yield back my time 
and everyone else's.
    [Laughter.]
    Dr. Fleming. Yes, thank you, Mr. Lowenthal.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I will try to steal 
back some time from southern California, as well.
    It is a pleasure to have the panel here today. Mr. Demko, 
from my neighborhood, so glad you could make it out here. Of 
course, your work on the Sacramento River and the Central 
Valley Project, and some of the clients you have worked for, 
really gives you much, much credibility in this area. So I 
appreciate your time.
    Part of what you stated in your testimony here--and I may 
have you elaborate on that tributary business a little bit 
more, too, but we are getting back to this predator issue in 
the Delta here. We have figures that show somewhere between 97, 
98 percent of the smolts are being consumed by predators. We 
are getting down to where we have 2 or 3 percent left that we 
can somehow manage with high flows, extra flows of water here.
    One of the examples was a pulse flow of about 80,000 acre-
feet in another situation. I mean, we are coming back to the 
prevailing thought that man-made infrastructure is bad, and we 
should just rip everything out, put it all back to where it 
was, and all water would flow out to the sea. That is what we 
ultimately are ending up with here.
    So, there is not much acknowledgment that the storage of 
water has made for this 4 years of drought the ability to 
release water, no matter what its temperature, no matter what 
amount you are releasing, to keep fish flows going and fish 
species, maybe not in perfect condition, but manageable until 
we get through the drought. There is not much acknowledgment 
that the man-made infrastructure has helped with that. It is 
always that is what is wrong with everything.
    Mr. Demko, please elaborate on the impact of the predators 
versus the amount of additional pulses we are doing, what is 
the ratio of success?
    Mr. Demko. Well, it is interesting, and this gets back to 
the flow question from earlier. I can say that in all my years 
of doing this, if there is one thing that could have been 
proven, if there was one thing that the government could have 
proved, it is that more flow equals more fish. And when I am 
talking about flow, I am talking about within the managed flow 
range, not in those high, wet flow years.
    But in all the studies that have been done over the years, 
I have seen nothing convincing that tells me that 1,000, 2,000, 
or 3,000 cfs during spring time increases the survival of the 
juveniles migrating out of the stream. So, I am just not a big 
fan, because I do not see those pulse flows being effective. 
And still, even if they were effective at moving fish 
downstream, you still have the downstream Delta problems. The 
mortality is also really high, and a couple of thousand cfs in 
the Delta is literally a drop in the bucket.
    Mr. LaMalfa. Thank you. We have heard that a lack of data 
from Mr. Grossman--Mr. Stelle, also--that we do not have the 
data on knowing what might happen if we somehow had a big 
reduction of the striped bass or some of the other predators 
that we have in this system or others. We don't know. We do not 
have the data.
    I would like to know, Mr. Stelle, what is the data that 
says 2.5 billion gallons of water released--urging the Bureau 
to do that down Clear Creek, how do you get that number? Two-
and-a-half billion gallons, by my rough math, is about 8,000 
acre-feet, which would be enough to handle the needs of about 
16,000 homes per year, and who knows how many crop acres. An 
arbitrary number.
    Where does that number come from? Hey, we are just going to 
have you release 2.5 billion gallons of water for this 
particular flow. What is the recovery? What is the payoff for 
releasing that much water without a lot of data?
    Mr. Stelle. Thank you, Congressman. I cannot answer 
specifically to the release you are referring to.
    Mr. LaMalfa. OK, any other large flow. Do you ask for a 
pulse of----
    Mr. Stelle. Yes.
    Mr. LaMalfa. A couple cases, 15,000 acre-feet.
    Mr. Stelle. Yes.
    Mr. LaMalfa. How are these numbers derived, that this is 
the right amount, with those waters flowing past other needs 
that people have, agriculture has----
    Mr. Stelle. The pulse flows are designed to move juveniles 
out of the system, down the river systems and into the Delta. 
So we typically----
    Mr. LaMalfa. What data is it based upon before it is 
decided to use that amount of water to do that? How much 
research, how much NEPA work has been done to decide this is 
the amount of water we should release during a drought year, 
water you would not normally have without the infrastructure 
that was built to contain it?
    Mr. Stelle. We use hydrological models that look at 
existing flows and the ability to increase existing flows above 
a certain baseline in order to trigger fish movement out. And 
then----
    Mr. LaMalfa. Filling the bathtub an extra few inches, such 
as Mr. Demko talked about, was going to have a positive effect?
    Mr. Stelle. Yes, it is really not volume, it is flow. It is 
velocity. It is speed and velocity that the juveniles will 
follow.
    Mr. LaMalfa. And who derived these models?
    Mr. Stelle. These are both Bureau and NOAA models.
    Mr. LaMalfa. And have they been peer-reviewed by anybody 
else besides internally?
    Mr. Stelle. Yes. Oh, yes.
    Mr. LaMalfa. And there is agreement by other water users 
that these are scientifically sound?
    Mr. Stelle. No, I would not say that there is an agreement 
on the pulse flows, sir. Not at all.
    Mr. LaMalfa. I still have another minute of southern 
California time, Mr. Chairman. Just kidding.
    [Laughter.]
    Mr. LaMalfa. Thank you.
    Dr. Fleming. Like I said, I have lost control today. I 
thank the gentleman. The Chair now recognizes Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman. Mr. Stelle, last July 
we held a hearing on predation. At that time, NOAA informed our 
office that there were no programs in California addressing 
predation and removing the non-native fish out of our area.
    I think you could hear from Mr. Costa's concern--not 
concern, frustration. We are pissed off. We have people that 
are out of jobs. It is affecting our entire community. And it 
feels like the Administration continues to ignore the fact we 
are struggling through a record drought. I think most of 
California believes that we have a high snowpack, that we have 
high water flows coming in, high precipitation, and that this 
4- or 5-year drought is somehow going to be over.
    Yet, last month, we pushed out 200,000 acre-feet of water 
in pulse flows, without addressing predation, which, by your 
numbers, is 97 percent. We have seen other numbers at 98 
percent. We are losing the endangered species that the 
Administration says we are trying to protect. But at what cost?
    Last month, we released 200,000 acre-feet of water. That is 
70,000 acres of farmland that will go fallow this year. That is 
1,500 jobs that will be lost. In my community, that is 400,000 
families, enough water for an entire year for 400,000 families.
    Mr. LaMalfa just asked about the science behind it. There 
has not been any science behind pulse flows. There have not 
been any reports coming out of your office that show that it is 
actually helping to save the population. I mean the question 
that Mr. Costa asked is, 10 years from now are we going to have 
this issue resolved, are we going to suddenly have more salmon 
in our area, are we no longer going to have this on the 
endangered species list? My prediction is no, it will still be 
on the endangered species list, we will just have less farmland 
and less people employed in our area.
    This Administration continues to talk about social justice. 
Where is the social justice in our area with the high 
unemployment, with communities that are being devastated, with 
the bread lines? This is no longer just a farming issue. This 
is no longer an issue between northern California and southern 
California. This is a national issue in the bread basket of the 
world, where lives are being damaged, and people are losing 
jobs. And we have yet to see anything coming out of your office 
to address predation in our area. How would you answer that?
    Mr. Stelle. A couple of responses, Congressman. First of 
all, you and your staff have been very constructive in helping 
fashion a non-federally funded predator control program in the 
drought legislation pending now, and we appreciate that, and we 
stand ready to work with you on implementing it.
    Second, we are, in fact, in the middle of pilot programs to 
look at predation hot spots, tag fish, and try to quantify the 
effectiveness of eliminating or reducing those hot spots. So we 
are, in fact, trying to implement a pilot program for control 
and reduction of predation, coupled with monitoring, so that we 
can generate the data, so we can make the case to expand the 
program. So, we are in the process, more work needs to be done.
    Mr. Denham. I can appreciate the ongoing discussions 
between your office and mine. They have been productive 
conversations. But my frustration goes with the Administration.
    We have had several different bills coming out of this 
committee now. Jamie Herrera Beutler had a bill. I have had a 
bill on predation. There was a bill on a pilot program dealing 
with--there is one on CVPIA dealing with the dual fish-doubling 
goals, as you mentioned. We have a ratepayer-financed one 
dealing with predation. Why does the Administration continue to 
come out and oppose each of these issues that are actually 
addressed with sound science?
    If our goal is really to protect these fish, fish over the 
people in our community, then shouldn't we at least have the 
programs in place, the legislation supported by the 
Administration?
    My question is how do we get the Administration to actually 
hear our message coming out of this committee, that this is an 
issue? And if we are going to address the endangered species, 
then we have to address some policies. We would expect them to 
work with us on those policies, especially when we are dealing 
with social justice in our community.
    I think we are out of time, but if you could carry that 
message back, and I will follow up with some questions in 
writing, as well.
    Mr. Stelle. I will do so, sir.
    Mr. Denham. Thank you. I yield back.
    Dr. Fleming. OK, the gentleman yields. Mr. Newhouse. You 
are recognized.
    Mr. Newhouse. Thank you, Mr. Chairman. I appreciate all the 
panel members here, talking about this important subject. 
Judging from the last questioner, this is costing us a lot of 
money, but a lot more than just ratepayer or taxpayer dollars. 
It is costing a lot of people's futures, as well. So it is an 
important topic, and I appreciate everybody's input here this 
morning.
    Mr. McCormack, Commissioner, I wanted to ask you a couple 
questions. Hatchery use has been something that has been 
prevalent for a long time. Some criticize hatcheries, others 
think they are a vital source for fish. Your organization has 
really been on the cutting edge of hatcheries in the Pacific 
Northwest, and we appreciate that very much.
    Could you describe for us what has been done in our region 
to expand the value of hatchery fish?
    Mr. McCormack. Absolutely, thank you. I think, again, it 
has been very contentious. And I think as tribes, there is 
always a conflict sometimes when you are dealing with nature 
versus manipulation. Again, I want to recognize that we tribes 
have always supported trying to be as natural as possible, but 
also recognize the cards that we have been dealt and the cards 
that lay on the table right now that we have to deal with and 
we cannot ignore.
    I think that is where the hatcheries come into play. We 
have had tremendous success, because of the dams. We built 
hatcheries, and we have had to do that because of the dams, to 
mitigate for the loss of those salmon. As a fisherman myself, 
there is great spiritual significance to the things that we do, 
and that is the effort that we put into it. It is not something 
that we do because it makes us money, it is something that we 
do because it is a part of our being, it is a part of the way 
we live our life. That is the effort that we put into it.
    So, when we have explored these hatcheries, trying to find 
new methods and cutting-edge ways, and trying to increase those 
salmon numbers, it is for the bringing back of those fish. And, 
we have numerous, numerous success stories that I think would 
take all day to go through, but I think those efforts are 
necessary right now. Hatcheries are necessary for our part of 
the region, in order to continue to live the way of life that 
we have brought upon ourselves.
    Mr. Newhouse. Thank you, I appreciate that. There are 
several pieces of legislation. One is H.R. 564, which is the 
Endangered Salmon and Fisheries Predation Prevention Act, which 
I have cosponsored. It attempts to amend the Marine Mammal 
Protection Act to allow Pacific Northwest states, as well as 
tribal authorities, to engage and participate in sea lion 
population management, which you are familiar with.
    In light of what we are talking about today, do you think 
that protections under the MMPA have caused an ecosystem 
imbalance?
    Mr. McCormack. I would not say that is the fault. I would 
not blame that. I think there are a lot of factors in that. We 
can use it as a management tool, again, looking at what we are 
dealing with, and looking at the system that we have to deal 
with.
    The imbalance is there, and we have to deal with that 
imbalance. That is our burden that we have brought upon 
ourselves. And I think that is the reason for it.
    Mr. Newhouse. Mr. Demko, in central Washington and the 
Pacific Northwest, through our hydro-electric dams, public 
power utilities spend hundreds of millions of dollars a year on 
fish passage and efforts to conserve salmon. In your opinion, 
can these conservation efforts be successful if we do not have 
an effective predation program?
    Mr. Demko. I think predation is so significant, considering 
the system that we have in California, the highly altered 
system that we have, all of the challenges that we have. I 
think, without doing something to reduce predation, it is 
really just a lost cause. I think we are just throwing money at 
a problem, and we are not going to get anywhere with it.
    Mr. Newhouse. Again, I appreciate everybody's contribution 
to this very, very important issue. Like I said, millions of 
dollars are spent annually on this, and we need to get it 
right. So, we look forward to continuing to work with all of 
you on that.
    Thank you, Mr. Chairman. I yield back my time.
    Dr. Fleming. The gentleman yields back. Panel, we are not 
going to do another formal round, but I will open up the dais 
for those who may want to ask one additional question.
    Mr. Costa, do you have a question?
    Mr. Costa. Yes, Mr. Chairman. I am informed that--I don't 
know if it is correct--that this week is National Invasive 
Species Week. I don't know if that is the purpose or the reason 
that we have had this hearing today. But my question is to Mr. 
Grossman and Mr. Demko. I think we have all acknowledged that 
we have altered the natural habitat, not just of the 
Sacramento-San Joaquin Valley, but you go up the river systems 
of the Northwest, to the Columbia. I mean it is not the same 
place it was 100 years ago. And we have climate change, and we 
have to deal with that.
    When we dealt with the silvery minnow problem in New 
Mexico, part of the solution to deal with that was to create, 
as I understand it, with the University of New Mexico, a 
hatchery program to propagate the silvery minnow. Is that 
correct, Mr. Stelle? You are nodding your head, yes.
    So, I am wondering. As we deal with the turbidity issue and 
the difficulty in monitoring smelt, which are the feeder fish, 
obviously, for the salmonid species, as well as, I guess 
striped bass like them really well, too----
    Mr. Stelle. Everybody like smelt.
    Mr. Costa. Everybody likes smelt. OK, good.
    [Laughter.]
    Mr. Costa. Would it not make any sense acknowledging that 
we have an altered state here to deal with part of that 
problem, in terms of feeder fish for these species we are 
trying to protect, to propagate for the biologists here--smelt, 
as we have done in other circumstances? Does that make any 
sense?
    Dr. Grossman. There is an experimental hatchery which 
provides fish for scientific research in the South Delta for 
Delta smelt.
    Mr. Costa. I know that, I am aware of it. But they 
obviously could produce a lot of Delta smelt that would deal 
with at least the issue of providing a feeder fish for the 
salmonid.
    Dr. Grossman. Yes. So, as Doug said, and as a review of the 
literature indicates, the majority of predators in the Delta, 
the majority of fish in the Delta are invasive species. The 
majority of prey of invasive predators are also invasive 
species. The problem with salmon and smelt is that they have 
been knocked down to such low levels that even a little bit of 
predation might affect their populations.
    Hatchery practices, in terms of restoration of fish 
populations, have been a mixed success. So they are typically--
--
    Mr. Costa. No, and I think that is acknowledged.
    Dr. Grossman. OK.
    Mr. Costa. Mr. Demko, do you want to opine?
    Mr. Demko. Interesting, because it has been said recently 
that you can total--with hatchery production of juvenile 
salmonids and juvenile salmon and natural production, we are 
probably talking about 35 to 40 million fish. It has been said 
that that represents 1 percent of the striped bass diet in a 
given year, which tells you the extent of the problem.
    So, stripers and all of the other non-natives are obviously 
out there, preying on salmon, preying on other fish. But most 
of what they are eating has to be other non-native fish, 
because that is what is in the system. So, I don't think there 
is any solution to finding an alternate food source or moving 
them, which I have heard people talking about.
    I sure think that hot spots--and it has become quite the 
key word these days, or a buzz word--10 years ago it was quite 
different. Definitely, this is again----
    Mr. Costa. We have all those fish finders so we can now 
know where those hot spots are.
    Mr. Demko. Yes. We should change, we should fix those hot 
spots. But fixing the hot spots is not going to solve the 
problem, because striped bass--and I was taught in college that 
they are only in the system for spawning. And the water holders 
in the Stanislaus River, who have been funding for over 10 
years now, were the first ones to document the migration of 
striped bass in the San Joaquin Basin and realize that they 
actually live in the system year-round, and they actually live 
fairly far upstream in cold water year-round.
    So, striped--they are not located at certain hot spots, or 
structures, or diversions. They are just living within the 
river. So, these striped bass are fish that have become highly 
adaptable.
    Mr. Costa. Do they have a predator?
    Mr. Demko. Sport fishermen.
    [Laughter.]
    Mr. Demko. It is the only one that comes to mind. And we 
are kind of restricting them. We have good restrictions on 
sport fishermen, which I am all for lifting, by the way, if you 
haven't noticed.
    Seals, I guess seals are another one. But other than that, 
I would say no.
    Mr. Costa. Thank you, Mr. Chairman.
    Dr. Fleming. OK, thank you. And Mr. Denham?
    Mr. Denham. Thank you, Mr. Chairman. Mr. Stelle, again I 
want to re-emphasize the great working relationship we have 
had. We have had an ongoing discussion between our offices, and 
I will continue to work on predation legislation as we move 
water bills forward, and hopefully get the Administration's 
positive report back on that.
    But right now, NMFS has the funding and the ability to put 
a predation program in place today, do you not, without current 
legislation?
    Mr. Stelle. To put the program that your legislation 
describes in place? Is that the question, sir?
    Mr. Denham. Yes.
    Mr. Stelle. Let me not speculate, but frankly, I have been 
wondering that exact question myself. If this is a good idea 
and we have a funding source that is willing to participate in 
it, what are we waiting for?
    So, let me, if I may, sir, circle back to you in a formal 
way and answer that question of can we proceed with your 
program, independent of legislation, and just get on with it. I 
would be happy to jump on that.
    On the other issue of----
    Mr. Denham. You can study whatever you want, though, under 
your current purview?
    Mr. Stelle. Oh, yes, absolutely.
    Mr. Denham. If you could get back to me on the predation 
piece.
    Mr. Stelle. Yes, I will.
    Mr. Denham. Our legislation is meant to force you to do it. 
We would rather see you do it on your own, especially with the 
science being there. And we would like to see that done as----
    Mr. Stelle. I will get back to you promptly.
    Mr. Denham. OK.
    Mr. Stelle. And stay engaged.
    Mr. Denham. Thank you.
    Dr. Fleming. OK, the gentleman yields. Mr. Huffman, do you 
have a question. OK, Mr. Huffman is recognized.
    Mr. Huffman. Thank you, Mr. Chairman. I appreciate this 
conversation. I hope that it is clear that, at least from my 
perspective, and I think the Democratic perspective in general, 
nobody is saying do not go and look at predation. Nobody is 
saying do not experiment, do not try some new things. I think 
what I and others are saying as well though is have the right 
expectations. Don't expect this to solve the problem.
    So, Mr. Stelle, my understanding is that the scientific 
community has kind of taken that approach. They are willing to 
look at this, but many have concluded that in a system as 
complex as the Delta, where you are not talking about a single 
defined channel on the lower Columbia River below Bonneville 
Dam, where you can sort of manage the predators right there, 
you are talking about a system of interconnected sloughs and 
tributaries and anabranched channels, that controlling one part 
of it for one period of time is going to be pretty transitory, 
and may not solve the problem. So, the expectation that this is 
going to deliver us from endangered status on any of our salmon 
runs is probably not very realistic.
    I wanted to ask you, though, about this idea that flows 
maybe do not matter, because we have sort of heard allusions to 
that once more. I think we do have some data and some 
scientific consensus that even this predation problem goes way 
down when flows go up. Could you comment on that?
    Mr. Stelle. Yes. We have litigated around the issue of flow 
regimes, minimum flow requirements, pulse flows. And we have 
prevailed in that litigation. There are extensive peer reviews 
of the hydrological models that we use, and the correlations 
that we have established between different flow regimes, 
different water years, productivity, and salmonid population 
productivity. I would be happy to provide the committee with a 
synopsis of some of that scientific work. We are not making 
this up at all.
    The difficulty is getting quite precise in your 
quantification. So, why do you choose four, and not five, or 
three? And the choice of target flows and a particular target 
is very difficult to justify, as compared to something--one 
unit above or one unit below. But as a practical matter, you 
need targets to manage operations.
    Mr. Huffman. Thank you. I yield--yes, please.
    Mr. Denham. You know, the ongoing question is, if this is 
something that will help, why wouldn't everybody want to look 
at it. But it is the state government that is holding this up.
    In FERC re-licensing for our area, you have to study this 
area. But it is Fish and Wildlife that is the one that is 
saying, ``No, we are not going to study it.'' So----
    Mr. Huffman. The Stanislaus, is it?
    Mr. Denham. Yes, for TID and MID, the two irrigation 
districts in my district that want to move forward, that need 
to study it, just for FERC re-licensing, let alone actually 
going the next step and actually saving fish and saving water. 
It is the State Fish and Wildlife that is saying no.
    Mr. Huffman. Well, again, I do not have any problem with 
studying it. I think there is probably a lot of broad support 
for continuing to study it. But the 95 percent loss, the 97 
percent loss in winter run that we have had these last few 
years, that was not predation. All the successful predation 
pilots in the world would not have saved any of those juvenile 
fish. And all of the evidence seems to suggest that there are 
much bigger stressors at work on these salmon populations than 
just predation.
    So, I think it is just important that we keep the bigger 
context, as we explore it.
    Dr. Fleming. OK. The gentlemen yield back, and we are done 
with our questions today.
    I would like to thank our witnesses for their valuable 
testimony. Members of the subcommittee may have additional 
questions for witnesses, and we ask for you to respond to those 
in writing. The hearing record will be open for 10 business 
days to receive those responses. If there is no further 
business, the committee stands adjourned.

    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of U.S. Fish and Wildlife Service, U.S. Department 
                            of the Interior
    Thank you for providing the Department of the Interior the 
opportunity to submit this statement for today's hearing. It is our 
understanding that the subcommittee is interested in the intersection 
between the Migratory Bird Treaty Act (MBTA) and the Endangered Species 
Act (ESA), as they relate to the protection and recovery of endangered 
salmon in the North Pacific. This statement describes the U.S. Fish and 
Wildlife Service's (Service's) role in the Federal management of 
double-crested cormorants and Caspian terns, as required by the 2008 
and 2014 Federal Columbia River Power System Supplemental Biological 
Opinions (BiOPs) for endangered salmon. This statement also provides an 
update on those management efforts.
                         endangered species act
    Under Section 7(a)(2) of the ESA, all Federal agencies must ensure 
that any action they authorize, fund or carry out is not likely to 
jeopardize the continued existence of a listed species or result in the 
destruction or adverse modification of designated critical habitat. If 
the Federal agency determines that an action may affect a listed 
species, then either formal or informal consultation with the Service 
or the National Marine Fisheries Service (NMFS) is appropriate. If a 
listed species will be adversely affected either directly or indirectly 
due to the Federal action, then the Service or NMFS prepares a 
biological opinion (BiOp) that includes a review of scientific 
information considered and a detailed discussion of the effects of the 
action on the listed species or designated critical habitat in the 
action area. If the proposed action is not likely to jeopardize the 
continued existence of a listed species, but incidental take is 
anticipated to be likely, then reasonable and prudent measures are 
included to minimize the impact of the incidental take. If the action 
is likely to jeopardize a listed species or adversely modify designated 
critical habitat, then reasonable and prudent alternatives are 
identified during consultation that can be implemented in a manner 
consistent with the intended action, are economically and technically 
feasible, and would avoid the likelihood of jeopardy for species or 
adverse modification for critical habitat.
    The action agency is responsible for initiating the Section 7 
consultation process by contacting either the Service or NMFS, 
depending on the ESA-listed species involved. The Service has 
responsibility for terrestrial, freshwater, and certain marine listed 
species and anadromous fish, including bulltrout and sturgeon, as well 
as sea otters, and manatees. NMFS is responsible for implementing the 
ESA Section 7 consultation for all other marine and anadromous fish 
species that are listed under the ESA.
    The 2014 BiOp \1\ and the 2008 BiOp,\2\ prepared by NMFS, in 
cooperation with the Service and the Action Agencies (U.S. Army Corps 
of Engineers, Bonneville Power Administration, and Bureau of 
Reclamation), comprehensively review the salmon lifecycle and require 
actions to address an array of factors that affect salmon survival and 
recovery, including operations at the dams in the FCRPS to improve 
juvenile and adult passage, estuary and tributary habitat improvements, 
and predator management. In both BiOps, NMFS has identified the 
management of avian predators as an important component of the overall 
program to improve the status of listed salmonid species. They 
specifically address the impacts of predation on listed salmonid 
species from double-crested cormorants, Caspian terns, and other bird 
species.
---------------------------------------------------------------------------
    \1\ http: / / www.westcoast.fisheries.noaa.gov/publications/
hydropower/fcrps/2014_supplemental_ fcrps_biop_final.

    \2\ https: / / www.salmonrecovery.gov/Files/BiologicalOpinions/
2008/2008%20BiOp.pdf.
---------------------------------------------------------------------------
                       migratory bird treaty act
    The Service is responsible for implementing and enforcing 
protections for native bird species under the MBTA (16 U.S.C. 703-711). 
Double-crested cormorants (Phalacrocorax auritus) and Caspian terns 
(Sterna caspia) are among 1,027 species protected under the MBTA, which 
was first enacted in 1918 to implement a treaty signed in 1916 between 
the United States and Great Britain (for Canada) for the conservation 
of birds that migrate between the two nations. The United States went 
on to become a party to three similar treaties with Mexico, Japan, and 
Russia. Each migratory bird treaty contains a prohibition against 
``take'' of protected birds, which under the MBTA includes killing, 
capture, sale, trade, barter, pursuit and other activities (16 U.S.C. 
703). Each treaty has a list of species that the parties have agreed to 
protect through the treaty provisions. The MBTA has been amended by 
Congress periodically to ensure that this statute fully and faithfully 
implements United States obligations under all four of these treaties. 
Cormorants and terns are protected under a 1972 amendment to the 1936 
United States-Mexico migratory bird treaty entitled the Convention for 
the Protection of Migratory Birds and Game Mammals.\3\ Under the MBTA, 
take is prohibited without a permit from the Secretary of the Interior 
(or designee), but no permit is required to harass or disturb protected 
birds, unless (1) the species is listed as threatened or endangered, 
(2) the species involved are bald or golden eagles, or (3) the 
harassment or disturbance will result in take.
---------------------------------------------------------------------------
    \3\ https: / / www.fws.gov/le/pdf/MigBirdTreatyMexico.pdf.
---------------------------------------------------------------------------
    To reduce avian predation on juvenile salmon, the 2008 BiOp calls 
for the U.S. Army Corps of Engineers (Corps) to develop and implement a 
Caspian Term Management Plan, and the 2014 BiOp calls for the Corps to 
develop and implement a Double-Crested Cormorant Management Plan. The 
2014 BiOp calls for the monitoring of predation on endangered salmonids 
by cormorants, terns and gulls.
                double-crested cormorant management plan
    The 2008 BiOp did not single out the impact of cormorant predation 
on juvenile endangered salmonids. However, one of the assumptions in 
the 2008 BiOp analysis was that specific rates of predation on juvenile 
endangered salmon estimated for the Base Period would remain unchanged 
into the future. Instead, the double-crested cormorant (DCCO) nesting 
population and predation rates increased substantially during 2003-
2009. As a result, the productivity of interior Columbia basin 
steelhead populations was about 3.6 percent lower than assumed for the 
Current Period in the 2008 BiOp analysis, and that of interior Columbia 
basin stream-type spring- and summer-run Chinook salmon and ocean-type 
SR fall Chinook salmon was about 1.1 percent lower than assumed.
    The 2014 BiOp, therefore, indicates that reduction of the DCCO 
nesting population in the Columbia River Estuary is necessary to 
address mortality of juvenile salmonids by migratory birds. The RPA to 
address this impact on juvenile endangered salmon requires the 
reduction of the DCCO nesting colony on East Sand Island to no more 
than 5,380 to 5,939 nesting pairs, in order to reduce their predation 
on juvenile salmonids in the estuary. In 2014, there were an estimated 
12,150 DCCO nests on East Sand Island. The Corps is responsible for 
implementing this requirement.
    The Corps prepared a DCCO Management Plan that proposes to reduce 
nesting cormorants on East Sand Island by 13.5 percent over 4 years, 
which would mean removal of approximately 11,000 cormorants in total. 
The Corps then applied for and received a depredation permit from the 
Service for calendar year 2015, authorizing the take of 3,489 DCCO and 
5,879 DCCO nests through January 31, 2016. Per Federal regulations, a 
depredation permit for migratory birds may be in effect for a maximum 
of 1 year. The Corps will apply for renewal of its depredation permit 
each year as described in the DCCO Management Plan.
    In issuing this and all MBTA depredation permits, the Service 
ensures that the requested action is consistent with the requirements 
of the MBTA and that the requested action is likely to provide short-
term relief from bird damage. Specifically, in issuing this type of 
permit, the Service ensures that the action: (1) meets the permit 
issuance requirements and criteria (See 50 CFR Sec. 13.21), including 
that the action does not potentially threaten a wildlife or plant 
population (See 50 CPR Sec. 13.21(b)(4)); (2) is consistent with the 
Federal depredation permit regulation (50 CPR Sec. 21.41); and (3) is 
compatible with the conservation of the migratory bird species as 
required by the MBTA. The DCCO depredation permit that was issued to 
the Corps is based on the recommendations of the final DCCO Management 
Plan, for which the Corps completed a Final Environmental Impact 
Statement (FEIS) in 2015.\4\ The Service was a cooperating agency on 
the FEIS. The FEIS evaluates a range of alternatives to reduce 
cormorant predation on juvenile salmonids and considers a number of 
different scientific analyses. The 2015 Cormorant FEIS presents the 
scientific analyses that were considered in preparing these 
alternatives.
---------------------------------------------------------------------------
    \4\ http: / / www.nwp.usace.army.mil/Media/Announcements / tabid/
1887/Article/565600/final-eis-double-crested-cormorant-management-plan-
to-reduce-predation-of-juven.aspx.
---------------------------------------------------------------------------
    For example, the FEIS took into consideration research funded by 
the Corps on the potential impacts associated with cormorant 
consumption of juvenile salmonids in the Columbia River Estuary as 
early as 1997. This research included monitoring of the size, 
productivity, and diet of DCCO nesting colonies in the estuary, 
including on East Sand Island. Other studies considered in the FEIS 
were conducted in 2004 on non-lethal management techniques, including 
habitat enhancement, methods to attract cormorants to habitat outside 
the Columbia River Estuary, and methods to dissuade cormorants from 
nesting on East Sand Island. In addition, development of management 
objectives for the cormorant colony at East Sand Island relied on the 
smolt survival gap (the difference between cormorant predation on 
juvenile salmonids between the base period (1983-2002) and the current 
period (2003-2009)).
    The 2014 BiOp also thoroughly addresses the issue of compensatory 
mortality. The idea of compensatory predation mortality argues that at 
least some portion of the fish consumed by predators would have died 
from other factors subsequent to the predation event. As stated in the 
2014 BiOp, regardless of the magnitude of compensatory mortality 
associated with cormorant predation in the Columbia River, there is no 
evidence that it has changed over time. Therefore, if the cormorant 
population is reduced to its level during the Base Period (between 
5,380 and 5,939 pairs), as described in the RPA, the impact of 
cormorant predation on salmonid survival (including any compensatory 
effects) should return to the same level that occurred during the Base 
Period. For the FEIS, new analyses were conducted to understand the 
environmental factors influencing predation by cormorants on salmon and 
steelhead. The 2014 BiOp also evaluated the significance of juvenile 
salmonid survival as a component of the salmon lifecycle. It was 
determined that reducing avian predation would help to improve safe 
passage for juvenile endangered salmonids through the Columbia River 
Estuary.
    Our understanding is that the Corps will continue to implement its 
DCCO Management Plan, as described in Chapter 5 of the 2015 Cormorant 
FEIS. Chapter 5 of the FEIS proposes annual take levels, which would 
allow the Corps to meet the 2018 targets in the 2014 BiOp. These 
numbers are proposals only and will be adjusted accordingly through 
annual review by an Adaptive Management Team that is comprised of 
representatives from the Corps, the Service, NMFS, USDA Animal and 
Plant Health Inspection Service (APHIS), and state and tribal entities.
    The Corps' depredation permit expired on January 31, 2016. As of 
October 28, 2015, 2,346 individual cormorants have been culled and 
5,089 nests have been oiled. In 2015, the Corps did not cull the total 
number of birds authorized under the 2015 depredation permit due to the 
late start of management activities. The Corps has submitted a permit 
renewal request to the Service for authorization of the proposed 
depredation permit activities in 2016, and it is currently under 
review.
                      caspian tern management plan
    The potential impact of nesting Caspian terns on East Sand Island 
on juvenile salmonids was recognized long before the 2008 BiOp called 
for the Corps to develop and implement a Caspian Tern Management Plan. 
The Service, in cooperation with NMFS and the Corps, completed the 
Caspian Tern Management to Reduce Predation of Juvenile Salmonids in 
the Columbia River Estuary FEIS \5\ in 2005, which describes and 
evaluates four alternatives for reducing Caspian tern predation on 
juvenile salmonids in the Columbia River Estuary, in compliance with 
the terms of a Settlement Agreement pertaining to tern and salmon 
management in the estuary.
---------------------------------------------------------------------------
    \5\ https://www.fws.gov/pacific/migratorybirds/pdf/
Caspian_Tern_Final_EIS.pdf.
---------------------------------------------------------------------------
    Under the Preferred Alternative, nesting habitat for the Caspian 
tern would be redistributed away from East Sand Island to other 
locations throughout the Pacific Coast region. This redistribution 
would be achieved by creating new or enhancing existing tern nesting 
habitat in Washington, Oregon (outside the Columbia River Basin), and 
California and ultimately reducing the tern nesting site on East Sand 
Island to about 1 to 1.5 acres. To ensure a suitable network of sites 
is available for terns on a regional scale, the FEIS proposed to 
replace twice the amount of nesting habitat that was being used by the 
terns and would be lost on East Sand Island. Since terns nested on an 
average of 4.4 acres on East Sand Island from 2001 to 2004, 
approximately 6 to 7 acres of replacement habitat were needed to 
replace the loss of nesting habitat on East Sand Island. This FEIS was 
used to describe information available on the impact of Caspian terns 
on juvenile salmonids, and it anticipated the RPA that would be 
undertaken would be pursuant to the FEIS' Preferred Alternative. 
Through an adaptive management process, the plan was updated in 2015 
\6\ and the acreage prepared for tern nesting on East Sand Island was 
reduced to 1.0 acres.
---------------------------------------------------------------------------
    \6\ http://www.nwp.usace.army.mil/portals/24/docs/announcements/
fonsi/final_cate_fonsi.pdf.
---------------------------------------------------------------------------
    To date, 11 alternative nesting habitat islands totaling 8.18 acres 
of available habitat have been constructed/enhanced at interior and 
coastal locations. Tern nesting habitat on East Sand Island has been 
reduced from 6 acres to 1.0 acre, which has reduced the colony from a 
pre-management level of about 9,000 pairs to 6,240 pairs. The last 
reduction of available habitat on East Sand Island was completed prior 
to the 2015 breeding season. This occurred simultaneous to the full 
dissuasion of the tern colonies on Goose and Crescent Island colonies 
that are inland in the Columbia River Basin. Due to the need for terns 
to relocate to available habitat, it may take several more years to 
reach the 3,125-4,375 breeding pair goal and the associated reduction 
of juvenile salmonid predation expressed in the 2005 Caspian Tern FEIS.
    At the time of completion of the 2014 BiOp, only Caspian terns 
nesting on Goose Island in Potholes Reservoir and Crescent Island in 
the Columbia River were slated for management action (e.g. reductions 
in habitat). Survival benefits to Upper Columbia River steelhead and 
spring Chinook are expected to increase since nesting dissuasion 
actions began in early 2014 on Goose Island. Additional benefits to 
Upper Columbia and Snake River juvenile salmonids should follow now 
that both alternative tern habitat has been developed outside the 
Columbia River Basin and nesting dissuasion actions have been in full 
force at Crescent Island since early 2015.
    The 2014 BiOp reports that the impacts of Caspian terns and other 
birds, such as gulls and pelicans, are largely addressed in the RPAs of 
the 2008 BiOp.
                               conclusion
    The Federal agencies remain committed to working together to 
implement the 2014 BiOp and the full complement of actions described in 
it to reduce avian mortality on juvenile endangered salmonids in the 
Columbia River. We are focused on the needs of listed species, as 
required under the ESA, as well as the United States' obligations to 
conserve migratory birds under the MBTA in compliance with our 
international treaty obligations. Due care and diligence, quality 
information, and continued collaboration with all affected 
jurisdictions will continue as the 2014 BiOp enters its second year of 
implementation, and beyond.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
